<html>
<title> - REFORMING THE JUVENILE JUSTICE SYSTEM TO IMPROVE CHILDREN'S LIVES AND PUBLIC SAFETY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
 REFORMING THE JUVENILE JUSTICE SYSTEM TO IMPROVE CHILDREN'S LIVES AND 
                             PUBLIC SAFETY

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, APRIL 21, 2010

                               __________

                           Serial No. 111-56

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html



                  U.S. GOVERNMENT PRINTING OFFICE
55-917                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       John Kline, Minnesota,
    Chairman                           Senior Republican Member
Donald M. Payne, New Jersey          Thomas E. Petri, Wisconsin
Robert E. Andrews, New Jersey        Howard P. ``Buck'' McKeon, 
Robert C. ``Bobby'' Scott, Virginia      California
Lynn C. Woolsey, California          Peter Hoekstra, Michigan
Ruben Hinojosa, Texas                Michael N. Castle, Delaware
Carolyn McCarthy, New York           Mark E. Souder, Indiana
John F. Tierney, Massachusetts       Vernon J. Ehlers, Michigan
Dennis J. Kucinich, Ohio             Judy Biggert, Illinois
David Wu, Oregon                     Todd Russell Platts, Pennsylvania
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Tom Price, Georgia
Timothy H. Bishop, New York          Rob Bishop, Utah
Joe Sestak, Pennsylvania             Brett Guthrie, Kentucky
David Loebsack, Iowa                 Bill Cassidy, Louisiana
Mazie Hirono, Hawaii                 Tom McClintock, California
Jason Altmire, Pennsylvania          Duncan Hunter, California
Phil Hare, Illinois                  David P. Roe, Tennessee
Yvette D. Clarke, New York           Glenn Thompson, Pennsylvania
Joe Courtney, Connecticut
Carol Shea-Porter, New Hampshire
Marcia L. Fudge, Ohio
Jared Polis, Colorado
Paul Tonko, New York
Pedro R. Pierluisi, Puerto Rico
Gregorio Kilili Camacho Sablan,
    Northern Mariana Islands
Dina Titus, Nevada
Judy Chu, California

                     Mark Zuckerman, Staff Director
                 Barrett Karr, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 21, 2010...................................     1

Statement of Members:
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     4
        Additional submissions:
            Statement of the W. Haywood Burns Institute..........    87
            Statement of the American Psychological Association; 
              Bazelon Center for Mental Health Law; Mental Health 
              America; and the National Disability Rights Network    90
    Petri, Hon. Thomas E., a Representative in Congress from the 
      State of Wisconsin.........................................     5
        Prepared statement of....................................     6
    Polis, Hon. Jared, a Representative in Congress from the 
      State of Colorado, submissions for the record:
        ``Boulder Prep High School: Where Youth-At-Risk Become 
          Youth-Of-Promise''.....................................    48
        ``BPHS Accountability Report, 2008/2009 School Year''....    49
        Boulder Prep High School brochure........................    53
        Justice High School mission statement....................    60
        Justice High School video, Internet access to............    61
    Scott, Hon. Robert C. ``Bobby,'' a Representative in Congress 
      from the State of Virginia, and Grijalva, Hon. Raul M., a 
      Representative in Congress from the State of Arizona, 
      submission for the record: statement of the National 
      Disability Rights Network..................................    93

Statement of Witnesses:
    Belton, Michael, Ramsey County, MN, deputy director of 
      juvenile corrections.......................................    22
        Prepared statement of....................................    24
    Burns, Scott, Esq., executive director, National District 
      Attorneys Association......................................    40
        Prepared statement of....................................    42
    Davis, A. Hasan, Esq., deputy commissioner for operations, 
      Kentucky Department of Juvenile Justice....................    15
        Prepared statement of....................................    17
    McClard, Tracy, parent.......................................    29
        Prepared statement of....................................    31
    Solberg, John S., M.S., executive director, Rawhide Boys 
      Ranch, New London, WI......................................    34
        Prepared statement of....................................    37
    Teske, Hon. Steven C., judge, Clayton County Juvenile Court, 
      GA.........................................................     8
        Prepared statement of....................................    10


                     REFORMING THE JUVENILE JUSTICE
                      SYSTEM TO IMPROVE CHILDREN'S
                        LIVES AND PUBLIC SAFETY

                              ----------                              


                       Wednesday, April 21, 2010

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 9:59 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Kildee, Payne, Scott, 
Woolsey, McCarthy, Tierney, Kucinich, Davis, Altmire, Clarke, 
Shea-Porter, Fudge, Polis, Sablan, Chu, Kline, Petri, Platts, 
Guthrie, and Roe.
    Staff present: Ali Al Falahi, Staff Assistant; Andra 
Belknap, Press Assistant; Jody Calemine, General Counsel; 
Denise Forte, Director of Education Policy; Ruth Friedman, 
Deputy Director of Education Policy ; David Hartzler, Systems 
Administrator; Sadie Marshall, Chief Clerk; Bryce McKibbon, 
Staff Assistant; Alex Nock, Deputy Staff Director; Rachel 
Racusen, Communications Director; Alexandria Ruiz, Staff 
Assistant; Melissa Salmanowitz, Press Secretary; Dray Thorne, 
Senior Systems Administrator; Kim Zarish-Becknell, Policy 
Advisor, Subcommittee on Healthy Families; Mark Zuckerman, 
Staff Director; Stephanie Arras, Legislative Assistant; Kirk 
Boyle, General Counsel; Casey Buboltz, Coalitions and Member 
Services Coordinator; Allison Dembeck, Professional Staff 
Member; Brian Newell, Press Secretary; Susan Ross, Director of 
Education and Human Resources Policy; Mandy Schaumburg, 
Education Policy Counsel; and Linda Stevens, Chief Clerk/
Assistant to the General Counsel.
    Chairman Miller [presiding]. The committee will come to 
order to conduct a hearing on the reauthorization of the 
Juvenile Justice Act and to hear from a series of witnesses on 
that--we are not delaying the markup, and thank you.
    Voice. Well, I would just like to deliver--because 
recession that you guys can't afford markers or whatever the 
issue is, but our community, there are people being fired 
because they are lesbian, gay, bi or transgender.
    Chairman Miller. As you know, we are working very hard on 
that legislation. We are working--I will not accept the marker. 
We are working on that as expeditiously as we can. Thank you 
very much.
    Voice. You are out of order.
    Chairman Miller. I appreciate it. Thank you.
    Voice. In Texas, Virginia, Mr. Chairman, I can be fired for 
being gay----
    Chairman Miller. I understand that. And that is why we are 
proceeding with the legislation.
    Just for the record, and for members of the audience who 
aren't familiar, those are individuals who are seeking the 
passage of Ending Discrimination in Employment Act, which this 
committee has jurisdiction over and which we are working on and 
which we expect to bring to markup rather quickly. It is not an 
easy piece of legislation.
    It is a fairly complicated piece of legislation. We want to 
get it right. But we expect it to have before this committee in 
the very near future.
    With that, we will go back to the subject matter of this 
morning's hearing, which is the juvenile justice system in this 
country. At today's hearing, we will examine the state of 
juvenile justice system in this country and a system that 
currently affects thousands of children and youth.
    It is a system much like the K-12 education system. There 
are numerous examples of successful programs, as well as 
programs and policies that continue to fail our children.
    Much like public education, we know the juvenile justice 
system can be a place of redemption and rehabilitation or a 
place where children are thrown away.
    The reauthorization of the Juvenile Justice and Delinquency 
Prevention Act is part of our committee's larger effort to 
support children, families and communities. Juvenile justice, 
like education, can be the cornerstone of a healthy community.
    The Juvenile Justice and Delinquency Prevention Act was 
first written in 1974 with the goal of supporting states' 
actions to prevent youth crime and to provide certain core 
protections for children. The law rightfully recognized that 
clear biological differences between teenagers and adults meant 
that youth should not be treated in the same manner as adults. 
And scientific advances that are helping us better understand 
the biology of the brain development have validated this 
century-old viewpoint.
    Without question, youth must be held accountable for their 
actions, but justice should not be driven by fads or politics. 
We need rational policies that prevent children from committing 
crimes in the first place, and we need to support effective 
alternatives to detention when possible and treat our 
incarcerated youth humanely when it is not possible.
    We know from the research that policies such as these have 
greater impact on public safety than locking children up and 
throwing away the key. With this law up for reauthorization, we 
are here to take stock of how the current system is working and 
what more can be done to provide our youth, families and 
communities with the support that they need to avoid criminal 
behavior and to make our communities safer places to live.
    Today, thanks to the hard work of families and communities 
across the country, juvenile crime is decreasing. Between 1999 
and 2008, the number of juvenile arrests decreased by 16 
percent.
    We know that when there is a focused effort early in a 
child's life to prevent him or her from breaking the law, the 
juvenile crime rates goes down. We also know that when given 
the right kind of treatment, most of these children can turn 
their lives around, so it is in the best interest of our nation 
that we provide that opportunity.
    But the data show a far different reality. First, too many 
children end up in detention, despite the fact that such 
policies can actually decrease public safety.
    Second, minority youth are disproportionately involved in 
the juvenile justice system, and too few states are actively 
working to change this, despite the requirements in the law.
    And, lastly, conditions of confinement interfere with 
rehabilitation and can increase recidivism.
    Today we will hear from witnesses about effective reform 
efforts that don't excuse delinquency or criminal behavior, but 
also effectively redirect youth, providing appropriate 
treatment and services, and giving them a better opportunity to 
move in a more positive direction and ultimately make 
communities safer.
    We will hear about the efforts to stop locking up status 
offenders. We will hear about the disturbing and growing trend 
of children being held in adult jails, despite the Center of 
Disease Control's concluding this has a negative impact on 
public safety.
    Every year, some 200,000 youth in this country are held, 
sentenced or incarcerated as adults. According to the studies 
funded by the Department of Justice, children in adult jails 
are eight times more likely to commit suicide than in juvenile 
facilities. They are also 50 percent more likely to be attacked 
with a weapon and more likely to be raped.
    Kids in adult jails don't have access to real education or 
rehabilitative services. It is much harder for them to turn 
their lives around.
    We will hear this morning from Tracy McClard, a mother 
whose teenage son tragically took his own life after suffering 
horrific abuses in an adult jail. No one questions that her son 
needed to be held accountable for his actions, but neither 
should he have been put in conditions that led him to believe 
that taking his life was the only acceptable option.
    No parent should have to experience what she has been 
through. Ms. McClard, we want to thank you for your courage to 
be here today and to share your story.
    These are just several of the issues that we will explore 
as we work toward this reauthorization. I know every member of 
this committee agrees that nothing is more important than the 
safety and the well-being of our children.
    Throughout this reauthorization, we will need to keep our 
focus on the reforms that will help reduce crime through 
effective and appropriate prevention and intervention, and keep 
the communities safe to ensure that our juvenile justice system 
preserves basic rights for the children it serves.
    I would like to thank all our witnesses for being here 
today and thank you for your time and your expertise. And I 
look forward to your testimony.
    And now I would like to recognize the senior Republican on 
the committee, Mr. Petri, for an opening statement.
    [The statement of Mr. Miller follows:]

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning.
    Today's hearing will examine the state of the juvenile justice 
system in this country. It is a system that currently affects thousands 
of children and youth.
    It is a system much like K-12 education. There are numerous 
examples of successful programs, as well as programs and policies that 
continue to fail our children.
    Much like public education, we know that the juvenile justice 
system can be a place of redemption and rehabilitation or a place where 
children are thrown away.
    The reauthorization of the Juvenile Justice and Delinquency 
Prevention Act is part of our committee's larger effort to support 
children, families and communities.
    Juvenile justice like education can be a cornerstone of a healthy 
community.
    The Juvenile Justice and Delinquency Prevention Act was first 
written in 1974 with the goal of supporting states' actions to prevent 
youth crime and provide certain core protections for children.
    The law rightfully recognized that clear biological differences 
between teenagers and adults meant that youth should not be treated in 
the same manner as adults.
    Scientific advances that are helping us better understand the 
biology of brain development have validated this century-old viewpoint.
    Without question, youth must be held accountable for their actions.
    But justice should not be driven by fads or politics.
    We need rational policies that prevent children from committing 
crimes in the first place.
    And we need to support effective alternatives to detention when 
possible, and treat our incarcerated youth humanely when it is not 
possible.
    We know from the research that policies such as these have a 
greater impact on public safety than locking children up and throwing 
away the key.
    With this law up for reauthorization, we are here to take stock of 
how the current system is working, and what more we can do to provide 
our youth, families, and communities with the supports they need to 
avoid criminal behavior and make our communities safer places to live.
    Today, thanks to the hard work of families and communities across 
the country, juvenile crime is decreasing.
    Between 1999 and 2008, the number of juvenile arrests decreased by 
16 percent.
    We know that when there is a focused effort, early in a child's 
life to prevent him or her from breaking the law, the juvenile crime 
rate goes down.
    We also know that when given the right kind of treatment, most of 
these children can turn their lives around so it is in the best 
interest of our nation that we provide that opportunity.
    But the data show a far different reality.
    First, too many children end up in detention despite the fact that 
such policies can actually decreases public safety.
    Second, minority youth are disproportionately involved with the 
juvenile justice system and too few states are actively working to 
change this, despite the requirements in the law.
    And lastly, conditions of confinement interfere with rehabilitation 
and can increase recidivism.
    Today we'll hear from witnesses about effective reform efforts that 
don't excuse delinquency or criminal behavior but also effectively 
redirect youth, providing appropriate treatment and services, and 
giving them a better opportunity to move in a more positive direction 
and ultimately make our communities safer.
    We'll hear about efforts to stop locking up status offenders.
    We'll also hear about the disturbing--and growing--trend of 
children being held in adult jails despite the Centers for Disease 
Control concluding this has a negative impact on public safety.
    Every year, 200,000 youth in this country are held, sentenced or 
incarcerated as adults.
    According to studies funded by the Department of Justice, children 
in adult jails are eight times more likely to commit suicide than in 
juvenile facilities.
    They are also 50 percent more likely to be attacked with a weapon 
and much more likely to be raped.
    Kids in adult jails also don't have access to real education or 
rehabilitative services.
    It's much harder for them to turn their lives around.
    We'll hear from Tracy McClard, a mother whose teenage son 
tragically took his own life after suffering horrific abuses in an 
adult jail.
    No one questions that her son needed to be held accountable for his 
actions, but neither should he have been put in conditions that led him 
to believe taking his life was his only acceptable option.
    No parent should have to experience what she has been through. Mrs. 
McClard, thank you for your courage to be here and share your story.
    These are just several of the issues we will explore as we work 
toward this reauthorization.
    I know every member of this committee agrees that nothing is more 
important than the safety and well-being of our children.
    Throughout this reauthorization, we will need to keep our focus on 
reforms that will help reduce youth crime through effective and 
appropriate prevention and intervention, keep our communities safe and 
ensure our juvenile justice system preserves basic rights for the 
children it serves.
    I'd like to thank all our witnesses for being here today. I look 
forward to your testimony.
                                 ______
                                 
    Mr. Petri. Well, thank you very much, Mr. Chairman, for 
having this important hearing. And welcome to our witnesses.
    Mr. Kline, the ranking Republican on the committee, sends 
his regrets that he is unable to be here this morning, but I am 
delighted to have the opportunity to participate in this 
hearing.
    We are here today to examine juvenile justice and the goals 
of the Congress as it looks to reauthorize the Juvenile Justice 
and Delinquency Prevention Act. Last reauthorized in 2002, the 
Juvenile Justice and Delinquency Prevention Act helps states 
and local leaders reduce juvenile crimes through programs and 
activities aimed at prevention.
    An important part of this effort are faith-based programs 
that offer valuable services to help reform juvenile offenders 
once they have served their time. Such organizations are an 
avenue for juvenile offenders to escape the downward spiral 
from delinquency to criminality.
    I am particularly interested to hear the testimony today of 
John Solberg, executive director of Rawhide Boys Ranch, in 
Wisconsin. The Rawhide Boys Ranch, which I have had the--I used 
to have the opportunity to represent and I have had the 
opportunity to visit many times, is a residential childcare 
center licensed with the state of Wisconsin to treat at-risk 
youth, 12 to 21 years of age.
    And I am pleased that this committee has an opportunity to 
hear about the important work underway at that institution.
    No one questions the important role organizations like 
Rawhide Boys Ranch play in the lives of juvenile offenders. 
Alternatives to traditional incarceration are an important 
component of the juvenile justice system, offering youth 
offenders a path back into the community. Yet there continues 
to be--there continue to be cases where the crimes are so 
serious or the risk to the community is so great that 
traditional incarceration or other substantial punishment may 
be the best course of action.
    As federal policymakers, we cannot presume to know what is 
in the best interests of every juvenile offender or local 
community. States should have the ability to address juvenile 
offenders in a variety of ways, such as faith-based programs, 
residential facilities, and detention centers, when they are 
deemed necessary.
    As we consider alternatives to incarceration, the proper 
application for the institutionalization and strategies to 
reduce recidivism, we should remember that state and local 
leaders hold a unique and critically important perspective on 
these policy questions.
    We should move forward in a way that notes and pays 
attention to their concerns and provides them with the 
flexibility they need to serve the best interests of the 
juvenile offenders and the safety of their local communities.
    Mr. Chairman, again, thank you for holding this hearing, 
and I look forward to hearing----
    [The statement of Mr. Petri follows:]

    Prepared Statement of Hon. Thomas E. Petri, a Representative in 
                  Congress From the State of Wisconsin

    Thank you Mr. Chairman and welcome to our witnesses. Mr. Kline 
sends his regrets that he is unable to be with us this morning.
    We are here today to examine juvenile justice and the goals of the 
Congress as it looks to reauthorize the Juvenile Justice and 
Delinquency Prevention Act. Last reauthorized in 2002, the Juvenile 
Justice and Delinquency Prevention Act helps state and local leaders 
reduce juvenile crime through programs and activities aimed at 
prevention.
    An important part of this effort are faith-based programs that 
offer valuable services to help reform juvenile offenders once they 
have served their time. Faith-based organizations are an avenue for 
juvenile offenders to escape the downward spiral from delinquency to 
criminality.
    I am particularly interested to hear the testimony today of Mr. 
John Solberg, the Executive Director of Rawhide Boys Ranch in 
Wisconsin. The Rawhide Boys Ranch is a residential care center licensed 
with the state of Wisconsin to treat at risk youth 12 to 21 years of 
age. I am pleased that this Committee has an opportunity to hear about 
the important work underway in my home state of Wisconsin.
    No one questions the important role organizations like Rawhide Boys 
Ranch play in the lives of juvenile offenders. Alternatives to 
traditional incarceration are an important component of the juvenile 
justice system, offering youth offenders a path back into the 
community. Yet there continue to be cases where the crimes are so 
serious, or the risk to the community is so great, traditional 
incarceration or other substantial punishment may be the best course of 
action.
    As federal policymakers, we cannot presume to know what is in the 
best interest of every juvenile offender and local community. States 
should have the ability to address juvenile offenders in a variety of 
ways, such as faith-based programs, residential facilities, and 
detention centers when they deem them necessary.
    As we consider alternatives to incarceration, the proper 
application for institutionalization, and strategies to reduce 
recidivism, we should remember that state and local leaders hold a 
unique and critically important perspective on these difficult policy 
questions. We should move forward in a way that heeds their concerns 
and provides them with the flexibility they need to serve the best 
interests of juvenile offenders and the safety of their local 
communities.
    Mr. Chairman, thank you again for holding this hearing, and thank 
you to the witnesses for being with us this morning.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    At this point, I would like to introduce our panel of 
witnesses. Our first witness will be the Honorable Steven 
Teske, who has served as judge in the juvenile court of Clayton 
County, Georgia, since his appointment in 1999. Judge Teske is 
the immediate past president of the Georgia Council of Juvenile 
Court Judges and appointed by the governor to chair the 
Governor's Office for Children and Families. The governor also 
appointed him to serve as the Judicial Advisory Council of the 
Board of Juvenile Justice and Federal Advisory Committees for 
the Juvenile--for the Juvenile Justice for the U.S. Department 
of Juvenile--jeez, that is a long title. [Laughter.]
    Judge Teske is a very busy man. Let me just put it that 
way. And we appreciate you being here. But from the U.S. 
Department of Justice's Office of Juvenile Justice and 
Delinquency Prevention. We are going to have to work on your 
resume, Judge.
    Okay. Mr. Hasan Davis is the deputy commissioner of 
Kentucky Department of Juvenile Justice and a frequent speaker 
and presenter on issues of education, juvenile justice, and the 
arts in local, state and national levels. Once labeled as a 
delinquent with an early arrest record, Mr. Davis went on to 
earn his GED, a B.A. from Berea College, and a J.D. from the 
University of Kentucky College of Law.
    Mr. Davis has served as director of the Lexington Youth 
Violence Prevention Project, chair of the Kentucky Juvenile 
Justice Advisory Board, and a fellow at the Rockefeller 
Foundation's Next Generation Leadership Program.
    Michael Belton is the current deputy director of juvenile 
corrections for Ramsey County, where he oversees the county's 
juvenile detention and probations and correctional programs. He 
has previously served as director of Hennepin County juvenile 
probation and most recently with the county's JDAI coordinator. 
Mr. Belton is the 2005 Bush Foundation Fellowship recipient.
    Tracy McClard became involved in juvenile justice system 
when her youngest son, Jonathan, was arrested on an assault 
charge. At 16 years old, he was certified as an adult. And 3 
days after his 17th birthday, Jonathan committed suicide by 
hanging himself in his cell. Since Jonathan's death, Ms. 
McClard advocates to keep children out of adult criminals 
justice system and is a member of the National Parents Caucus, 
which works to bring together parents of those children who 
have been involved in adult criminal justice system. Ms. 
McClard resides in Jackson, Missouri, with her husband and is 
finishing her last year as special education teacher.
    And now I would like to yield to Mr. Petri to introduce Mr. 
Solberg.
    Mr. Petri. Well, thank you again, Mr. Chairman. And it 
really is an honor for me to have the opportunity to introduce 
the long-time family friend, John Solberg, who is the executive 
director of the Rawhide Ranch, having worked there many, many 
years.
    I mentioned in my introductory remarks I have had the 
opportunity to visit that institution, and it is really a 
wonderful place to visit. And the success record of taking kids 
who--basically, this is their last chance. They have been 
sentenced to prison, and they are given the choice if they--if 
they sign up for the program of undergoing the Rawhide 
experience. And they have an opportunity to remake their lives, 
and many have done it and have been exemplary leaders in a 
whole range of fields in our society.
    So these are young people with a great deal of promise who 
have gotten themselves in very, very deep trouble with almost 
no way out. And Rawhide has been one of the ways that has been 
a successful way out.
    It was founded by John and Jan Gillespie and legendary 
Green Bay Packer quarterback Bart Starr and his wife, Cherry, 
in 1965. And Mr. Solberg has been employed by Rawhide since 
2000 and served on the board of the Wisconsin Association of 
Family and Children's Agencies from November 2005 to 2009 and 
is a past member of the Alliance for Children and Families 
public policy committee.
    He in 2006 participated in the Substance Abuse and Mental 
Health Services Administration's Building Bridges Summit that 
created a forum for residential and community-based service 
providers. And recently he was appointed by our governor, Jim 
Doyle, to an 11-member statewide committee to examine Wisconsin 
juvenile justice institutions and explore how to best serve 
juveniles in the future.
    Prior to joining Rawhide, he spent 8 years at First 
National Bank-Fox Valley, where he served as a vice president. 
He is a graduate of the University of Wisconsin, Madison, with 
a B.A. in economics and political science and Marian University 
with a master's degree in organizational leadership and 
quality.
    I look forward to John's testimony, and I know the 
committee will find it useful.
    Thank you for joining us.
    Chairman Miller. Thank you very much.
    Our last witness will be Mr. Scot Burns, who has served as 
the executive director of the National District Attorneys 
Association since March 2009. Prior to his work for the 
association, Mr. Burns served from 2002 to 2009 as a deputy 
director of the White House Office of Drug Control Policy, 
where he was responsible for coordination, implementation of 
the president's national drug control strategy. Mr. Burns also 
served as an elected county attorney and chief prosecutor from 
Iron County, Utah, for 16 years.
    Welcome to the committee again.
    And, Judge Teske, we are going to start with you. In front 
of you is a little box with lights on it. When you begin your 
testimony, a green light will go on. Your full testimonies will 
be placed in the record of this hearing, and the extent to 
which you can summarize will be appreciated, but we want you to 
feel--you know, make sure you convey your important points.
    An orange light will come on, and you will have about a 
minute to wrap up, and 5 minutes, the red light will come on. 
So welcome, and thank you again for your taking your time to be 
with us.

   STATEMENT OF JUDGE STEVEN TESKE, JUVENILE COURT, CLAYTON 
                           COUNTY, GA

    Judge Teske. Thank you.
    Chairman Miller. And now I switched glasses so I can see 
who the hell you are for start.
    Judge Teske. Good morning, Chairman Miller, Ranking Member 
Petri, and members of the House Education and Labor Committee.
    Thank you for having me here to testify today about the 
Juvenile Detention Alternatives Initiative, known as JDAI, and 
how JDAI has worked in Clayton County, Georgia, to reduce the 
unnecessary and costly detention of youth while improving 
public safety outcomes.
    My name is Steven Teske, and I am a judge at the Clayton 
County juvenile court in Georgia, just south of Atlanta. In 
addition to my 10 years as a judge, I have been involved in the 
juvenile justice system in other capacities, as previously 
noted by you, Mr. Chairman.
    In the juvenile justice system, detention is where youth 
are held before a hearing to determine if the youth has 
actually committed a delinquent act, essentially the equivalent 
of adult jail. Today, 400,000 youth are detained every year, 
with 25,000 youth held on any given night. Two-thirds are 
detained for property or drug crimes, public order offenses, 
technical probation violations, status offenses, or violations 
of court orders.
    Youth of color, who are nearly 70 percent of detained youth 
in 2006, are disproportionately represented in detention 
facilities. Research shows detention results in harsher 
treatment of a youth throughout their involvement with the 
system, independent of the youth's charges or prior records.
    In addition, detention has been shown to increase 
recidivism, prolonged delinquency, and create new or exacerbate 
existing mental health disorders for youth.
    Not only does over-reliance on detention not work from a 
public safety perspective, it is expensive. On average, one 
detention bed costs over $70,000 per year to operate, and the 
average cost to build, finance and operate a single detention 
bed over its first 20 years is approximately $1.5 million per 
bed.
    In 2004, Clayton County became a JDAI site, and the results 
have been nothing but dramatic. Since becoming a JDAI site, our 
county has seen a 70 percent decrease in our average daily 
population in juvenile detention facilities, a 48 percent 
decrease in the number of youth committed to juvenile 
correctional facilities, and a 65 percent decrease in the 
number of youth of color who are detained.
    Most importantly, we have made these reductions while 
making our community safer. And since becoming a JDAI site, 
Clayton County has seen a 54 percent reduction of the number of 
youth with formal charges filed with the court.
    What the numbers don't show is the culture change that JDAI 
has stimulated. By following the JDAI model, Clayton County now 
makes collaborative data-driven decisions that enable us to 
keep youth in their homes and communities rather than in 
detention facilities.
    Our multi-agency collaboration has helped us get to the 
root causes of why youth come to the attention of the system 
and utilize different agency services to address what I call 
the youth's delinquency-producing needs.
    For example, one of our biggest changes has been the 
implementation of finding alternatives for safety and 
treatment, or FAST, panels. These panels composed of 
representatives from youth-serving organizations and justice 
system agencies meet before detention hearings to determine 
what, if any, services, supports and supervision are needed to 
safely release youth charge with delinquent acts.
    These panels have been extremely successful at diverting 
youth not only out of detention, but out of the juvenile 
justice system entirely. For example, having mental health 
experts at the table allows the court to identify and divert 
youth with mental health needs more quickly than a judge could.
    Another major change has been reducing referrals from the 
education system to the juvenile justice system. After 
examining data, we found that over one-third of the juvenile 
justice system referrals were coming from the education system, 
and over 90 percent of these referrals were from minor school 
disciplinary matters.
    We use the JDAI model to bring together the police chief, 
the school superintendent, and other stakeholders to negotiate 
guidelines on when school misbehavior would be handled by the 
school and when such behavior would result in a juvenile 
justice system referral and to create an alternatives to 
suspension program.
    JDAI was started over 20 years ago by the Annie E. Casey 
Foundation with the goals of safely minimizing detention, 
reducing DMC, improving conditions of confinement, and 
deploying juvenile justice system resources more effectively.
    Since its inception, JDAI has grown from a handful of sites 
to more than 110 local jurisdictions in 27 states. The JDAI 
reform model, which is used in every site, includes 
collaboration, collection and utilization of data, objective 
admissions screening, new or enhanced non-secure alternatives 
to detention, case processing reforms, flexible policies and 
practices to deal with special detention cases, like probation 
violations, and intensive monitoring of conditions of 
confinement.
    Using these strategies, JDAI sites have reduced detention 
by an average of 35 percent without any decrease in public 
safety. In fact, most sites report improved public safety 
outcomes because they are more likely to identify and detain 
those youth who do pose significant risk. These sites have 
saved millions of taxpayer dollars by closing almost 1,000 
unused secure beds and redeploying some of these resources to 
community-based programming.
    These sites are also the only places nationally that have 
measurably reduced the disproportionate confinement of minority 
youth.
    As the committee considers the reauthorization, I would 
recommend that the committee include the JDAI principles that 
have worked so well in Clayton County in its reauthorization 
bill, including reducing reliance on detention and 
incarceration of youth, incentivizing jurisdictions to reinvest 
money spent on detention and incarceration into effective 
community-based alternatives, promoting the use of data to 
reform and inform decisions made by the juvenile justice 
system, and finally, Mr. Chairman, encouraging state and local 
agencies that serve youth to work collaboratively with the 
juvenile justice system.
    Thank you very much for having me here.
    [The statement of Judge Teske follows:]

   Prepared Statement of Hon. Steven C. Teske, Judge, Clayton County 
                           Juvenile Court, GA

    Good Morning, Chairman Miller, Ranking Member Kline, and members of 
the House Education and Labor Committee. Thank you for having me here 
to testify today about the Juvenile Detention Alternatives Initiative 
(JDAI), how JDAI can help strengthen and transform juvenile justice 
policy and practice, and how JDAI has worked in Clayton County, 
Georgia.
    My name is Steven Teske and I currently serve as a judge at the 
Clayton County Juvenile Court in Georgia. In addition to the ten years 
I have spent on the court, I have been involved in the juvenile justice 
system in many other capacities. At the Governor's request, I represent 
the 13th Congressional District on the Board of Georgia Children and 
Youth Coordinating Council (and serve as the Chair of the Board), chair 
the Governor's Office for Children and Families, and serve on the 
Judicial Advisory Council to the Board of the Department of Juvenile 
Justice. I also serve as a representative for Georgia on the Federal 
Advisory Committee on Juvenile Justice for the United States Department 
of Justice's Office of Juvenile Justice and Delinquency Prevention. In 
2008, I served as the President of the Georgia Council of Juvenile 
Court Judges.
    In my testimony today, I would like to provide background on JDAI, 
including its goals, strategies, and results, and to put JDAI into 
context with the juvenile justice system as a whole. I would also like 
to address how JDAI has specifically worked in Clayton County to reduce 
the unnecessary and costly detention of youth while also improving our 
public safety outcomes.
Overview of JDAI
    The Juvenile Detention Alternatives Initiative (JDAI) is an 
initiative of the Annie E. Casey Foundation, which was established over 
60 years ago in 1948 to help build better futures for disadvantaged 
children in the United States. To further this mission, the Annie E. 
Casey Foundation funds initiatives aimed at strengthening those public 
systems established to respond to the challenges faced by fragile and 
disadvantaged children and families.
    One of these initiatives is JDAI, which began over 20 years ago as 
an effort to strengthen the nation's juvenile justice systems and 
improve the odds that delinquent youth would become productive adults. 
JDAI focuses on the detention component of juvenile justice--a worthy 
ambition in its own right--but was based on the notion that the 
policies, practices and skills that would be required to change 
detention would have a transformative effect on other components of the 
system as well.
    JDAI was also a direct response to dramatic growth in detention use 
in the 1990s that was unrelated to juvenile offending. The initiative 
has five main objectives:
    1. Decreasing the number of youth unnecessarily or inappropriately 
detained in juvenile detention centers. Put another way, JDAI seeks to 
ensure that the only the right youth are detained and that these youth 
are detained for the minimum amount of time needed to advance to the 
next phase of the juvenile justice process;
    2. Reducing the number of youth who fail to appear in court or re-
offend
    3. Redirecting public funds spent on juvenile justice towards 
effective processes and public safety strategies;
    4. Ensuring that those youth who must be detained, and the staff 
responsible for their care and custody, are held in facilities whose 
conditions of confinement meet, at least, the constitutional standards 
established by law; and,
    5. Reducing the disproportionate minority confinement and contact 
of the juvenile justice system.
    Since its inception in the 1990s, JDAI has grown exponentially from 
a handful of sites to more than 110 local jurisdictions in 27 states, 
including Clayton County. Seventeen states have signed on as JDAI 
partners committed to supporting local efforts to adopt JDAI throughout 
their state. In total, over 61% of youth in the United States live in a 
state with at least one JDAI site.
    Before I delve deeper into how JDAI works and its results, I 
believe it is crucial to understand where juvenile detention fits into 
the broader juvenile justice system, how detention affects youth, and 
why the Initiative focuses on improving this particular component of 
the juvenile justice system.
The Importance of Detention
    The juvenile justice system is a system unique and apart from the 
adult criminal justice system with its own terminology and culture. In 
the juvenile justice system, detention refers to the holding of a youth 
in a locked juvenile facility after their arrest until an adjudication 
hearing can be completed to determine if the youth has actually 
committed a delinquent act. In adult court terms, juvenile detention is 
the equivalent of holding adults in jail pending trial.
    Although the vast majority of youth in detention are awaiting an 
adjudication hearing, youth are often held in detention for a variety 
of other reasons as well. Youth may remain in detention awaiting 
placement in another facility or a community-based program following 
adjudication. For example, if a judge has ordered a youth to a 
particular program in the community, but there are no available slots 
open, the youth can be held in detention until a slot becomes 
available. Frequently, youth also are held in detention pending 
probation violation hearings. Finally, in many jurisdictions, youth can 
be sentenced to serve short terms in the local detention facility.
    Most state statutes and professional standards agree that detention 
should be used for the limited purposes of ensuring a court appearance 
and minimizing the risk of the youth committing a new offense prior to 
adjudication hearing. However, during the 1990s, the use of detention 
rose exponentially, even after juvenile delinquency rates began to 
decline and despite the limited purposes for which detention was 
typically supposed to be used. Today an estimated 400,000 young people 
every year are admitted to detention nationwide and approximately 
25,000 young people are held on any given night. Despite popular 
misconception, these detention facilities are holding primarily low-
risk youth; today, approximately two-thirds of detained youth are 
detained for property or drug crimes, public order offenses, technical 
probation violations, status offenses or violations of court orders 
related to status offenses.
    Why is detention such an important piece of the juvenile justice 
system? Studies have shown that detained youth are more likely to 
become more deeply involved in the juvenile justice system. Youth who 
are detained are more likely to be formally referred to court (rather 
than being diverted), more likely to be adjudicated delinquent and more 
likely to be committed or placed in residential facilities than similar 
youth who are not detained pending adjudication. Detention, therefore, 
propels youth more deeply into the system and results in harsher 
treatment independent of the youth's charges or prior records.
    The expansion of detention in the 1990s came with critical 
consequences, including:
    <bullet> Overcrowding: Many facilities became overcrowded--in 1985, 
just 20 percent of detained youth were confined in overcrowded 
facilities; a decade later, 62 percent of detained youth were in 
overcrowded facilities. Overcrowded facilities led to a reduction of 
safety for youth in the facilities and staff alike.
    <bullet> Rising disproportionate detention of youth of color: Youth 
of color composed 43 percent of juvenile detainees nationwide in 1985 
and 69 percent of detained youth in 2006.
    <bullet> Costly building of new detention beds: In order to 
accommodate more youth, many jurisdictions built new facilities or 
created new space in existing facilities for additional detention beds, 
which are very costly. On average, operating one detention bed can cost 
over $70,000 per year and the average cost to build, finance, and 
operate a single detention bed over its first 20 years is approximately 
$1.5 million per bed.
    This expansion also had important unintended consequences, not only 
for youth, but for their communities as well. Research shows that 
detention has long-term, negative effects on youth--actually increasing 
recidivism and prolonging delinquency. Data also shows that detention 
can create new or exacerbate existing mental health disorders for 
youth. Finally, detention can complicate a youth's return to their 
school system, making getting an education more difficult.
The JDAI Model
    In 1992, the Annie E. Casey Foundation decided that detention 
reform was not only needed in our country, but that it could be an 
``entry point'' for overall juvenile justice system strengthening and 
transformation. In order to achieve the goals mentioned earlier in my 
testimony, JDAI created a comprehensive reform model that is replicated 
in jurisdictions desiring to transform their detention systems. Each 
JDAI site is expected to include each of the following components, 
which were shown to be effective in JDAI's first demonstration grants 
sites:
    <bullet> Collaboration among the local juvenile court, probation 
agency, prosecutors, defenders, and other governmental entities, as 
well as community organizations--including a formal partnership to 
cooperatively plan, implement, and assess detention reforms;
    <bullet> Collection and utilization of data to diagnose the 
system's problems and proclivities, assess the impact of various 
reforms, and assure that decisions are grounded in hard facts--rather 
than myths and anecdotes;
    <bullet> Objective admissions screening to identify which youth 
actually pose substantial public safety risks, which should be placed 
in alternative programs, and which should simply be sent home;
    <bullet> New or enhanced non-secure alternatives to detention 
targeted to youth who would otherwise be locked up and--whenever 
possible--based in neighborhoods where detention cases are 
concentrated;
    <bullet> Case processing reforms that expedite the flow of cases 
through the system, reduce lengths of stay in custody, expand the 
availability of non-secure program slots, and ensure that interventions 
with youth are timely and appropriate;
    <bullet> Flexible policies and practices to deal with ``special'' 
detention cases, such as violations of probation and failures to appear 
in court, that in many jurisdictions lead automatically to detention 
even for youth who pose minimal risks to public safety;
    <bullet> Persistent and determined attention to combating racial 
disparities, including careful study to identify specific strategies to 
eliminate bias and ensure a level playing field for kids of color; and
    <bullet> Intensive monitoring of conditions of confinement for 
youth in secure custody to ensure that detention facilities are safe 
and appropriate care is provided.
    JDAI firmly believes that each of these eight components is crucial 
to achieving comprehensive and meaningful detention reform. Although 
every jurisdiction implementing these components must adjust them to 
their own community's needs and unique challenges, on the whole JDAI 
has seen successful results in various states and localities across the 
country.
JDAI Results
    As I mentioned earlier in my testimony, JDAI now has a presence in 
110 local jurisdictions in 27 states and the District of Columbia. 
Through the use of the core JDAI principles, many of these 
jurisdictions across the country have seen significant changes in their 
use of detention, including:
    <bullet> Reduced Detention Populations: Most jurisdictions 
utilizing JDAI safely reduced the size of their detention population by 
lowering the number of youth admitted to detention and, for those youth 
admitted to detention, shortening their length of stay. In a recent 
survey of JDAI sites across the country, the average reduction in 
detention populations was 35%.
    <bullet> Improved Public Safety: Though jurisdictions typically 
employ many different statistical measures on public safety outcomes, 
JDAI sites have generally reported consistent improvements in public 
safety outcomes, including reduced pre-adjudication re-offending rates, 
court appearance rates and overall delinquency rates.
    <bullet> Cost-effective use of juvenile justice funding: Across the 
country, JDAI jurisdictions have reduced the number of detention beds 
that must be funded by nearly 1,000 beds. These reductions have allowed 
jurisdictions to close units within detention facilities and stop the 
building of new, planned facilities. Instead of paying for new 
detention beds, localities have reinvested funds in more cost-effective 
to alternatives to detention. For example, in Cook County, the juvenile 
justice system stopped planned construction of a 200-bed facility, 
which would have cost $300 million to build, finance, and operate over 
a 20-year period, and instead invested $3 million annually in 
alternatives to detention. This resulted in a savings of an estimated 
$240 million over two decades to taxpayers.
    <bullet> Reductions in racial disparities: As stated earlier in my 
testimony, youth of color are significantly overrepresented in 
detention populations. However, many JDAI sites have reported 
reductions in the number of youth of color in detention populations at 
a time when the number of youth of color in detention nationally is 
increasing. On average, JDAI sites have reported a 22% decrease in the 
number of youth of color detained, while this number has risen 6% 
nationally. These reductions are critically important and, because of 
the collection of detailed data about who is being detained, nearly all 
JDAI sites have been able to have collaborative conversations about 
reducing racial and ethnic disparities that is data-driven for a 
specific locality.
    In addition to creating positive results in detention, many sites 
successfully have used JDAI to reform other aspects of their juvenile 
justice system as well. First, JDAI helps juvenile justice systems to 
develop a variety of cost-effective, community-based programs that 
allow youth to safely be held accountable in their communities instead 
of detention facilities. Youth who participate in alternatives to 
detention are less likely to be incarcerated post-adjudication in 
juvenile correction facilities and many sites have moved to create 
community-based alternatives for youth who have been adjudicated 
delinquent instead of placing these youth in corrections facilities. 
Second, by encouraging collaboration among stakeholders within the 
juvenile justice system and other child-serving agencies, JDAI fosters 
a culture of shared common goals that allows these individuals to work 
together creatively on the wide variety of issues facing youth in the 
juvenile justice system. Third, sites have expanded the data collection 
required by JDAI to look beyond detention to see how their entire 
system is performing and other potential areas that could be improved. 
Finally, sites have begun using objective criteria--such as the 
criteria utilized to make the decision whether or not to detain a 
youth--for other decisions in the juvenile justice system, such as 
where a youth should be placed post-adjudication, what sanctions should 
be imposed, and the types of treatment a youth should receive.
    These results are extremely encouraging on a nationwide level, but 
are even more impressive on a local level in jurisdictions like Clayton 
County.
JDAI in Clayton County
    Clayton County has been a JDAI site since 2004 and, from that time 
until now, I can truly say that JDAI helped to change the culture of 
the juvenile justice system in our County and create a whole new way of 
doing business for the juvenile court. By following the JDAI model, 
Clayton County has been able to and continues to make collaborative, 
data-driven decisions and take great strides toward keeping youth in 
their homes and communities rather than locked in detention facilities.
    The comprehensive JDAI model has also aided our court in having a 
better understanding of the juvenile justice system as a whole. Too 
often, the juvenile justice system is viewed as a single agency that 
exists separate and apart from other state agencies that work with 
youth. However, in order to achieve the desired outcome of the juvenile 
justice system--preventing delinquency for youth not involved in the 
system and keeping youth already in the system from re-offending--we 
must understand why youth are getting into trouble in the first place. 
By using a collaborative approach, we can identify the root causes for 
youth coming to the attention of the system and utilize different 
agencies' services to address what I call youths' ``delinquency-
producing need.''
    The data shows that this approach has been working in Clayton 
County. Below are several outcome measures that compare Clayton 
County's numbers the year before JDAI introduction to the most recent 
data collected, we have seen:
    <bullet> The average daily population in juvenile detention 
facilities drop from 61 youth in a 60 bed facility to 18--a 70% 
reduction;
    <bullet> The number of youth committed to the juvenile delinquency 
system decrease from 124 to 62--a 48% reduction; and
    <bullet> The number of youth of color detained drop from 48 to 17--
a 65% reduction.
    Most importantly, we have made these reductions while making our 
communities safer. In the year prior to becoming a JDAI site, Clayton 
County had a total of 2,604 delinquency petitions--or ``formal 
charges''--filed with the court. In the most recent reporting year, 
only 1,199 delinquency petitions were filed in the court--a 54% 
reduction.
    While Clayton County has made a variety of changes in implementing 
the JDAI principles, I would like to highlight two model programs that 
are concrete examples of how this initiative works.
    FAST Panels: Under JDAI, our County began utilizing Finding 
Alternatives for Safety and Treatment (FAST) Panels to create a 
collaborative approach to case planning before a detention decision was 
made. The FAST Panels are led by the County's JDAI Coordinator and 
consist of representatives from a variety of agencies and stakeholders, 
including the education system, the mental health system, community-
based program providers, family and children's services, and the 
youth's parent or family. The goal of the Panels is to explore options 
for keeping high- or medium-risk youth out of detention and in the 
community while ensuring public safety.
    With all these individuals at the table, the FAST panels allow for 
creative inter-agency collaboration where everyone can help identify a 
variety of resources to provide appropriate supervision to youth on a 
case-by-case basis. These panels have been extremely successful at 
diverting youth not only out of detention, but out of the juvenile 
justice system entirely and into existing community resources. For 
example, having mental health experts at the table allows the court to 
identify youth who come to the attention of the juvenile court system 
with mental health needs more quickly than a judge could. These youth 
then can be diverted into the mental health system to get appropriate 
treatment.
    School reduction referral: When Clayton County began collecting 
data under JDAI on youth involved in the juvenile justice system, we 
were sure to include data on how youth were being referred to the 
juvenile justice system. We were alarmed to find that over \1/3\ of the 
juvenile justice system referrals were coming from the education 
system, which had introduced School Resource Officers (SROs) and a zero 
tolerance policy into schools. Since SROs had been introduced into the 
schools, school-based referrals to the juvenile justice system 
increased 2000%. Instead of protecting youth from more serious crimes 
like exposure to violence or drugs, the SROs were being utilized by 
school administrators to enforce discipline for relatively minor 
offenses. Indeed, over 90% of the referrals from the education system 
were low-level misdemeanor offenses stemming from minor school 
disciplinary matters that should have been handled in schools.
    After analyzing this data as well as relevant data from the school 
system, we used the JDAI model to bring together the police chief, the 
school superintendent, and other stakeholders. This group met regularly 
to negotiate guidelines on when school misbehavior would be handled by 
the school and when such behavior would result in a juvenile justice 
system referral. Instead of automatically taking youth to the juvenile 
justice system, SROs would have a variety of options, including giving 
youth up to two warnings and referring the youth to a conflict skills 
class in the community or mediation. In examining the school level 
data, we also found that youth who were being suspended repeatedly were 
dropping out at very high levels. Therefore, we worked to create an 
``alternatives to suspension'' program to give administrators options 
besides suspensions.
    Since these two changes have been made, we have significantly 
reduced the number of cases referred from the schools to the courts, 
reduced the number of serious incidents at schools, and improved school 
outcomes. Graduation rates have risen 21% while juvenile felony rates 
have decreased by 51%. Additionally, reducing school referrals to the 
juvenile justice system resulted in a 38% reduction in the number of 
youth of color referred to the juvenile justice system.
    In Georgia, I am currently working with other judges and state 
officials to expand JDAI to additional counties across the state. The 
successes we have seen in Clayton County have definitely come to the 
attention of judges throughout the state. My goal is to take the 
lessons and successes we have had in Clayton County state-wide, with 
the support and technical assistance from the Foundation, to help new 
jurisdictions adopt this model.
Recommendations
    As the Committee looks to reauthorize the Juvenile Justice and 
Delinquency Prevention Act (JJDPA), I ask that the Committee consider 
the following recommendations based on JDAI successes:
    <bullet> Reduce reliance on detention of youth: The high numbers of 
youth in detention in the U.S. is concerning, particularly given the 
research that shows the negative effects and poor results associated 
with detaining youth. JDAI has shown that reductions can be achieved 
while maintaining--or even improving--public safety outcomes.
    <bullet> Incentivize the reinvestment of detention dollars in 
effective community-based alternatives: At a time when so many states 
and localities are struggling with tight budgets, the high cost 
associated with keeping youth in locked facilities is worth another 
look. Research shows that investing resources in detention beds does 
not yield good results, particularly given the exorbitant price tag. 
Fortunately, JDAI sites across the country are working collaboratively 
to develop alternatives that cost less and work better than detention. 
By reducing unnecessary detention and reinvesting those dollars into 
effective detention alternatives, we could help jurisdictions create a 
financially effective solution to youth who come to the attention of 
the juvenile justice system. The JJDPA could help incentivize this 
reduction in detention and reinvestment in community-based 
alternatives.
    <bullet> Promote data-driven decisions in the juvenile justice 
field: The accurate collection of data has been absolutely critical to 
the changes being made in Clayton County. Without this data, it would 
have been impossible to track how youth were entering the juvenile 
justice system and whether the changes we made were having the right 
effects. Data also can help to bring along stakeholders who may be 
reluctant to the changes taking place. Finally, data can help to show 
the public whether their taxes are being spent efficiently and 
effectively.
    <bullet> Encourage state and local agencies to work collaboratively 
with the juvenile justice system: In Clayton County, many of our 
successes have resulted from having the right people around the table 
at the right decision-making moments. Instead of bogging down the 
juvenile justice system process, this collaboration has actually 
allowed us to divert youth from the justice system and into more 
appropriate programs that deal with the underlying reasons the youth 
came to the attention of the system.
    Thank you again for having me here to testify and I look forward to 
any questions you have for me.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Davis?

  STATEMENT OF A. HASAN DAVIS, DEPUTY COMMISSIONER, KENTUCKY 
                 DEPARTMENT OF JUVENILE JUSTICE

    Mr. Davis. Good morning, Chairman Miller, Ranking Member 
Petri, members of the committee. Thank you for inviting me here 
to speak today. My name is Hasan Davis, deputy commissioner of 
operations with the Kentucky Department of Juvenile Justice, 
with operational responsibility for all residential facilities.
    My comments today are based primarily on my professional 
work in juvenile justice and my personal experience in the 
juvenile justice system as a child.
    Kentucky has not always done what is considered in the best 
interests of youth when they come in contact with our system. 
Three years ago, we were in danger of being out of compliance 
with the deinstitutionalization of status offenders core 
requirement of the JJDPA, due in large part to the misuse and 
overuse of the valid court order exception to DSO, allowing 
judges to place status youth--runaways, truants and curfew 
violators--in locked facilities.
    In 2007, the valid court order exception to DSO had been 
invoked in Kentucky almost 2,000 times, allowing judges to 
order locked detention for non-delinquent youth. To put that in 
context, for the same year, almost half of the states reported 
that less than 250 valid court order exceptions existed. Only 
three states had more than 1,000.
    In response, Kentucky had to make a choice: forsake the 
JJDPA and the protection it provides our youth or challenge 
ourselves to do better. I am proud to say we decided to take 
the challenge and to make better use of our facilities to meet 
the unmet needs of status offense youth without placing them in 
locked facilities.
    Sadly, youth of color and girls continue to be 
disproportionately affected and are more likely to be detained 
in status offense--with status offenses than their white or 
male counterparts. To address our challenge with DSO, Kentucky 
state advisory group allocated formula grant dollars to pilot 
the Detention Alternatives Coordinators program.
    After success, the Department of Juvenile Justice committed 
resources to expand this program, and today we provide 
alternatives to secure detention, dedicated work of detention 
alternative coordinators housed in each of our nine secure 
residential detention facilities.
    DACs partnered with the Administrative Office of the Courts 
to educate attorneys and judges on resources in the community. 
After courts approved eligible youth for alternative placement, 
the DACs complete a risk assessment, match these youth to the 
appropriate supervision and restrictions, and facilitate their 
transfer from secure to non-secure custody.
    The positive impact of our DACs is illustrated in Vicky's 
story. Vicky was a habitual runaway, climbing out of her 
window, walked away from school, regularly using drugs, and 
coping with a diagnosis of oppositional defiant disorder. Vicky 
wanted to disappear, from school, from home, from the eyes of 
the world.
    She was picked up, and the DACs requested that she be 
diverted to an electronic monitor. During her placement, Vicky 
was ordered into treatment by the court and began needed 
prescription medication. As a result, school attendance became 
more regular, her grades began to improve, and today, Vicky is 
a college student at Eastern Kentucky University in control of 
her life and living drug-free.
    There are times when locked detention is the only 
reasonable option to address a youth's delinquent behavior, but 
status offenses generally do not meet this threshold. With this 
in mind, I respectfully make the following recommendations 
regarding the Congress's reauthorization of the JJDPA.
    First, eliminate the valid court order exceptions to DSO. 
This critical change received bipartisan approval by the Senate 
Judiciary Committee. If passed into law, judges would no longer 
be able to lock up non-delinquent youth out of frustration or a 
misguided sense of protection. The VCO exception was introduced 
in the 1980 reauthorization of the JJDPA, leaving states to 
sort out the sanctioned judicial use of locked detention for 
status youth. Too often, however, the exemption has followed 
the rule.
    Each year, nearly 40,000 status offense cases still involve 
locked detention. More than 30 percent would be prohibited if 
the VCO exception was removed from the JJDPA.
    In Kentucky, the DACs are addressing these challenges every 
day, and we believe that our state could serve as a model. 
There are alternatives to locked detention that create positive 
outcomes for youth and families, many of which may be supported 
by Title II formula grant program monies from the JJDPA.
    My second recommendation is that the committee consider 
ways it can strengthen the act to support the efforts to refine 
and expand best practices in delinquency prevention, 
intervention, and treatment.
    Issues that the states are most interested in are meeting 
the needs of runaway and unaccompanied youth within healthiest 
and least restrictive environments, effective approaches for 
girls, who are over-represented among status youth, innovations 
to guard against bias and racial-ethnic disparities, proactive 
truancy prevention, reducing school referrals to law 
enforcement, and effective positive family engagement 
strategies.
    Finally, I urge the committee to use the JJDPA 
reauthorization process as a vehicle for recovering and 
strengthening support to the states to achieve goals and 
purposes of the JJDPA itself. Since 2002, juvenile justice 
appropriations to states that support important priorities 
under the JJDPA, such as a continuum of services and care, 
alternatives to detention, and gender-specific services have 
fallen by more than 50 percent.
    Here, again, you have the opportunity to restore research, 
evaluation, and funding resources, as well as training and 
technical assistance resources needed to meet critical needs 
for girls and other children involved in the courts.
    You will find these recommendations are in keeping with the 
best practices and with the recommendations of the Coalition 
for Juvenile Justice, an association of JJDPA state advisory 
groups, as well as the broad-based Act-4-Juvenile Justice 
Campaign that includes more than 350 organizations in juvenile 
justice, law enforcement, youth and family services, child 
welfare, mental health and substance abuse treatment, and 
representing many faith communities, among others.
    In closing, I wish to avail myself if you should have 
further questions. I would like to thank you for the 
opportunity to speak to you today. It has been my honor.
    [The statement of Mr. Davis follows:]

  Prepared Statement of A. Hasan Davis, Esq., Deputy Commissioner for 
          Operations, Kentucky Department of Juvenile Justice

    Good morning. Chairman Miller and Members of the Committee, it is 
my distinct honor to speak with you today regarding needs and 
challenges faced by vulnerable and troubled youth who come into contact 
with the juvenile justice system. I am Hasan Davis, Deputy Commissioner 
of Operations at the Kentucky Department of Juvenile Justice, where I 
have direct oversight of all state-run residential facilities, 
including detention centers, youth development centers and group homes, 
as well as day treatment schools and the classification division which 
manages the detention alternatives coordinators.
    Improving the odds for challenged youth has always been my work. 
Prior to assuming my current position, I directed the Youth Violence 
Prevention Project in Lexington, Kentucky. In addition to my experience 
as a trainer and technical assistance provider in juvenile justice, I 
continue to work nationally with successful U.S. Department of 
Education initiatives like GEAR UP and TRIO. For ten years, I served as 
chair of the Kentucky Juvenile Justice Advisory Board, the governor-
appointed state advisory group on juvenile justice charted under the 
Juvenile Justice and Delinquency Prevention Act, and for three years 
served as Vice-Chair of the Federal Advisory Committee on Juvenile 
Justice.
    However, the truth that informs my work most is that if not for 
second chances, I would not have accomplished any of these things. I 
grew up with visual and hearing challenges and an early diagnosis of 
dyslexia and Attention Deficit Disorder (ADD). After an increasing 
amount of preteen delinquent behavior, I was arrested at age eleven. In 
her infinite wisdom, the judge for my case decided that locking me up 
would not serve me or the community. So she sent me home on conditions 
of probation. Although my challenges were far from over, that judge 
prevented my early entry into the juvenile justice system and 
ultimately provided me the opportunity to seek a better outcome for 
myself and my family.
    For all of these reasons, I am thankful for the opportunity to 
share with Members of the Committee the progress that Kentucky has made 
and continues to make to realize the goals and purpose of the Juvenile 
Justice and Delinquency Prevention Act (JJDPA), which has allowed us to 
develop and adopt proven effective approaches to meeting the needs of 
vulnerable youth and increase community safety.
    Now I want to be clear: Kentucky has not always done what is 
considered to be in the best interest of youth when they come into 
contact with our juvenile justice system. There was a time when 
Kentucky was out of compliance with the Jail Removal core requirement 
of the JJDPA due to our practice of holding juveniles in cells located 
within adult facilities. More recently, in 2006, Kentucky was in danger 
of being found out of compliance with the Deinstitutionalization of 
Status Offenders (DSO) core requirement of the JJDPA, due in large part 
to the misuse and overuse of the valid court exception to the DSO core 
requirement, which allows judges to place non-delinquent status youth--
such as runaways, truants and curfew violators--in locked facilities.
    In response to these challenges, Kentucky, like other states, had 
to make a choice: do we forsake the JJDPA and the protections it 
provides for our youth, or do we challenge ourselves to do better? At 
our core, we have always believed in the safeguards that the JJDPA 
provides for court-involved youth. Consequently, on both occasions we 
made a commitment to face our challenges head on. We requested external 
assistance, examined our internal culture and created the reforms 
necessary to ensure our return to full compliance with the JJDPA, and 
to act in the best interest of Kentucky's youth, families and 
communities in the short and long run.
Kentucky's Improved Approach to Status Youth
    I'll begin by talking about the progress Kentucky has made over the 
last three years to better address the unmet needs of youth charged 
with status offenses without placing these youth in locked facilities.
    Status offenses are those offenses considered by the court only 
because of the minor status of the child involved--``offenses'' that 
would not be criminal matters at the age of adulthood. Examples include 
truancy, violating curfew, running away from home, and behavior that 
may cause a parent or guardian to deem a child ungovernable.
    In 2007, as a result of a routine compliance audit conducted by the 
Office of Juvenile Justice and Delinquency Prevention (OJJDP), we 
learned that high numbers of detention orders were being issued for 
status youth statewide. More specifically, the valid court order 
exception (VCO) to the DSO core requirement had been invoked almost 
2,000 times, allowing judges to order the locked detention of non-
delinquent youth whose most serious ``offense'' involved repeatedly 
running away, skipping school or being rebellious to an adult authority 
figure. To put that in some context, for that same year almost half the 
states reported using the VCO less than 250 times; only three states 
reported using the VCO more than 1,000 times.i
    It would be impossible for me to overstate the concerns raised by 
Kentucky's overuse of detention orders at that time. The underlying 
causes of status offenses are typically linked to problems at home and 
school, and to unmet trauma and mental health needs of young people.ii 
Locked detention is not designed to treat or to resolve such causes. 
More importantly, the negative outcomes that can arise from detention 
far outweigh any benefits of short-term confinement without access to 
critical services necessary to eliminate the reasons for the status 
offense. Detention in general, and particularly for status youth and 
other low-risk youth, has been widely shown to be destructive rather 
than productive, adding to the often overcrowded conditions that many 
detention facilities face. Nationally, nearly 70% of detained youth are 
held in facilities operating above capacity. Under such conditions, 
discipline can become unduly harsh; education, medical and mental 
health treatments are often minimal. Among youth in crowded detention 
facilities, there are a high number of reports of suicidal behavior, as 
well as stress-related and psychiatric illness. Sadly, too, youth of 
color and girls continue to be disproportionately affected, and are 
more likely to be detained for a status offense than their white or 
male counterparts.iii Currently, girls are reported to account for 14% 
of youth in juvenile facilities for delinquency, but make up 41% of 
those in facilities for status offenses.iv
    To address Kentucky's challenges with the DSO core requirement, in 
2003 Kentucky's state advisory group allocated a portion of its JJDPA 
Title II State Formula Grants dollars to pilot the Detention 
Alternatives Coordinator program. After a successful test, run the 
Kentucky Department of Juvenile Justice committed its own resources to 
ensure the program would survive and expand. Today, we provide a wide-
array of alternatives to secure detention through the dedicated work of 
a Detention Alternatives Coordinator (DAC) housed in each of our nine 
regional juvenile detention centers. Over the past few years, DACs have 
partnered with the Administrative Office of the Courts to educate 
judges and identify resources which make it easier for frustrated 
judges to commit status youth to appropriate non-secure settings. After 
the court approves each eligible youth for an alternative to detention 
placement, the DAC completes a risk assessment screening, matches the 
youth with an appropriate level of supervision and restriction, and 
facilitates their transfer from secure to non-secure custody. Each 
year, we receive requests from more judges and the Judicial College to 
provide education on DACs and how their work can support the courts.
    The positive impact of our DAC program is illustrated by Vicky's 
story. Vicky was a habitual runaway. She climbed out her window in the 
middle of the night, walked away from school, etc. Vicky was regularly 
using a number of drugs and coping with a diagnosis of Oppositional 
Defiant Disorder (ODD). Vicky wanted to disappear--from school, from 
home, from the eyes of the world. When she was picked up, one of our 
DACs requested that she be diverted and placed on electronic 
monitoring. During her placement, Vicky was ordered into treatment by 
the court and began taking needed prescription medications. As a 
result, her school attendance became more regular and her grades began 
to improve. Today, Vicky is a college student attending Eastern 
Kentucky University. She has taken control of her life and is living it 
drug free.
    In Kentucky, we understand and accept that there are times when 
locked detention is the only reasonable option to address a youth's 
delinquent behavior. For instance, locked detention may be necessary if 
a youth poses a serious threat to public safety. Status offenses such 
as running away, skipping school, violating curfew and using tobacco 
and/or alcohol under age generally do not meet this threshold. In 
keeping with this view, we seek to meet the JJDPA's mandate not to 
detain status youth except in these very limited circumstances.
Kentucky's Improved Compliance with the Jail Removal Core Requirement
    Next, I'll talk about the progress that Kentucky has made to 
achieve and maintain compliance with the Jail Removal core requirement 
of the JJDPA.
    As I stated at the top of my testimony, there was a time, back in 
the 1990s, when Kentucky was out of compliance with the Jail Removal 
core requirement of the JJDPA due to our practice of holding juveniles 
in cells located within adult facilities. At that time Kentucky had 
only two secure juvenile detention centers. Local jails were reimbursed 
for housing youth, which created an obvious incentive for long-term 
detention without attention to the needs and issues particular to 
youth. With the creation of the Kentucky Department of Juvenile Justice 
in 1996, we committed to establishing a pre-service training academy 
for direct care staff, developing an internal investigation unit, 
hiring a board certified physician to guide medical staff, and building 
state-run regional detention centers. We currently maintain nine secure 
detention centers across the state, making available a secure facility 
within one hour's drive of any of our 120 counties. As a result of 
these changes, I can attest that on January 16, 2001, Kentucky was 
found to be in full compliance with the JJDPA Jail removal core 
requirement.
    More significantly, Kentucky has gone even further. We have removed 
all juveniles--including those charged as adults--from adult facilities 
pre-trial, and serve some transferred juveniles posttrial in our 
juvenile facilities. Currently, youthful charged as adults when they 
were juveniles participate and succeed in our detention treatment and 
group home facilities, allowing their behavior and treatment progress--
not the nature of their offense--to determine their placements. The 
research is clear: incarcerating youth with adults is a dangerous 
practice that puts youth at risk of great physical, emotional and 
mental harm.v Moreover, according to a number of studies, incarcerating 
youth with adults actually increases the likelihood that they will re-
offend once released, and re-offend more quickly and more seriously.vi 
Given that our dual aim should always be the safety of the community 
and the safety of the youth, we stand with the Coalition for Juvenile 
Justice, the Act 4 Juvenile Justice Campaign, and more than 350 
international, national, state and local allies in the belief that it 
is time to end the practice of detaining youth charged as adults in 
adult facilities.

Recommendations

            Remove the VCO Exception to the DSO Core Requirement

    Right now, the House Education and Labor Committee is charged with 
reauthorization of the JJDPA. In place since 1974, the JJDPA provides 
important safeguards and resources to assist troubled, vulnerable and 
court-involved youth. A change to the JJDPA that I believe is most 
critical to protect vulnerable and troubled youth has already been 
approved by the Senate Judiciary Committee this past December, in the 
form of an amendment to the DSO core requirement. This amendment, which 
received bipartisan approval by the Committee as part of
    S. 678, calls upon states to eliminate the (VCO) exception--an 
unfortunate loophole that allows judges to place status youth in locked 
detention. If passed into law, judges would no longer be able to lock-
up non-delinquent youth out of frustration or a misguided sense of 
protectiveness. Furthermore, eliminating the VCO exception comports 
with current law or practice in approximately two dozen states and 
territories.
    Testimony given at the time of the passage of the JJDPA cited that 
status youth should be ``channeled away'' from lock-ups and toward 
human service agencies and professionals to avoid creating greater 
social, emotional, family and/or peer-group upheaval among this highly 
vulnerable population. Yet, the JJDPA has not adequately addressed 
alternatives along a continuum of home and community-connected services 
that would more appropriately and effectively address the needs of 
status youth and their families. In the 1980s, the VCO exception to the 
DSO core requirement was included in the JJDPA, but it was left to 
states to sort out the sanctioned judicial use of locked detention for 
status youth. Researchers, legal scholars, as well as juvenile court 
professionals and advocates, are seeking remedies to the problem of 
over-use of the VCO exception, as well as to problems that arise when 
federal and state law contradict.
    Overall, as a result of the DSO core requirement, since 1974, there 
has been an overall decline in the use of secure detention for status 
youth. Yet, each year nearly 40,000 status offense cases still involve 
locked detention.vii Of these, more than 30%, or approximately 12,000 
nationwide, would be prohibited if the VCO exception is removed from 
the JJDPA.viii Troubled youth, children in need of protective services, 
runaways and many youth with behavioral health concerns wind up in 
detention, not because of worries about public safety, but because of a 
perceived or real lack of community alternatives, a lack of system 
collaboration, and a lack of knowledge among judges about what 
resources and effective approaches are available.ix Our DACs in 
Kentucky are addressing these challenges, and we believe that our state 
could serve as a model. There are, in fact, many alternatives to 
institutionalization/detention of status youth shown to create positive 
outcomes for youth and families, including Functional Family Therapy, 
intensive case management, non-secure shelter care and temporary crisis 
care, and family interventions and support--all of which may be 
supported by the Title II State Formula Grants Program of the JJDPA.

            Strengthen the JJDPA Jail Removal Core Requirement to 
                    Remove Juveniles Charged as Adults from Adult Jails

    The original intent of the JJDPA was to recognize the unique needs 
of youth in the justice system and establish a separate system to 
specifically address these needs. One of these unique needs for youth 
is protection from the dangers of adult jails. As aforementioned, 
placing youth in adult jails can have dire consequences for the youth, 
his/her family and the community.
    As currently written, the Jail Removal core requirement protects 
youth who are under the jurisdiction of the juvenile justice system by 
prohibiting these youth from being held in adult jails and lock-ups 
except in very limited circumstances, such as while waiting for 
transport to appropriate juvenile facilities. In these limited 
circumstances where youth are placed in adult jails and lock-ups, the 
Sight and Sound core requirement limits the contact these youth have 
with adult inmates.
    While these core requirements have worked to keep most children out 
of adult jails for more than 35 years, the JJDPA does not apply to 
youth under the jurisdiction of the adult criminal court. Rather, on 
any given day, 7,500 children are locked up in adult jails before they 
are tried.x Nearly 40 states have laws that allow children prosecuted 
in adult courts to be placed in adult jails, prior to their first court 
hearing.xi
    To ensure that more youth are afforded the protections originally 
conceived by Congress back in 1974, Congress should amend the JJDPA to 
extend the Jail Removal and Sight and Sound requirements of the JJDPA 
to all youth, regardless of whether they are awaiting trial in juvenile 
or adult court. In the limited exceptions allowed under the JJDPA where 
youth can be held in adult facilities, they should have no sight or 
sound contact with adult inmates.

            Generate Greater and Better Resources for Effective 
                    Implementation of Federal Juvenile Justice Policy

    Regarding use of federal funds under the JJDPA, Congress should 
strongly consider prohibiting the use of federal funds for ineffective 
and damaging approaches such as highly punitive models shown to 
increase, rather than decrease re-arrest and re-offense, including boot 
camps, excessive use of physical restraint, force and punishment, and 
the building of large residential institutions.xii
    I also urge the Congress to consider ways to provide resources for 
field-based and field-strengthening research and evaluation that will 
refine and expand the array of best and evidence-based practices in 
delinquency prevention, intervention and treatment. Issues that states 
are hungry to address include the following, among others:
    <bullet> effective approaches for girls, as well as for diverse 
cultural and linguistic groups;
    <bullet> innovations to guard against bias and racial/ethnic 
disparities;
    <bullet> proactive approaches to truancy prevention;
    <bullet> ways to reduce school referrals to law enforcement;
    <bullet> effective approaches for positive family engagement.
    In addition, Congress should look to strengthen the implementation 
the JJDPA which addresses research, demonstration and evaluation and 
authorizes the OJJDP Administrator to ``conduct, encourage, and 
coordinate research and evaluation into any aspect of juvenile 
delinquency, particularly with regard to new programs and methods which 
seek to strengthen and preserve families or which show promise of 
making a contribution toward the prevention and treatment of juvenile 
delinquency.''
    Consider simple language changes in the JJDPA to state that the 
OJJDP Administrator shall rather than may provide support for research, 
replication and high fidelity adaptation of evidenced-based practice 
models, across a wide range of racial, ethnic, geographic and societal 
circumstances--urban and rural, both in and outside of institutional 
settings for applications with many populations, girls, Native American 
youth, youth in the U.S. territories, Latino youth, African American 
youth, and others. Insist that the research and findings be made widely 
available to the public and backed-up with training and technical 
assistance to the parties principally charged with JJDPA 
implementation--state advisory group members and state juvenile justice 
specialists.
    Since 2002, juvenile justice appropriations to the states that 
support important priorities under the JJDPA such as continuums of 
care; alternatives to detention; gender-sensitive and gender-specific 
services and effective prevention initiatives have fallen by more than 
50%. Here, again, you have the opportunity to restore the research, 
evaluation, and funding resources, as well as training and technical 
assistance resources needed to meet critical needs for girls and other 
children involved with the court.
    You will find that these recommendations are in keeping with best 
practice and with the recommendations of the Coalition for Juvenile 
Justice--an association of the JJDPA State Advisory Groups--as well as 
the broad-based Act-4-Juvenile Justice Campaign that includes more than 
350 organizations in juvenile justice, law enforcement, youth and 
family service, child welfare, mental health and substance abuse 
treatment and representing the faith community, among others.xiii
    In closing, I wish to avail myself to you should you have any 
further questions. Many thanks for the opportunity to speak before you 
today.

                                ENDNOTES

    \i\ Unpublished JJDPA compliance monitoring data from the Office of 
Juvenile Justice and Delinquency (OJJDP), pertaining to 2007.
    \ii\ National Center for School Engagement. (2009). What is 
truancy? Denver, CO. http://www.schoolengagement.org/
TruancypreventionRegistry/Admin/Resources/Resources/40.pdf; Hammer, H., 
Finkelhor, D., & Sedlak, A. J. (2002). NISMART: National Incidence 
Studies of Missing, Abducted, Runaway and Thrownaway Children, Runaway/
Thrownaway Children: National Estimates and Characteristics. 
Washington, DC: U.S. Department of Justice, Office of Justice Programs, 
Office of Juvenile Justice and Delinquency Prevention, http://
www.ncjrs.gov/pdffiles1/ojjdp/196469.pdf
    \iii\ Coalition for Juvenile Justice, Unlocking the Future: 
Detention Reform in the Juvenile Justice System, January 2004.
    \iv\ Sickmund, Melissa, Sladky, T.J., and Kang, Wei. (2008). Census 
of Juveniles in Residential Placement Databook. Available: http://
www.ojjdp.ncjrs.gov/ojstatbb/cjrp/.
    \v\ Jailing Juveniles: The Dangers of Incarcerating Youth in Adult 
Jails in America, Campaign for Youth Justice, available at http://
www.campaign4youthjustice.com/Downloads/NationalReportsArticles/CFYJ-
Jailing--Juveniles--Report--2007-11-15.pdf. (November 2007).
    \vi\ Centers for Disease Control and Prevention, ``Task Force 
Recommends Against Policies and Laws Facilitating Transfer of Youth to 
the Adult Justice System to Reduce Violence among Transferred Youth,'' 
Guide to Community Preventive Services, available at http://
www.thecommunityguide.org/violence/Violence-YouthTransfer--rev.pdf. 
(April 13, 2007).
    \vii\ National Center for Juvenile Justice: www.ncjj.org.
    \viii\ Unpublished JJDPA compliance monitoring data from the Office 
of Juvenile Justice and Delinquency (OJJDP), pertaining to 2007.
    \ix\ Schwartz, I., Barton, W. Reforming Juvenile Detention: No More 
Hidden Closets, 1997.
    \x\ Jailing Juveniles, p. 4.
    \xi\ Id. at 24.
    \xii\ Mendel, Richard A. and American Youth Policy Forum, Less 
Hype, More Help: Reducing Juvenile Crime, What Works--and What Doesn't 
(2000), and Less Cost, More Safety: Guiding Lights for Reform in 
Juvenile Justice (2001).
    \xiii\ See: www.juvjustice.org and www.act4jj.org.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Belton?

   STATEMENT OF MICHAEL BELTON, DEPUTY DIRECTOR OF JUVENILE 
                 CORRECTIONS, RAMSEY COUNTY, MN

    Mr. Belton. Good morning, Chairman Miller and Congressman--
--
    Chairman Miller. I think you are going to need to bring 
your--one, is the mic on? And a little closer to you. Thank 
you.
    Mr. Belton. Okay. Good Morning, Chairman Miller and 
Congressman Petri and members of the House Education and Labor 
Committee.
    My name is Michael Belton, and I am the deputy director of 
the Ramsey County Community Corrections Juvenile Division in 
St. Paul, Minnesota.
    I am here standing on the shoulders of my ancestors, and I 
speak in the name of our children. Racial and ethnic 
disparities in the juvenile justice system is the great human 
and civil rights question of the 21st century. And by 
disparities, I mean said youth of color are treated differently 
to white youth for the same offense.
    Unlike the 1960s and the 1970s, where the civil rights and 
equal justice struggles were played out in the streets, in the 
21st century, the struggle for equal rights and justice will be 
decided in rooms just like this.
    Because this civil and human rights struggle is about us, 
people working in systems working to respond to human needs in 
a more equitable and humane manner.
    Nationally, youth of color are overrepresented at every 
point of contact within the juvenile justice system. A 2006 
survey of detention facilities was in the United States showed 
that youth of color are significantly overrepresented. 
According to that count, when compared to white youth, black 
youth were more than five times more likely to be detained. 
Native American youth are nearly four times more likely to be 
detained, and Latino youth are more than twice as likely to be 
detained.
    Minnesota is home to some of the worst levels of 
disproportionality in the nation. Black youth are nearly 10 
times more likely to be detained than white youth, and Latino 
youth are more than twice as likely to be detained.
    Members of the committee, one of the things that I want to 
leave you with is this: We have the tools to eliminate racial 
and ethnic disparities in our juvenile justice system. What we 
lack is the will.
    In Ramsey County, we know reducing the overrepresentation 
of youth of color in the juvenile justice is possible. And we 
know that it takes intentional focus.
    To foster a positive impact on reducing disparities on a 
national stage, we support the reauthorization of JJDPA and in 
particular strengthening the provisions of the core protection 
around DMC.
    Currently, JJDPA requires states to address DMC without 
requiring concrete guidance. I submit that unless Congress 
strengthens this vague requirement, little progress will be 
made beyond admiring the problem.
    In our written testimony, we reference a number of things 
that local jurisdictions need, but right now I want to leave 
you with these three things local jurisdictions require to 
crack the seemingly intransigent problem of DMC and racial and 
ethnic disparities.
    One, leadership, local and congressional leadership. On a 
congressional level, your leadership through reauthorization 
and strengthening of DMC core requirements by giving states 
specific guidance on reducing DMC, such as analyzing key 
decision points to determine where disparities exist, 
collecting data, developing work plans, and publicly reporting 
efforts. Such leadership would set the tone for this work 
nationwide.
    Two, collaboration with impacted communities of color. 
These communities provide a sense of urgency, perspective, 
hidden knowledge, and wisdom and accountability.
    Three, data-driven policy and practice reform. 
Jurisdictions have to ask the question, are we getting our 
money's worth with our juvenile justice dollars? And if not, 
what else do we need to do? And more importantly, underneath 
that question is one of fairness. Is what we are doing fair, 
not what we intend, but our results?
    Ramsey County is in the middle stages of using the 
strategies above, but we have reduced daily average population 
in our detention center by 65 percent from 2005 to 2009. While 
Congress cannot legitimate the will to reduce racial and ethnic 
disparities, it can formulate policies that will have an 
important and measurable impact. The federal government can 
provide the guidance around what it takes to do this work 
effectively.
    Strengthening of the DMC core requirement in the JJDPA is 
an important step to ensuring justice is administered fairly 
for all of our children who come in contact with our juvenile 
justice system. Thank you. It is an honor to be here.
    [The statement of Mr. Belton follows:]

Prepared Statement of Michael Belton, Ramsey County Deputy Director of 
                          Juvenile Corrections

    Good Morning Chairman Miller, Ranking Member Kline, and other 
Members of the Committee.
    I appreciate the opportunity to address the reauthorization of the 
Juvenile Justice and Delinquency Prevention Act (JJDPA) and 
specifically to speak to the issue of racial and ethnic disparities in 
the juvenile justice system. My name is Michael Belton, and I am the 
Deputy Director of the Ramsey County Community Corrections Juvenile 
Division. As someone who has worked and managed staff on the frontlines 
of juvenile corrections for over 30 years, I offer a perspective as a 
practitioner who has seen the troubling effect of the disproportionate 
representation of young people of color in the juvenile justice system 
and the impact of this disproportionate representation on their 
families and communities.
    I appear before you standing on the shoulders of my ancestors, and 
I speak 'In the Name of Our Children.' I introduce my testimony in this 
fashion because I believe DMC and successfully reducing racial and 
ethnic disparities must be a more passionate and intentional pursuit 
than it is a technical exercise of making declarations, simply 
collecting data and hoping for a good result. And, given the current 
crisis of the overrepresentation of youth of color in the juvenile 
justice system, reducing DMC and racial and ethnic disparities in our 
juvenile justice system is an endeavor that we must pursue. We must 
pursue it with intentionality and by using strategies that have 
demonstrated success in jurisdictions throughout the country, including 
Ramsey County.
    Throughout my testimony, disproportionate minority contact (DMC) 
refers to the disproportionate representation of youth of color in the 
juvenile justice system as compared to their representation in the ``at 
risk'' youth population. In contrast, reducing racial and ethnic 
disparities refers to changing the decisions and processes in the 
system that produce disparate outcomes for similarly situated youth--
such as youth with similar charges or youth with similar past prior 
involvement with the juvenile justice system--who differ from each 
other only in race and ethnicity. In essence, disparities in juvenile 
justice decision making produce the DMC we see in the juvenile justice 
system.
    DMC and racial and ethnic disparities exist in Ramsey County. 
However, with the help of the W. Haywood Burns Institute and the 
Juvenile Detention Alternatives Initiative (JDAI), we have committed to 
engaging in an intentional, collaborative and data driven approach to 
reduce DMC and eliminate racial and ethnic disparities. It is for this 
reason that I am particularly pleased to have the opportunity to speak 
with you today about enhancing the core protection in the JJDPA that 
focuses specifically on addressing the overrepresentation of youth of 
color in the juvenile justice system.
DMC and Racial and Ethnic Disparities: The Scope of the Crisis
    National research consistently indicates that youth of color are 
overrepresented at each point of contact within the juvenile justice 
system, and the overrepresentation is cumulative--meaning it has a 
greater effect the deeper a youth gets into the juvenile justice 
system--as youth proceed through the decision system from arrest to 
secure placement to transfer to adult court.\i\ This cumulative effect 
is perhaps easiest described by the data--a 2007 study of decision 
points in the juvenile justice system found that youth of color 
represented 28% of youth arrests, 37% of those who were detained, 35% 
of those who were transferred to criminal court, and 58% of those 
admitted to state prisons.\ii\
    A 2006 survey of detention facilities within the United States 
showed that youth of color are significantly overrepresented in the 
juvenile detention facilities. According to the count, when compared to 
White youth, Black youth are more than five times more likely to be 
detained, Native American youth are nearly four times more likely to be 
detained, and Latino youth are more than twice as likely to be 
detained.\iii\ The disparities are similar in locked facilities beyond 
detention where data shows that Black youth are more than four times as 
likely as White youth to be sentenced to locked facilities, and Latino 
youth are two times as likely. Native Americans are held in secure 
confinement three times more frequently than White youth.\iv\
    The State of Minnesota is home to some of the worst levels of 
disproportionality in the nation. The overall youth of color population 
aged 10-17 in Minnesota is currently 18% youth of color,\v\ yet youth 
of color represent 38% of youth detained in juvenile detention 
facilities and 46% of youth committed to a residential facility as part 
of a court-ordered disposition (or ``sentence'' in adult court 
terms).\vi\
    In 2007, in the three largest metro counties in Minnesota--Dakota, 
Ramsey and Hennepin Counties--youth of color represented 31% of youth 
aged 10-17, yet accounted for 71% of youth securely detained before 
their adjudication hearing, and ranged from 43% to 83% of youth 
receiving post-adjudication placements in ranch camps, group homes and 
other out-of-home residential placement settings including secure 
treatment programs.\vii\ And an analysis of the decision point of 
transfers to adult court in these counties revealed that youth of color 
account for almost 100%.
    In trying to explain the phenomena of youth of color 
overrepresentation in the juvenile justice system, claims often are 
made that youth of color are overrepresented because they commit more 
crime and more violent crime than White youth. However, an examination 
of the data paints a different picture. Nationwide, research 
demonstrates that youth of color are treated more harshly than White 
youth, even when charged with the same category of offense. Self-
reports of drug use indicate that White youth and youth of color use 
drugs at the same rate. However, White youth are much more likely than 
Black youth to be placed on probation, and Black youth are twice as 
likely as White youth to be sent to locked facilities for drug use or 
drug related crimes. Latino youth are incarcerated for twice as long as 
White youth for drug offenses and are one and a half times more likely 
to be admitted to adult prison for these offenses.
    In Minnesota, research also demonstrates that similarly situated 
youth of color are treated more harshly than White youth. Statewide 
data reflect that youth of color arrested for only 37% of Part I crimes 
(serious offenses eligible for transfer), but account for 45% of youth 
transferred to adult court.
    These statistics underscore the crisis of DMC and racial and ethnic 
disparities in our Nation and in the State of Minnesota. Clearly, youth 
of color are overrepresented in the juvenile justice system, and 
clearly, this overrepresentation cannot be explained by differential 
patterns of offending. Youth of color consistently receive more 
punitive responses from the justice system than White youth.
    What is more, the youth of color population continues to grow both 
nationwide and in the State of Minnesota. Already, more than 47 percent 
of all children under age 5 in our nation are youth of color. Of all 
young people aged 0-17, 43 percent were youth of color in 2008 
(compared with 31 percent of those 20 or older), up from 38.5 percent 
just eight years earlier.\viii\ This is true in Minnesota as well. 
Minnesota's metro counties of Dakota, Ramsey and Hennepin have growing 
immigrant Latino, Hmong, and Somali populations, placing the Twin 
Cities among the fastest growing ethnically diverse areas in the 
country. The result is a growing youth of color population being cycled 
through a juvenile justice system that appears unable or unwilling to 
produce equitable outcomes and that creates devastating impacts on 
these youth.
    The extent of DMC and racial and ethnic disparities has reached a 
level crisis that must be addressed, and it is a crisis that can be 
addressed with a strategic and intentional approach.
Local Efforts to Reduce Racial and Ethnic Disparities in Ramsey County
    In the prior portion of my testimony, I described the negative 
treatment that youth of color face in the juvenile justice system--
particularly in Minnesota. Fortunately, in Ramsey County we have had 
the support of the W. Haywood Burns Institute and the Juvenile 
Detention Alternatives Initiative and have committed to engaging in an 
intentional, collaborative, and data driven approach to reducing DMC 
and racial and ethnic disparities
    In the Fall of 2005 with the support of our County Board of 
Commissioners, Ramsey County embarked on a collaborative project with 
Annie E. Casey Foundation to reduce our reliance on detention. The 
County saw disturbing trends of escalating detention populations. The 
juvenile detention center routinely exceeded its capacity of 86 beds 
causing staff to double bunk young people in cells and stage cots in 
the gym. When the center averaged a daily population of 89 youth, we 
knew change was necessary. Very quickly, we learned of the significant 
overrepresentation of youth of color. According to our initial 
analysis, youth of color, and particularly Black youth were represented 
in pre-adjudication admissions to secure detention at Ramsey County 
Juvenile Detention Facility. In 2005 Black youth represented 14% of the 
overall youth population in Ramsey County aged 10-17, but 50% of youth 
admitted to detention pre-adjudication. Although we committed to 
reforming our juvenile justice system and to reducing our reliance on 
secure detention, disproportionality in Ramsey County became the 
seemingly intractable problem we sought to understand and to solve. DMC 
reduction drove the primary purpose for juvenile justice reform.
    The Corrections Department engaged the W. Haywood Burns Institute 
in 2006 to conduct an assessment of our existing reform efforts and to 
review the status and extent of disproportionality and disparities, to 
review our policies, practices and procedures to offer recommendations 
on how we could work more intentionally to reduce DMC and racial and 
ethnic disparities. The Burns Institute assessment revealed the need 
for (1) more strategic collaboration between traditional and non-
traditional stakeholders, (2) better and more consistent data 
collection and monitoring of disparities, and (3) more thorough review 
of how policies and practices uniquely impact youth of color.
            (1) Collaboration
    We learned that is it critical that impacted communities of color 
be part of the reform process. These communities provide a sense of 
urgency, perspective, and insight into what is driving system 
involvement for our must vulnerable youth. Too often these juvenile 
justice stakeholders with important insight and the greatest personal 
``stake'' in reducing racial and ethnic disparities are excluded from 
the effort.
    In 2008, Ramsey County Corrections again engaged the Burns 
Institute to help us develop a strategy for community engagement. Now, 
Ramsey County commits to engaging community in our work to reduce 
disparities, and we commit to engaging community in a meaningful way. 
Ramsey County Corrections invested in learning from the community--we 
hosed community dialogues in the communities with the highest 
prevalence of system involved youth of color. As a result we have 
culturally specific community-based alternatives both pre and post 
adjudication that were surfaced by the Ramsey County Alternatives 
Committee, which comprises community representatives from impacted 
communities of color. This group identified community agencies and 
programs that had been working with 'at risk' populations, that the 
community trusted, and programs that operated from a cultural center. 
Community advocacy groups were also instrumental in the Ramsey County 
Board investing in funding to support community based alternatives that 
lead to juvenile justice reforms. The community also works with us to 
evaluate these services and to make recommendations for improvement.
            (2) Data Collection and Analysis
    Prior to our engagement with Burns Institute and JDAI, the 
Corrections Department and other local stakeholders did not use data to 
inform policy or practice. What is more, we did not maintain consistent 
reports to let us know what was driving disproportionality in our 
juvenile justice system. Over the last 5 years, there has been a 
significant shift toward collecting, analyzing and reporting data 
through the lens of race, ethnicity, gender, geography and offense. We 
are no longer relying on anecdotes. Rather, we use empirical evidence 
and data to drive our work on reducing DMC and racial and ethnic 
disparities. Now, we not only identify the extent of disproportionality 
at various points in our juvenile justice system, we know more about 
the factors driving disproportionality and disparities. Black youth on 
enhanced probation, a special probation unit for high risk youth were 
required to waive to their right to a court hearing before being locked 
up as a condition of disposition. This policy allowed probation 
officers to detain youth for up to 48 hours. Youth were being detained 
on average 1.6 days and could be placed on ``waiver violations'' for 
subjective reasons, and repeatedly. We identified this specific 
response as 100% youth of color. We questioned the policy's efficacy 
since many youth were not having their rehabilitative needs met while 
being detained for only a day and admissions for violations were 
contributing to disproportionality. Through our examination of the 
issues surrounding this policy we worked with community partners to 
establish an alternative that could be used for high risk probation 
youth in lieu of detention, resulting in a 61% decline for youth of 
color enhanced probation admissions from 2008 to 2009. Our DMC 
Committee, comprised of community and system stakeholders, also 
recommended to eliminate this policy, and this request has been 
honored.
            (3) Juvenile Justice Decision Point Analysis
    Finally, we learned that we were not aware of how all juvenile 
justice decision makers were, intentionally or not, contributing to DMC 
and racial and ethnic disparities in our juvenile justice system. 
Ramsey County is currently engaged in decision point analysis that 
reviews all juvenile justice decision making points--from arrest, to 
entry onto probation, to detention and out of home placement. We are 
conducting a thorough assessment of both our policies and our practices 
to ensure that we are not unintentionally treating similarly situated 
youth differently, and ensuring we are responsive to the many diverse 
communities we serve.
    With this intentional focus, Ramsey County has had the following 
measurable reductions and successes:
    (1) A reduction in the average daily population for youth of color 
in detention by 65% from 2005 to 2009 using an objective detention 
screening tool. Use of the objective detention screening, the Risk 
Assessment Instrument (RAI) has ensured that youth will be either 
released from juvenile detention intake, released from juvenile 
detention intake with certain conditions or be admitted to our Juvenile 
Detention Center based on their level of public safety risk, their 
presenting offense and prior history of offense and flight risk. 
Several databases are used to assess youth eligibility for release to 
home (0-9), an alternative to detention (10-14) or detention (15+). In 
developing and using our RAI, we learned that the vast majority of 
youth of color the RAI-identified were low risk youth who were 
previously being detained. Used with a clear purpose of detention, 
we've experienced dramatic reductions in the overall daily population 
in detention and significantly reduced detention admissions for youth 
of color. The RAI was implemented in January 2008 after months of 
collaborative deliberation with such stakeholders as corrections, law 
enforcement, county attorneys, public defenders, judges, schools, and 
community representatives. Most recently Ramsey County launched an 
automated version of the tool cutting the assessment time by more than 
half and thereby releasing youth who do not require secure detention.
    (2) For Black youth, who represent the majority of youth of color 
in detention, a reduction in rate of detention by 33.2% from 2005 to 
2008, and a reduction in rate of secure confinement or out of home 
placement by 85.9% In addition to the RAI, our Probation staff,with 
partners, developed an objective tool, the Graduated Response Grid, 
which standardizes probation officers' responses to violations based on 
a youth's level of risk to reoffend and the level of non-compliance. 
When we examined the youth being admitted to detention on probation 
violations and intensive supervision sanctions, more than 80% were 
youth of color. Black youth were especially overrepresented. These 
youth were being admitted primarily on status offenses or low level 
infractions. Youth were treated inconsistently by Corrections when they 
violated their probation, and the result was that Black youth were 
being disproportionately admitted to detention for reasons that did not 
meet our locally identified purpose of detention: short term public 
safety interests and flight risk.
    The grid presents a continuum of community based options and 
incentives that are used to redirect youth behavior and firmly 
positions detention and out of home placement as deep end tools only to 
be used when public safety and a youth's rehabilitative needs require 
it. A philosophical, policy and practice shift has created an emphasis 
on least restrictive, community based options wherever possible, which 
has impacted the number of youth of color in Ramsey County. Black youth 
are not being sent to detention and out of home placement as often due 
to this new policy No longer are secure detention and out of home 
placement used as accountability measures or 'punishment', but for 
their respective intended purposes.
    The implementation of culturally specific, community-based 
alternatives to support both detention reforms and probation reforms 
that divert youth from detention and out of home placement to community 
based options. Data showed that many of the youth coming to detention 
came from two main neighborhoods in St. Paul--the 55106 or East St. 
Paul,area, community in transition with a large Black and Hmong 
population, and 55104, the Rondo neighborhood, a historically Black 
area. When alternatives were designed, programs were intentionally 
placed in the impacted neighborhoods where youth were coming from to 
ensure that supports were being developed right where young people live 
and that programs are accessible and culturally relevant to increase 
program success rates.
    Most important, in Ramsey County our leadership has prioritized DMC 
and reducing racial and ethnic disparities for conducting juvenile 
justice system reform. Work to reduce DMC and eliminate racial and 
ethnic disparities is a part of my Department's Five Year Strategic 
Plan. The goals of this plan include:
    1. completing a decision point analysis for entire juvenile 
division by race, ethnicity, gender, geography, and offense (REGGO) ;
    2. identifying points of differential impact on youth of color and 
developing strategies that eliminate disparities in partnership with 
stakeholders;
    3. establishing authentic ``discussions'' with communities of color 
and the Community Corrections Department ;
    4. reducing and monitoring the efficacy of out-of-home placements;
    5. ensuring that all families are welcomed and respected as they 
intersect with our juvenile justice system; and
    6. placing a stronger emphasis on culturally and gender specific 
responses.
    The process and goals of our work in Ramsey County reflect the 
level of intentionality required to make meaningful and sustainable 
reductions to DMC and racial and ethnic disparities in the juvenile 
justice system. It is a process that produces measurable results, and 
more importantly, can be replicated by jurisdictions throughout the 
nation. With guidance, intentionality and a strategic approach, 
jurisdictions that have simply admired the problem of disparities in 
their juvenile justice system for decades can finally take action to 
eliminate those disparities.
Strengthening the Core Protection to ``Address DMC'' in the JJDPA
    Currently, the JJDPA requires States to ``address'' 
disproportionate minority contact (DMC) within the juvenile justice 
system. Specifically, the law requires States to ``address juvenile 
delinquency prevention efforts and system improvement efforts designed 
to reduce, without establishing or requiring numerical standards or 
quotas, the disproportionate number of juvenile members of minority 
groups, who come into contact with the juvenile justice system.'' \ix\
    Unfortunately, this vague requirement that states ``address'' 
efforts to reduce DMC has left state and local officials without a 
clear mandate or guidance for reducing racial and ethnic disparities. 
With limited guidance, jurisdictions can get stuck studying the problem 
or endlessly working on projects that do not lead to measurable 
reductions. Indeed, throughout the country, jurisdictions have spent 
significant time and money trying to reduce racial and ethnic 
disparities in juvenile justice with limited results. I contend that 
unless Congress strengthens the DMC core requirements of JJDPA, little 
progress will be made beyond ``admiring the problem.''
    Strengthening the JJDPA will make it possible for more 
jurisdictions to reduce racial and ethnic disparities in the juvenile 
justice system by giving states more guidance on how to go about 
reducing DMC and racial and ethnic disparities through focused, 
informed, data-driven strategies like those successfully utilized in 
Ramsey County. Thus, I believe the reauthorization of the JJDPA must 
guide states toward engaging in specific approaches to effectively 
address racial and ethnic disparities.
    Specifically, I recommend strengthening the core protection by 
requiring States to take concrete steps to not just address, but to 
actually move toward reducing racial and ethnic disparities in the 
juvenile justice system. Using elements of the model used in Ramsey 
County, MN and other jurisdictions that have effectively reduced racial 
and ethnic disparities, strategies to reduce DMC and racial and ethnic 
disparities must include:
    Encouraging collaboration of local juvenile justice stakeholders, 
including community leaders of communities in which youth of color are 
disproportionately represented in the juvenile justice system.
    Mapping decision points in local and state juvenile justice systems 
to identify key decision points and how departmental policy, practice 
and procedure may disparately impact youth of color and be contributing 
to disproportionality.
    Developing and implementing data systems that identify where racial 
and ethnic disparities exist in the juvenile justice system and track 
and analyze such disparities, using descriptors disaggregated as 
appropriate by race, ethnicity, gender, geography, offense, delinquency 
history and age.
    Creating a work plan to reduce racial and ethnic disparities that 
includes measurable objectives for system change and/or policy and 
practice change designed to reduce any forms of bias, differential 
treatment of youth of color or disparity found to be associated with 
race and ethnicity; and
    Publicly reporting progress towards measurable objectives in 
reducing racial and ethnic disparities that must be monitored and 
evaluated on an annual basis.
    By strengthening the core requirement of the JJDPA regarding 
disproportionality in the juvenile justice system, you would be making 
a statement that you recognize the intentionality necessary to reduce 
DMC and racial and ethnic disparities in the system and are make this 
work a national priority. You are giving more jurisdictions throughout 
the nation the opportunity to build on the experiences of jurisdictions 
that have successfully reduced disproportionality and disparities.
Conclusion
    Thank you for the opportunity to address you regarding this 
critical issue. In Ramsey County, we have realized that reducing racial 
and ethnic disparities in the juvenile justice system while maintaining 
public safety is possible. We also know that it is only possible with 
intentionality and by implementing the strategies discussed above.
    With its current reauthorization, Congress has the opportunity to 
offer specific guidelines to States in their efforts to reduce the 
growing disproportionality of youth of color in the juvenile justice 
system. And while Congress cannot legislate the will to reduce racial 
and ethnic disparities, it can formulate policy that will have an 
important and measurable impact on the lives of children.
    I am happy to answer any questions you might have regarding my 
testimony.

                                ENDNOTES

    \i\ Hartney, C. and Vuong, L. (2009). Created Equal: Racial and 
Ethnic Disparities in the U.S. Criminal Justice System. National 
Council on Crime and Delinquency. Oakland.
    \ii\ National Council on Crime and Delinquency. (2007). And Justice 
for Some: Differential Treatment of Youth of Color in the Justice 
System. Oakland. Available: http://www.nccdcrc.org/nccd/pubs/2007jan--
justice--for--some.pdf.
    \iii\ Sickmund, Melissa, Sladky, T.J., and Kang, Wei. (2008) 
``Census of Juveniles in Residential Placement Databook.'' Online. 
Available: http://www.ojjdp.ncjrs.gov/ojstatbb/cjrp/
    \iv\ Hartney, C. and Vuong, L. (2009). Created Equal: Racial and 
Ethnic Disparities in the U.S. Criminal Justice System. National 
Council on Crime and Delinquency. Oakland.
    \v\ Puzzanchera, C., Sladky, A. and Kang, W. (2009). ``Easy Access 
to Juvenile Populations: 1990-2008.'' Online. Available: http://
www.ojjdp.ncjrs.gov/ojstatbb/ezapop/
    \vi\ Sickmund, Melissa, Sladky, T.J., and Kang, Wei. (2008) 
``Census of Juveniles in Residential Placement Databook.'' Online. 
Available: http://www.ojjdp.ncjrs.gov/ojstatbb/cjrp/
    \vii\ Minnesota JDAI Results Report (2008).
    \viii\ Lichter, Daniel. Population and Development Review (2010). 
March (Vol. 36:1).
    \ix\ P.L.93-415
                                 ______
                                 
    Chairman Miller. Ms. McClard, welcome.

 STATEMENT OF TRACY MC CLARD, MOTHER OF A CHILD WHO COMMITTED 
                  SUICIDE IN AN ADULT FACILITY

    Ms. McClard. Thank you.
    Good morning, Chairman Miller, Ranking Member Petri, and 
members of the committee. Thank you so much for having me here 
today.
    In 2008, I lost my 17-year-old son Jonathan to Missouri's 
criminal justice system. First, I would like to put our story 
in context. Each year, 200,000 youth are prosecuted as adults, 
and every day, 10,000 kids under 18 are locked in adult jails 
and prisons. This practice exists even though research shows 
that prosecuting youth as adults actually increases crime.
    Other studies show that youth in adult jails face physical 
and sexual assault and little to no access to education, mental 
health programs, or substance abuse treatment. As my family 
tragically knows too well, youth in adult jails are 36 times 
more likely to complete suicide in jail than juvenile 
detention.
    In July 2007, my son, Jonathan, who was 16 years old, made 
an extremely poor decision. His ex-girlfriend called to say 
that she was pregnant with his baby, but was going to commit 
suicide because her new boyfriend was going to force her to 
kill the baby. Under the influence of drugs, in what he thought 
was an attempt to save two lives, Jonathan shot the boyfriend, 
who survived, to scare him into leaving the ex-girlfriend 
alone.
    Thinking the police would understand, Jonathan immediately 
turned himself in. I believed Jonathan should be held 
accountable, but I never imagined what he would face in the 
adult system.
    He was first placed in juvenile facilities, including a 
psychiatric hospital and a juvenile detention center. While in 
the hospital, Jonathan was prescribed a high amount of anti-
psychotic medications that took several weeks for his body to 
adjust to. In the meantime, he suffered recurring nightmares 
and hallucinations of blood running down the walls. In the 
detention center, he was allowed to stay caught up in school.
    On September 6, 2007, he was transferred to the adult 
system and placed in an adult jail, a 140-pound slight-build 
16-year-old child among much older, bigger men. On his arrival, 
all his medication was abruptly stopped due to the jail's anti-
narcotics policy, causing intense withdrawal with shaking, more 
hallucinations, and severe depression.
    At the jail, he could no longer continue his education. His 
school no longer sent homework, and he was dropped from the 
roster. This was really hard for him, because he loved school. 
He had a lot of friends, good grades, and good relationships 
with his teachers.
    He was working towards scholarships and to become a doctor 
or psychiatrist. He tried to work on a GED book, but the jail 
was too noisy and no one would help or support him. At night, 
he couldn't sleep, as the lights were kept on and the adult 
inmates stayed up. Jonathan timed trips to the restroom or 
taking a shower to avoid being assaulted.
    After 2 weeks, he was transferred to another jail in 
Charleston, Missouri. We were allowed only one 15-minute visit 
a week through glass by talking on a phone. On our first visit, 
my husband and I were shocked. Cuts and bruises covered his 
face and head. His hair was shaved, and he had a new tattoo 
that other inmates said he needed to survive.
    The night he arrived, he had been attacked by a fellow 
inmate coming down off meth from the meth lab in the jail. I 
immediately broke down and wept because I was utterly powerless 
to keep him safe. He kept trying to reassure me that he would 
be okay, but we both knew he wouldn't.
    In our next visits, Jonathan always had stories about 
violent things he saw and comments he heard from other inmates 
on how to survive and was constantly trying to strengthen his 
body to survive attacks.
    Although he was recommended for Missouri's dual 
jurisdiction program, which allows youth up to 21 tried as 
adults to serve their time with other youth, the judge denied 
him this opportunity. After being placed in several other 
facilities, Jonathan learned he would be going back to 
Charlestown, the same town where he had horrible jail 
experiences.
    This possibility was too much for him. And on January 4th, 
3 days after his 17th birthday, he was found hanging in his 
cell.
    While in jail, Jonathan lost everything: freedom, friends, 
safety, privacy, sanity, childhood, scholarships, college, 
dreams, Six Flags, family vacations, and holidays, and time 
with his brother, sister and a close extended family.
    Jonathan's experience taught me that no child should be 
placed with adults no matter what, because when children are 
put with adults, they die, physically or mentally.
    I also believe that all kids deserve a second chance. As a 
parent, one of the most frustrating things for me was that the 
court, the judges, the prosecutors didn't know my son. They 
hadn't raised him like I had. But they weren't willing to give 
him the second chance they might have given their own kid.
    Finally, if the criminal justice system is supposed to keep 
our communities safe, how safe can they be if a kid has spent 
5, 10, 15 or more years in the conditions Jonathan faced and 
the role models he had?
    In closing, I urge the committee to extend the jail removal 
and sight and sound core protections in the JJDPA to youth in 
the adult system. I also ask that you allow states the option 
to let youth convicted in adult court serve their sentence in 
juvenile facilities rather than adult prisons.
    Thank you again for having me here to testify and for 
giving me the chance to share my story, my family's story, and 
Jonathan's story with you.
    [The statement of Ms. McClard follows:]

              Prepared Statement of Tracy McClard, Parent

    Good Morning, Chairman Miller, Ranking Member Kline, and members of 
the House Education and Labor Committee. Thank you for having me here 
to testify today on the Juvenile Justice and Delinquency Prevention Act 
(JJDPA) and share my story.
    My name is Tracy McClard and I live in Jackson, MO. In 2008, I lost 
my barely 17 year old son, Jonathan, in Missouri's criminal justice 
system.
Background and Context
    Before I begin telling my family's experience with having our son 
in the adult criminal justice system, I would like to give you some 
data to help put our story into context. Each year, an estimated 
200,000 youth go into the adult criminal court and every day 10,000 
kids under the age of 18 are incarcerated in adult jails and prisons.
    These policies exist even though research shows that prosecuting 
children as adults causes harm to these youth and does not increase 
public safety. Reports from the Office of Juvenile Justice and 
Delinquency Prevention (OJJDP) and the Centers for Disease Control and 
Prevention (CDC)'s non-federal Task Force on Community Preventive 
Services, show that prosecuting youth as adults actually increases 
crime. The CDC report found that youth involved in the adult system are 
34% more likely to commit crimes than children who have done similar 
crimes, but remain in the juvenile justice system. The OJJDP report 
found that prosecuting youth as adults increases the chances of a youth 
re-offending and recommended decreasing the number of youth in the 
adult criminal justice system.
    Research also shows that youth in adult jails face unbelievable 
conditions. First, these youth are at great risk of physical and sexual 
assault. The National Prison Rape Elimination Commission recently found 
that ``more than any other group of incarcerated persons, youth 
incarcerated with adults are probably at the highest risk for sexual 
abuse'' and said youth be housed separately from adults. Second, youth 
in jails typically do not have access to things like education, mental 
health programs, or substance abuse treatment, especially when compared 
to kids in juvenile facilities. Finally, and as my family tragically 
knows too well, youth in adult jails are at a high risk of suicide--
youth in adult jails are 36 times more likely to complete suicide in an 
adult jail than youth juvenile detention facilities.
Jonathan's Story
    In July 2007, my son Jonathan, who was 16 years old at the time, 
made an extremely poor error in judgment. That morning Jonathan's ex-
girlfriend called to tell him that she was pregnant with Jonathan's 
baby, but that her new boyfriend was abusive and was going to force her 
to inject cocaine and kill the baby. She also told him she was going to 
commit suicide before the new boyfriend could do this. Under the 
influence of drugs, and in what he thought was an attempt to save two 
lives, Jonathan shot the boyfriend, who survived, with the intent to 
scare him into leaving the ex-girlfriend alone. Thinking the police 
would understand why he did what he did and not understanding the 
gravity of his actions, Jonathan immediately turned himself in. While I 
believed that Jonathan needed to be held accountable for his actions as 
well as pay retribution, I never would have imagined the conditions he 
would face in the adult criminal justice system that ultimately took 
his life.
    Our ordeal began with Jonathan being taken to an adolescent 
psychiatric hospital in St. Louis, MO within two hours of his arrest 
due to shock and suicidal thoughts in the aftermath of the event. The 
charge nurse there said that Jonathan was very confused and afraid. He 
remained in that facility for two weeks and was then ultimately 
transferred to the Cape Girardeau Juvenile Detention Center to be 
closer to home.
    While in the psychiatric hospital, Jonathan was prescribed an 
extremely high amount of anti-psychotic medication. When he was 
transferred back to the juvenile facilities we, as his parents, had no 
control over Jonathan's medication or the dosage. It took several weeks 
for his body to adjust and during this time he had recurring nightmares 
about the loss of his baby and hallucinations of blood running down the 
walls. Eventually his body adjusted to the medication. In the juvenile 
detention center, Jonathan was allowed to complete homework from school 
and stay caught up. Jonathan remained in the Cape Girardeau County 
Juvenile Detention Center until September 6, 2007.
    On that day, Jonathan had a certification hearing where he was 
transferred to the adult system. At the conclusion of the hearing he 
was immediately placed in the Cape Girardeau County Jail with adults in 
Jackson, MO. He was a 140 lb., slight built, 16 year old child among 
much older, bigger men. As soon as he arrived, all the medication he 
was forced to take earlier was abruptly stopped due to the jail's anti-
narcotics policies, causing intense withdrawal symptoms, including 
shaking, another bout of hallucinations and severe depression. There 
was no medical care, medication or concern on the part of the jail's 
staff as Jonathan was forced to suffer these withdrawal symptoms.
    At the jail, the ability for Jonathan to continue his education was 
also put on hold. Because he was now in the adult system, his school 
was no longer required to send homework and he was officially dropped 
from their roster. This was really difficult for Jonathan to deal with 
as he loved school, learning, reading and research. He had a lot of 
friends, made good grades and his teachers really enjoyed having him in 
class. He was working toward scholarships and had plans to become a 
doctor or psychiatrist. In the weeks waiting for his certification 
hearing, he mentioned several times how worried he was about his 
education. The night before the hearing he said, ``I wonder if my 
teachers know I have to go to jail tomorrow and I can't be in school 
anymore. My life is over.''
    In order to continue with his education, Jonathan tried to work on 
a GED book, but he told me that it was too noisy in the jail and nobody 
was there to help or support him. He ended up staring at the TV every 
day and at night he could not sleep as the lights were kept on and the 
adult inmates stayed up. He waited to use the restroom and take a 
shower in the mid-morning hours when the other inmates were sleeping to 
avoid being assaulted. Jonathan spent approximately two weeks in the 
Cape Girardeau County Jail and due to a change in venue was then 
transferred to the Mississippi County Jail in Charleston, MO.
    I knew the transfer was coming, I just didn't know when. Due to 
security protocol, families are not allowed to know when loved ones are 
being moved. Before Jonathan was transferred, I called the Mississippi 
County Jail to speak to the supervisor about his safety. The supervisor 
led me to believe he was very concerned about having someone so young 
in his jail, that he would be very careful about which pod he chose to 
place Jonathan, and that other inmates had been singled out to watch 
over him. I was told that the officers would keep an eye out for him 
and he would be fine.
    Jonathan was transferred on a Thursday. We were allowed only one 15 
minute visit a week, either on Monday or Thursday between one and four 
o'clock. My husband and I took time away from our jobs each week to 
visit. We visited through glass by talking on a phone. Since Jonathan 
was moved on Thursday, the following Monday was our first opportunity 
to see him.
    As Jonathan approached his side of the glass, my husband and I were 
shocked by what we saw. Jonathan had cuts and bruises all over his 
face, ears, and head. His hair was shaved off and he had a tattoo under 
his eye. He was told by the other inmates in the facility he needed the 
tattoo to survive. I immediately broke down and wept because I was 
utterly powerless to keep him safe. As I questioned him about what 
happened, I learned that he was attacked the night he arrived there. He 
said there was a meth lab in the jail and the person who attacked him 
was someone he shared a cell with and who was coming down off of meth. 
This person took Jonathan's shirt and pulled it over his head so he 
couldn't see and so his arms were trapped. Jonathan kept trying to 
reassure me that he would be okay and this was his fault because he'd 
gotten himself into this nightmare. We both knew he wouldn't be okay.
    Following the extremely short visit, Jonathan was led back into the 
madhouse and my husband and I sought out the supervisor that I had 
spoken with on the phone. When we asked about the events of the fight 
and Jonathan's promised safety a very unconcerned supervisor told us, 
``Things like this happen! What do you expect? We don't tolerate 
fighting of any sort so if Jonathan participates in it again he'll be 
placed in solitary confinement. I don't care what the circumstances 
are.''
    On our next visit a week later, Jonathan was visibly shaken. He 
said, ``Mom this place is so scary.'' I asked what happened. He 
described an incident that happened that week of a new inmate coming 
in. He said when this man was brought in several inmates grabbed him 
and dragged him to the back. He said, ``Mom, I could hear him screaming 
and screaming and nobody did anything! When they brought him back out I 
couldn't recognize him because he was so bloody and beat up and he got 
sent to solitary, but nobody else got into trouble.''
    For the next several visits, Jonathan always had stories to tell 
about violent things that happened that week and comments he was 
hearing from inmates who had been to prison about how to survive if he 
had to go to prison. He was constantly trying to strengthen his body to 
survive present and future attacks. He talked about how he was told he 
needed to be in a gang, which he didn't want to join, to survive. At 
this point, he was trying to decide between making education a priority 
and dealing with the bullying and beating that came with studying for 
the GED or if he should forget his education so he could join a gang 
and be safer. Jonathan remained in the Mississippi County Jail until 
his sentencing hearing on November 13, 2007.
    Missouri has a blended sentencing option in place called the 
Missouri Dual Jurisdiction Program, which is run by the Missouri 
Department of Youth Services (DYS) and serves youth up to age 21 who 
have been certified as adults. Youth sentenced to this program are 
placed in a secure facility near St. Louis and are allowed to live in 
dorm style rooms, wear their own clothes, and have their own 
possessions from home. They also receive their high school diploma or 
GED, can take college classes, and have extensive individual and group 
counseling geared toward substance abuse, positive choices, victim 
empathy and restoration and other issues geared toward this specific 
population. Families are also encouraged to visit and remain involved. 
To be allowed into this program, a youth is interviewed by the DYS and 
a recommendation is given to the judge for acceptance or rejection. If 
accepted, the adult sentence is suspended while the youth receives 
intensive counseling and education. At the age of 21, another hearing 
is scheduled to decide if the youth can go home on probation or if the 
youth must serve the rest of the sentence in the adult prison. The 
decision for initial placement and adult placement is ultimately up to 
the judge.
    Jonathan was interviewed for this program and was highly 
recommended. A representative from the DYS came to his sentencing 
hearing (which is unusual) to testify about the huge possibility for 
success Jonathan possessed. Namely, Jonathan had a close, supportive, 
extended family, was a good student in school, was well liked by peers, 
grew up in church and was involved in the youth group, and had goals 
and plans for his future. Although the DYS person who interviewed 
Jonathan thought Jonathan would be a good candidate for the program, 
the DYS worker also said that the judges in our court district 
typically were difficult to work with and wished Jonathan's case was in 
a different district. Tragically, the judge in Jonathan's case refused 
to listen to this recommendation.
    Jonathan left the jail two days later and was placed in several 
other facilities. On December 13th, Jonathan took his GED test and 
passed with a 99th percentile in the nation. On January 4th, three days 
after his 17th birthday he was found hanging in his cell. A few days 
before, he had learned that he would be going back to Mississippi 
County to the prison in Charleston, which was the same town where he 
had lived and witnessed horrible experiences while in the jail.
    While in jail, Jonathan lost everything. He lost his freedom, his 
friends, his safety, his privacy, his sanity, his childhood, 
skateboarding, swimming, his girlfriend, summer vacation, scholarships, 
college, dreams, Six Flags, marriages, births, deaths, family 
vacations, Christmas, Thanksgiving, time with his brother and sister 
(who now have tattoos in his honor and named their children after him), 
time with a close extended family and cousins who have always been a 
huge part of his life, his whole entire future and his life.
    Our family also suffered while Jonathan suffered and we nearly lost 
everything as well. Jonathan's older brother, Charles, had recently 
moved out on his own, but began experiencing panic attacks and seizures 
due to extreme stress and worry over Jonathan and was forced to move 
back home. Shortly after Jonathan died, Charles attempted suicide. A 
few weeks before Jonathan's death, my husband also attempted suicide 
and was hospitalized. Jonathan's older sister, Suzanne, who is in the 
Army National Guard, was scheduled to deploy a few days after 
Jonathan's death and also ended up in the hospital suffering from panic 
attacks.
Recommendations and Conclusion
    Jonathan's experience taught me that no child should be placed with 
adults no matter what, because when children are put in with adults 
they die--physically or mentally. I also believe that all kids deserve 
a second chance. As a parent, one of the most frustrating things for me 
was that the court, the judges, and the prosecutors didn't know my 
son--they hadn't raised him like I had; they didn't even know him as a 
person--but they weren't willing to give him the second chance they 
might have given to their own kids if they were in the same situation. 
Finally, if the goal of the juvenile and criminal justice system is to 
keep our communities safe, how safe can our communities be if a kid in 
Jonathan's position would have spent five, ten, fifteen or more years 
in the conditions Jonathan faced and with the role models he had?
    In terms of JJDPA reauthorization, I have two main recommendations 
for the Committee. First, the current JJDPA law has two core 
requirements--jail removal and sight and sound separation--that 
recognize the dangers of keeping youth out of adult jails and out of 
contact with adults in these facilities. However, right now these two 
requirements only apply to youth who are under the jurisdiction of the 
juvenile court. Once a youth is charged as an adult, these protections 
no longer apply and, like Jonathan, kids can be placed in the same cell 
as adults. I hope the Committee can extend the jail removal and sight 
and sound protections to all youth under 18, no matter what court they 
are tried in. The alternative is just too dangerous for our youth and 
our communities.
    Second, I hope that the JJDPA will continue to allow States to have 
the option to let youth who are convicted in adult court to serve their 
sentence in juvenile facilities rather than adult prison. It is my 
understanding that the Office of Juvenile Justice and Delinquency 
Prevention (OJJDP) recently stopped penalizing States that were 
allowing youth to serve their time in juvenile facilities and I would 
like for the Committee to make sure this decision is permanent.
    Thank you again for having me here to testify and for giving me the 
chance to share my story, my family's story, and Jonathan's story with 
you today.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Solberg?

  STATEMENT OF JOHN SOLBERG, EXECUTIVE DIRECTOR, RAWHIDE BOYS 
                             RANCH

    Mr. Solberg. Good morning, Chairman Miller, Congressman 
Petri, and members of the committee.
    As the executive director of Rawhide Boys Ranch, a faith-
based, licensed residential care center in Wisconsin, I am 
honored to present testimony about the front-line impact our 
organization is making to improve the lives and safety of youth 
in the juvenile justice system.
    I am also prepared to testify on my observations regarding 
the impact of funding priorities associated with the Juvenile 
Justice and Delinquency Prevention Act on Rawhide and on a 
state and national level through contacts with state and 
national juvenile justice providers through participation in 
state and national associations.
    As the leader of a nonprofit associated with the care of 
over 120 juvenile placements each year, a board member with 
WAFCA, our statewide association, a previous public policy 
member for the Alliance for Children and Families, and a 
participant in the Building Bridges Summit sponsored by SAMHSA, 
I have gained insight into the benefits and challenges 
associated with sometimes competing interests and goals of 
JJDPA priorities.
    My hope is to provide you an insight as to what is 
happening in Wisconsin and a practitioner's perspective, as 
well as to the impact of policy on community-based services in 
relation to out-of-home care or what might be referred to as 
levels of sanctioned care in Wisconsin and nationally.
    Rawhide Boys Ranch was founded by John and Jan Gillespie 
and Bart and Cherry Starr in 1965 as an alternative to 
corrections for youth in our juvenile justice system. What 
started as one home serving youth for periods up to 3 years 
back in 1965 has transformed into seven boys homes serving over 
120 youth each year in intensive short-term programs ranging 
from 4 months in length to 1 year.
    Youth placed at Rawhide come from over 50 counties in 
Wisconsin through referrals from county juvenile courts and 
state secure facilities. They receive high-quality, 
individualized education at our on-grounds high school, Starr 
Academy. They are provided with work experience, training in 
seven different vocations, including vehicle repair and 
evaluation, food service, grounds and landscaping, general 
office administration, to name a few.
    Youth are provided programs that are evidence-based, 
including family learning model, community services 
opportunities, individual and group counseling, to name a few.
    In turn, this rich environment has led to independently 
researched success rates of 77 percent for youth placed at 
Rawhide in terms of not re-offending in the community. And that 
was a study done by Department of Corrections. It was also 
determined that we have 73 percent success rate in producing 
sustained positive behavior 6 months after discharge from the 
program.
    I would like to direct my testimony to JJDPA formula grant 
allocation priorities for juvenile justice programs. Rawhide, 
as a residential facility, has experienced the impact of 
priorities established by JJDPA for the funding of community-
based alternatives to incarceration.
    Today, placements at our institution no longer include 
status offenders and rarely first-or second-time offenders, but 
youth with a significant history of criminal contacts and 
oftentimes significant emotional challenges requiring 
medication and significant treatment.
    A typical youth placed at Rawhide 15 years earlier would 
not even resemble the youth we receive today in terms of 
multiple psychological diagnosis and numerous documented 
offenses. This is in part due to a greater emphasis among 
communities to treat individuals through a growing continuum of 
community-based services that provide various treatment and 
family services in response to criminal contact.
    To our credit, Wisconsin is a leader nationally in 
achieving shorter lengths of stay for juveniles in out-of-home 
care. Wisconsin is also a leader in providing community-based 
services that respond to the needs of youth in the juvenile 
justice system, most notably through Wraparound Milwaukee.
    However, the combination of shorter residential placement, 
coupled with more emotionally challenged youth and development 
of effective programs is creating greater financial challenges 
for residential providers.
    While community-based services are an important response to 
many youth with offenses, a growing challenge is the assessment 
and appropriate response to treatment for youth with 
criminological thinking. Due in part to limited resources at 
the state and local level, we experience youth that are coming 
to residential and out-of-home care at a time when they have 
exhausted all community resources and would have benefited from 
more intensive services provided in residential care at an 
earlier stage in their life.
    Another concern that is clear from my experience is that 
the lack of agreed-upon outcomes to document success in all 
phases of care. As noted in ``What Works, Wisconsin, What 
Science Tells us about Cost-Effective Programs for Juvenile 
Delinquency Prevention,'' published in June of 2005, stated on 
page four, ``The need for proven, effective, high-quality 
prevention and intervention programs remains a high priority in 
Wisconsin and across the nation. Unfortunately, the 
effectiveness of many current programs and practices remains 
unproven at best, while some are known to be ineffective or 
even harmful.''
    Later in the study, it is noted that, ``Unfortunately, 
while there has been a remarkable growth in the number of 
evidence-based prevention programs, their adoption and use by 
practitioners lags far behind. In the field of juvenile 
justice, the percentage of programs that are evidence-based may 
be even lower.''
    As a result of funding priorities incorporated in the JJDPA 
directed toward state and local governments and in part to 
private agencies, there is a growing tension among community-
based providers and out-of-home care providers that threatens 
the capacity to provide adequate care in the future.
    Understandably, communities with limited resources are 
resistant to choosing more expensive forms of care, since much 
of juvenile justice is funded at the local level in Wisconsin. 
In turn, youth may stay much longer in community-based services 
when a more appropriate placement may be in a residential 
setting.
    The growing tension between community-based providers and 
out-of-home care providers led to a national summit in 2006 
that produced a document that I have as appendix A, but it was 
an attempt to really quell that difference between community-
based providers and those at out-of-home care.
    This tension is somewhat driven by the competition for 
declining resources, a strong belief in particular level of 
care, and a lack of understanding and experience. I am pleased 
to report that the summit brought about a greater understanding 
and appreciation among those participants, although that does 
not hold for the rest of the nation, per se.
    Of particular concern to this committee is, in my opinion, 
what should be related impact that JJDPA funding priorities 
directed to community-based priorities has on diminishing the 
capacity of states, who are losing money for out-of-home care 
or sanctioned care that result in the closure of licensed 
programs.
    Over the past 45 years of operation, Rawhide has 
experienced the direct impact of federal policy related to 
juvenile justice. By way of example, I currently serve on a 
commission appointed by the governor of Wisconsin that is 
charged with recommending the closure of one of two secure 
juvenile facilities in the state.
    Should this happen, Wisconsin could lose 50 percent of its 
capacity to provide secure detention of juveniles. While a 35 
percent decrease in juveniles placed at Wisconsin juvenile 
facilities is worthy of note, the question remains if this 
trend will continue at a time when all programs offered to 
youth are experiencing diminished funding.
    In addition, Wisconsin's private and non-profit programs 
are experiencing increased pressure to close or merge, leading 
to lower capacity for varying levels of care.
    The challenge for this committee is to recognize the 
funding priorities of JJDPA have contributed to tensions among 
the continuum of care and may diminish and put at risk the 
necessary and capital-intensive infrastructure throughout the 
nation in the form of out-of-home care or sanction-level care.
    In addition, I feel the lack of agreed-upon measurable 
outcomes at each level of care remains a challenge to determine 
the most effective treatment for youth in the juvenile justice 
system.
    Thank you for allowing me the honor of presenting my 
testimony this morning and the opportunity to provide you my 
insights as a practitioner in the care of juveniles placed in 
our care. I commend you in your service to our nation's at-risk 
youth. I would be happy to entertain any questions.
    [The statement of Mr. Solberg follows:]

   Prepared Statement of John S. Solberg, M.S., Executive Director, 
                   Rawhide Boys Ranch, New London, WI

    Good morning Chairman Miller, Ranking Member Kline, and Members of 
the Committee. As the Executive Director of Rawhide Boys Ranch, a 
faith-based, licensed residential care center in Wisconsin, I am 
honored to present testimony about the front line impact our 
organization is making to improve the lives and safety of youth in the 
Juvenile Justice system. I am also prepared to testify on my 
observations regarding the impact of funding priorities associated with 
the Juvenile Justice and Delinquency Prevention Act (JJDPA) on Rawhide 
and on a state and national level through contacts with state and 
national juvenile justice providers through participation in state and 
national associations.
    As the leader of a non-profit charged with the care of over 120 
juvenile placements each year, a board member for the previous four 
years with the Wisconsin Association of Family and Children's Agencies, 
a previous public policy committee member for the Alliance for Children 
and Families and a participant in the Building Bridges Summit sponsored 
by the Substance Abuse and Mental Health Services Administration 
(SAMHSA), I have gained insights into the benefits and challenges 
associated with the sometimes competing interests and goals of JJDPA 
priorities. My hope is to provide you an insight as to what is 
happening in Wisconsin from a practitioner's perspective as well as the 
impact of policy on community-based services in relation to out-of-home 
care or what might be referred to as levels of sanction care in 
Wisconsin and nationally.
    Rawhide Boys Ranch was founded by John and Jan Gillespie and Bart 
and Cherry Starr in 1965 as an alternative to corrections for youth. At 
that time the Gillespie's founded Rawhide with a passion for assisting 
troubled young men by creating a stable caring home environment on 714 
acres along the Wolf River. This location provided the experiential 
environment that responded to the needs of at-risk young men aged 12 to 
17. That same year the Gillespie's were joined by Hall of Fame 
quarterback Bart Starr and his wife Cherry who shared in the belief 
that young men need the structure, discipline and love that came from 
house parents modeling effective life skills for youth that lacked a 
stable environment and needed help to get their lives back on the right 
track.
    What started as one home serving 7 youth for periods up to 3 years 
has transformed into seven boys homes serving over 120 youth each year 
in intensive short term programs ranging from 4 months in length to 1 
year. Youth placed at Rawhide come from over 50 counties in Wisconsin 
through referrals from county juvenile courts and state secure 
facilities. They receive high quality, individualized education at our 
on grounds high school, Starr Academy. They are provided with work 
experience training in seven different vocations, including vehicle 
repair and evaluation, food service, grounds and landscaping, general 
office administration, to name a few. Youth are provided programs that 
are evidence based including the family learning model, community 
services opportunities, individual and group counseling, to name a few.
    In turn this rich treatment environment has led to independently 
researched success rate of 77% for youth placed at Rawhide not 
reoffending when placed back in the community after being placed for at 
least one year. This was based on a study conducted by the Wisconsin 
Department of Corrections. (Appleton Post Crescent article, ``Most 
Rawhide Alumni Go Straight, Peter Geniesse, 3/20/94) It was determined 
that the longer youth were in care the higher the success rate. Rawhide 
conducted its own independent study over a three year period concluded 
in 2003 by an independent psychologist who found youth assessed at 
entry, discharge and six months after discharge demonstrated sustained 
positive behavior at a rate of 73%. (Rawhide Outcome Study, Clinical 
and Functional Effectiveness utilizing the Youth Outcome Questionnaire 
conducted by Dr. Frank Cummings, Ph.D., Psychologist)
    I would direct my testimony next to JJDPA Formula Grant Allocation 
priorities for juvenile justice programs: Rawhide, as a residential 
facility has experienced the impact of priorities established by JJDPA 
for the funding of community-based alternatives to incarceration. Today 
placements at our institution no longer include status offenders and 
rarely, first or second time offenders but youth with a significant 
history of criminal contacts and often time significant emotional 
challenges requiring medication and treatment. A typical youth placed 
at Rawhide 15 years earlier would not resemble the youth we receive 
today in terms of multiple psychological diagnosis and numerous 
documented offenses. This is in part due to a greater emphasis among 
communities to treat individuals through a growing continuum of 
community-based services that provide various treatment and family 
services in response to criminal contact. To our credit, Wisconsin is a 
leader nationally in achieving shorter lengths of stay for juveniles in 
out-of-home care. Wisconsin is also a leader in providing community-
based services that respond to the needs of youth in the juvenile 
justice system most notably through Wraparound Milwaukee. However, the 
combination of shorter residential placement coupled with more 
emotionally challenged youths and development of effective programs is 
creating greater financial challenges for residential providers.
    While community based services are an important response to many 
youth with offenses, a growing challenge is the assessment and 
appropriate response to treatment for youth with criminological 
thinking. Due in part to limited resources at the state and local 
level, we experience youth that are coming to residential, out-of-home 
care at a time when they have exhausted all community resources and 
would have benefited from more intensive services provided in 
residential care at an earlier stage in their life.
    Another concern that is clear from my experience is the lack of 
agreed upon outcomes to document success in all phases of care. As 
noted in What Works, Wisconsin--What Science Tells us about Cost-
Effective Programs for Juvenile Delinquency Prevention published in 
June 2005, stated on page 4, ``The need for proven, effective high 
quality prevention and intervention programs remains a high priority in 
Wisconsin and across the nation. Unfortunately, the effectiveness of 
many current programs and practices remains unproven at best, while 
some are known to be ineffective or even harmful.'' Later in the study 
it is noted that, ``Unfortunately, while there has been a remarkable 
growth in the number of evidence-based prevention programs, their 
adoption and use by practitioners lags far behind. In the field of 
juvenile justice, the percentage of programs that are evidence based 
may be even lower.''
    As a result of funding priorities incorporated in the JJDPA 
directed toward state and local governments and in part to private 
agencies there is also a growing tension among community-based 
providers and out-of-home care providers that threatens the capacity to 
provide adequate care in the future. Understandably communities with 
limited resources are resistant to choosing more expensive forms of 
care since much of juvenile justice is funded at the local level in 
Wisconsin. In turn, youth may stay much longer in community-based 
services, when a more appropriate placement may be in a residential 
setting.
    This growing tension between community-based providers and out-of-
home care providers led to a national summit in 2006, called the 
Building Bridges Summit hosted by SAMHSA under the direction of Gary 
Blau, Ph.D. and Chief of Child, Adolescent and Family Branch, Center 
for Mental Health Services. This summit brought together residential 
and home and community-based service providers, family members, youth, 
national and state policy maker, system of care council members, tribal 
representatives and representatives of national associations related to 
children's mental health and residential care. The purpose was to 
address the historical tensions between residential and community-based 
service providers and supports. As a participant, I was surprised at 
the strong beliefs among some community-based participants that 
residential services were no longer needed in light of community-based 
alternatives. This tension is somewhat driven by the competition for 
declining resources, a strong belief in a particular level of care and 
a lack of understanding and experience. I am pleased to report that 
this summit brought about a greater understanding and appreciation 
among participants for an appropriate continuum of services and the 
need to support the capacity communities have available to provide and 
a wide range of services to protect the community and provide treatment 
to youth. The outcome of this summit was a joint resolution to Advance 
a Statement of Shared Core Principles. (Appendix A)
    Of particular concern to this Committee, in my opinion should be 
the related impact that JJDPA funding priorities directed to community-
based services has on diminishing the capacity of states, who are 
losing money for out of home care or sanction care that result in the 
closure of licensed programs. Over the past 45 years of operation, 
Rawhide has experienced the direct impact of Federal policy related to 
juvenile justice. By way of example, I currently serve on a Commission 
appointed by the Governor of Wisconsin that is charged with 
recommending the closure of one of two secure juvenile facilities in 
the state. Should this happen, Wisconsin could loose 50% of its' 
capacity to provide secure detention of juveniles. While a 35% decrease 
in juveniles placed at Wisconsin juvenile facilities is worthy of note, 
the question remains if this trend will continue at a time when all 
programs offered to youth are experiencing diminished funding. In 
addition, licensed private non-profit programs are experiencing 
increased pressure to close or merge leading to lower capacity for 
varying levels of residential care.
    The challenge for this committee is to recognize the funding 
priorities of JJDPA have contributed to tensions among the continuum of 
care and may diminish and put at risk the necessary and capital 
intensive infrastructure throughout the nation in the form of out-of-
home or sanction level care. In addition, I feel the lack of agreed 
upon measurable outcomes, at each level of care, remains a challenge to 
determine the most effective treatment for youth in the juvenile 
justice system.
    Thank you for allowing me the honor of presenting my testimony this 
morning and the opportunity to provide you my insights as practitioner 
in the care of juveniles placed in our care. I commend you in your 
service to our nation's at-risk youth. I would be happy to entertain 
any questions of the committee.
Appendix A

        Building Bridges Between Residential and Community Based
             Service Delivery Providers, Families and Youth

   Joint Resolution to Advance a Statement of Shared Core Principles

                     [Final Draft August 28, 2006]

                                PREAMBLE

    An exciting and significant step towards transforming the 
children's mental health system occurred at the recent Building Bridges 
Summit in Omaha, Nebraska on June 14-17, 2006. In order to address 
historical tensions between residential and community-based service 
providers and systems, a meeting was held to better integrate and link 
residential (out-of-home) and community services and supports. The 
Summit participants were chosen because of the range of their 
experience and knowledge as well as their personal commitment to 
ensuring services that are respectful, empowering and effective. 
Participants included residential and home and community service 
providers, family members, youth, national and state policy makers, 
system of care council members, tribal representatives, and 
representatives of national associations related to children's mental 
health and residential care.
    The purpose of the Summit was to:
    1. Establish defined areas of consensus, related to values, 
philosophies, services and outcomes;
    2. Develop a joint statement about the importance of creating a 
comprehensive service array for children, youth, and families, 
inclusive of residential and out-of-home treatment settings as part of 
the entire range of services;
    3. Identify emerging best practices in linking and integrating 
residential and home and community-based services;
    4. Set the stage for strengthening relationships and promoting 
consensus building; and
    5. Create action steps for the future.
    To a large degree the Summit accomplished these goals. Participants 
were able to dialogue and learn from each other's perspectives and 
experiences. Presentations highlighted positive outcomes from 
integrating residential and system of care services. The youth and 
family voice was powerful and provided leadership in helping to 
establish the emerging vision. A particular accomplishment was that a 
Joint Resolution of common purpose, shared principles, values and 
practices was developed.
    The Joint Resolution identifies an urgent need for transformation 
and envisions a comprehensive, flexible family-driven and youth-guided 
array of culturally competent and community-based services and 
supports, organized in an integrated and coordinated system of care in 
which families, youth, providers, advocates, and policymakers share 
responsibility for decision making and accountability for the care, 
treatment outcomes and well being of children and youth with mental 
health needs and their families.
    Participants believe that actualizing this vision will yield a more 
efficient service delivery system, more effective and appropriate 
individualized services to children, youth and families, better use of 
resources, and improved outcomes.
    The meeting and Joint Resolution represent a new level of unity, 
partnership, and collaboration among participating constituencies. A 
fundamental principal underlying this resolution is that children, 
youth and families are ultimately empowered across all areas. The group 
agreed to develop a multi-faceted strategy to promote the 
implementation of the Joint Resolution in policy and practice across 
the country. Meeting participants hope that the principles, values, and 
practices will be adopted and implemented by organizations, local 
communities, state and national associations, states, and the federal 
government. The Summit and the follow-up plans are evidence of 
important, critical new partnerships, and demonstrate a strong 
commitment to transforming children's mental health care in America.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Burns, welcome.

STATEMENT OF SCOTT BURNS, EXECUTIVE DIRECTOR, NATIONAL DISTRICT 
                     ATTORNEYS ASSOCIATION

    Mr. Burns. Chairman Miller, Ranking Member Kline, members 
of the committee, and fellow panelists, I want to thank you 
all--especially you, Ms. McClard--for the courage and coming 
forward and tell your story.
    I appear today on behalf of the National District Attorneys 
Association. We represent about 39,000 district attorneys, 
state's attorneys, attorneys general, city and county 
prosecutors, solicitors who have the responsibility of 
prosecuting over 95 percent of all the criminal cases in the 
United States.
    Juvenile justice remains one of the most important 
challenges facing America's criminal justice system. In the 
past, too many troubled juveniles who could have been guided by 
innovative prevention programs, intervention, and treatment 
services fell through the cracks of an overburdened and under-
funded juvenile justice system, leading too many juveniles to a 
life of crime.
    Senate Bill 678, the Juvenile Justice Delinquency 
Prevention Act, would assist state and local governments in 
their efforts to reduce juvenile crime through the funding of 
prevention programs and activities while authorizing a formula 
grant program, a comprehensive juvenile delinquency and 
prevention block grant program, and incentive grants for local 
delinquency prevention programs.
    While NDAA applauds the efforts made by Senator Leahy and 
other members of the Senate Judiciary Committee to address the 
serious problems facing America's juvenile justice system, 
within Senate Bill 678, we do have concerns with some of the 
framework in this legislation, specifically, mandating that 
states be penalized under federal formula grant funding unless 
certain benchmarks are met within each states' criminal justice 
system regarding the detention of juveniles.
    With increased budget challenges felt by state and local 
jurisdictions in America, coupled with the shortage of state 
and federal detention facilities, it is our hope that a 
reasonable amount of flexibility will be allowed for states to 
comply in order to not punish other State agencies focused on 
juvenile justice services.
    During the introduction of Senate Bill 678 to the United 
States Senate, Senator Leahy was mindful of these concerns, 
stating, ``We must do this with ample consideration for the 
fiscal constraints on states, particularly in these lean budget 
times, and with deference to the traditional roles of states in 
setting their own criminal justice policy.''
    The national district attorneys also believe that it is 
important to allow states to decide how to both address the 
needs of youth in the juvenile justice system, while also 
ensuring the safety of the community. It is important for 
states to have the flexibility to deal with youth offenders 
through a variety of programs, such as community-based 
programs, faith-based programs, residential facilities, and 
detention centers, depending upon the need of the youth and of 
the community.
    As an elected state and local prosecutor for almost 16 
years, I had the opportunity to appear in juvenile court and at 
our juvenile detention center on many occasions. I submit to 
you that the goal was, and it is today, to do individual 
justice in each case. And I submit to you that, while one can 
always find outrageous anecdotes or cases that simply are 
outside believability to make a point, in every jurisdiction I 
am aware of, juveniles are not incarcerated or taken to 
detention for status offense, such as truancy, unless there are 
some overriding reasons.
    Juveniles are not placed in general population with adult 
offenders unless certifies or unless there are certain 
overriding reasons. And I should say that the National District 
Attorneys Association several years ago passed a resolution 
opposing housing juveniles in the same general population as 
adult offenders.
    Overrepresentation of minorities in the juvenile justice 
system, I submit to you, speaking on behalf of district 
attorneys, is not a result of intentional discrimination. Any 
state and local prosecutor will tell you that, one, we take our 
victims and our offenders as we get them. The majority of 
victims of minority juvenile crime are also from the minority 
population, especially in urban communities. And many juvenile 
offenses occur in high-crime areas, where the community has 
demanded and received intense police presence to increase 
public safety, and because of that increased presence, more 
juvenile offenders are apprehended.
    This isn't to say that we can't do better, and we should. 
In preparation for this hearing, I called DAs from a large 
city--Brooklyn, New York--a medium-sized city--Sacramento, 
California--and a small city--my hometown of Cedar City, Utah. 
Representatives from each of these cities stated that, in sum 
and substance, unless a juvenile commits a serious violent 
crime, a serious sex crime, or has repeated serious criminal 
behavior and simply cannot be controlled--this is them speaking 
on behalf of their offices--that it would be extremely rare for 
a juvenile to be incarcerated in detention.
    Prosecutors and district attorneys have no interest, get no 
extra credit, don't notch belts by putting juveniles in 
detention or incarcerating them. It is the last option.
    Again, I am certain there are examples of when the system 
did not work, but the vast majority of cases in the system, we 
do find the appropriate solution. While those of us that work 
in the criminal justice system can always do better, 
improvement and policy discussions should also take place at a 
state and local level.
    Chairman Miller, Ranking Member Kline, members of the 
committee, I appreciate the opportunity to testify before you 
on this important legislation and will answer any questions 
that you may have.
    [The statement of Mr. Burns follows:]

 Prepared Statement of Scott Burns, Esq., Executive Director, National 
                     District Attorneys Association

    Chairman Miller, Ranking Member Kline, members of the Committee, 
thank you for inviting me to testify today on behalf of the National 
District Attorneys Association (NDAA), the oldest and largest 
organization representing 40,000 district attorneys, state's attorneys, 
attorneys general and county and city prosecutors with responsibility 
for prosecuting 95% of criminal violations in every state and territory 
of the United States.
    Juvenile justice remains one of the most important challenges 
facing America's criminal justice system. When juveniles commit crimes 
and enter into America's criminal justice system, each step juveniles 
are processed through will affect their perception and respect--or lack 
thereof--for law and order for the rest of their lives. In the past, 
too many troubled juveniles who could have been guided by innovative 
prevention, intervention and treatment services instead fell through 
the cracks of an overburdened and under funded juvenile justice system, 
leading too many juveniles to a full-time life of crime.
    S. 678, The Juvenile Justice Delinquency Prevention Act (JJDPA), 
would assist State and local governments in their efforts to reduce 
juvenile crime through the funding of prevention programs and 
activities while authorizing a formula grant program, a comprehensive 
juvenile delinquency and prevention block grant program, and incentive 
grants for local delinquency prevention programs.
    While NDAA applauds the efforts made by Senator Leahy and other 
members of the Senate Judiciary Committee to address serious problems 
facing America's juvenile justice system within S. 678, we do have 
concerns with some of the framework in this legislation; specifically, 
mandating that States will be penalized under federal formula grant 
funding unless certain benchmarks are met within each States' criminal 
justice system regarding the detention of juveniles. With increased 
budget challenges felt by State and local jurisdictions in America, 
coupled with the shortage of State and federal detention facilities, it 
is our hope that a reasonable amount of flexibility will be allowed for 
States to comply in order to not punish other State agencies focused on 
juvenile justice services. During his introduction of S. 678 to the 
United States Senate, Senator Leahy was mindful of these concerns, 
stating ``We must do this with ample consideration for the fiscal 
constraints on States, particularly in these lean budget times, and 
with deference to the traditional role of states in setting their own 
criminal justice policy.'' \1\
---------------------------------------------------------------------------
    \1\ http://thomas.loc.gov/cgi-bin/query/F?r111:1:./temp/
?r111IouwDd:e18913:
---------------------------------------------------------------------------
    NDAA also believes it is important to allow States to decide how to 
both address the needs of youth in the juvenile justice system, while 
also ensuring the safety of the community. It is important for States 
to have the flexibility to deal with youth offenders through a variety 
of programs, such as community-based programs, faith-based programs, 
residential facilities, and detention centers, depending on the needs 
of the youth and of the community.
    NDAA would also like to applaud the efforts made in S. 678 to 
authorize additional resources to enhance substance abuse services for 
juveniles, including evidence-based or promising prevention and 
intervention programs for youth. Due in large part to my service as 
Deputy Director of the White House Office of National Drug Control 
Policy (ONDCP), I've seen countless examples of juveniles who have lost 
their way due to the affects of substance abuse--both by themselves and 
by their immediate family. It has been reported that 80% of juveniles 
that enter into America's juvenile justice system have been connected 
to substance abuse,\2\ and it remains no secret that the lifeblood of 
gangs in America is through the sale of illegal drugs into our 
communities; significant examples of how dangerous substance abuse and 
the culture surrounding illegal drugs are towards America's 
impressionable youth.
---------------------------------------------------------------------------
    \2\ http://thomas.loc.gov/cgi-bin/query/F?r111:1:./temp/
?r111IouwDd:e18913:
---------------------------------------------------------------------------
    As an elected State and local prosecutor for almost 16 years, I had 
the opportunity to appear in juvenile court and at our Juvenile 
Detention Center on many occasions. I submit to you that the goal was, 
and is today, to do individual justice in each case. I also submit to 
you that, while one can always find an outrageous anecdote to try and 
make a point, in every jurisdiction I am aware of juveniles are not 
incarcerated or taken to detention for status offenses such as truancy 
or runaways; juveniles are not placed into general population with 
adult offenders; and the ``Overrepresentation of Minorities in the 
Juvenile Justice system'', is not a result of intentional 
discrimination. Any State and local prosecutor will tell anyone that 
will listen that:
    (a) Prosecutors take victims and offenders as they receive them;
    (b) The majority of victims of minority juvenile crime are also 
from the minority population in urban communities, and;
    (c) Many juvenile offenses occur in high crime areas, where the 
community has demanded and received intense police presence to increase 
public safety, and because of that increased presence more juvenile 
offenders are apprehended.
    This isn't to say we can't do better--and we should. In preparation 
for this hearing, I called DA's from a large city (Brooklyn, New York), 
a medium-sized city (Sacramento, California) and a small city (my 
hometown of Cedar City, Utah; population 30,000). Representatives from 
each of these cities stated, in sum and substance, that unless a 
juvenile commits a serious violent crime, a serious sex crime or has 
repeated serious criminal behavior and simply cannot be controlled, 
that it would be extremely rare for a juvenile to be incarcerated in 
detention.
    With the foregoing in mind, States must have the latitude to use 
all of the tools in the criminal justice system and prosecutors, 
defenders and judges must have to freedom to craft individual sanctions 
in order to protect the victim, the community and the juvenile 
offender. Again, I am certain there are examples of when the system did 
not work, but in the vast majority of cases the system does work and 
placing restrictions upon those that are ``on the front line and know 
their business'' is not helpful. While those of us that work in the 
criminal justice system can always do better, improvement and policy 
discussions should also take place at a state and local level.
    Chairman Miller, Ranking Member Kline, members of the Committee, I 
appreciate the opportunity to testify before you on this important 
legislation and will answer any questions that you may have.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    And thank you to all of you for your testimony.
    Judge Teske, in your recitation of the changes that have 
been made in Clayton County, Georgia, the rather dramatic drops 
in various segments of the population in the referrals, the 
detention, and sort of across the board, and if I heard your 
testimony correctly, this was really about getting people 
together in the system to look at what they were doing and 
whether it was--I guess whether it was working, what it was 
costing, and what were the results for the juveniles and for 
the system.
    And I think it was Mr. Belton's case, you also suggested 
that the same thing happened in Ramsey County, that when people 
got together and analyzed the system, you saw some dramatic 
changes in the number of detentions and upfront referrals and 
apparently some drop in the crime rate, part of what we may be 
experiencing nationally, at that same time.
    And also, apparently, finally, looking at the data to see 
what you were doing with what populations and what the results 
were, dramatic results doesn't sound like a really difficult 
thing to do, except apparently a lot of other jurisdictions 
aren't doing it, and the process just continues.
    And I would just with you might take a moment, because I 
think it goes to an issue raised by Mr. Solberg, which was, as 
jurisdictions are in tough economic times and trying to figure 
out how to parse the population here, if you are just taking an 
unnecessary incoming population, you are going to lose--you are 
going to lose your ability to manage it in the most effective 
way, both in terms of crime prevention, reducing detention, and 
maybe dealing with more serious offenders.
    Judge Teske. That is correct, Mr. Chairman. You have summed 
it up. The dramatic reductions are based upon getting the 
stakeholders together.
    And I would like to just lay a really brief foundation. If 
you think about what the juvenile justice system is, you cannot 
analyze it by looking only at the juvenile court system or 
looking at any state or county agency that is named a 
department of juvenile justice.
    When you look at what causes kids to commit delinquent 
acts, there are primarily six delinquent-producing needs. And 
if you take those six needs and link them up to those entities 
and people in the community that could address those needs, you 
find that the juvenile justice system is much bigger than what 
we call juvenile justice. And----
    Chairman Miller. Hence your discussion of the school 
referrals.
    Judge Teske. Schools is but one, and they are especially 
important, Mr. Chairman, because the first research shows that 
the best protective factor or buffer against delinquency is the 
family. The second one is being connected to the school.
    That means we have to involve social services, mental 
health, the school system. They are all the juvenile justice 
system. And we have to start thinking outside the box and 
bringing them together.
    The real question is where the rubber hits the road is, how 
do you do that? And as a juvenile judge, unlike judges in adult 
courts, juvenile judges have a legal and a moral obligation to 
not only judge on the bench, but when they step off the bench, 
to engage those community stakeholders, bring them together, 
because the juvenile court is the intersection of the juvenile 
justice system. And I have often said the juvenile judge should 
be the traffic cop to make it happen.
    Chairman Miller. Mr. Belton, you ended up--in your 
testimony, you talk about the daily population of the youth of 
color in detention. There was a reduction of some 65 percent. 
Again, did you look at the income? What was the data you used 
to reduce that number?
    Mr. Belton. Well, we used a JDAI strategy called a RAI. 
This is a risk assessment tool and objective instrument to 
determine who gets into our detention center, who gets released 
outright to their parent, and who goes to a community-based 
detention alternative.
    This risk assessment instrument was developed through a 
collaborative process of all of the justice stakeholders in 
Ramsey County, including impacted communities of color. And in 
addition, police, the county attorney's office, corrections, 
the juvenile bench, everyone was represented and everyone has a 
stake in this risk assessment instrument.
    It was a huge risk for us. And I want to also say that this 
kind of collaborative effort is relatively new in juvenile 
justice, and it is hard work, and it takes a lot of focus and a 
lot of energy, a lot of meetings for us to come up--and a lot 
of compromise for us to come up with the instrument.
    Chairman Miller. I am going to--I am going to pose a 
conclusion. I am running out of time. But this kind of upfront 
work seems to me has the ability to then allow the system to 
concentrate on young people that may, in fact, be dangerous to 
themselves or to others, that may, in fact, be a serious 
criminal matter, and I think it goes to the question of--if you 
want to comment, Mr. Solberg--on trying to use these monies 
more efficiently so that you can then focus on the kinds of 
treatments that you are discussing.
    Mr. Solberg. Yes, I think a lot of it comes down--a lot of 
it comes down to the appropriate assessment at intake, when you 
are working with the youths, to understand what those issues 
are and to understand the supports that are in place, as was 
referenced earlier, looking at the protective factors, as well 
as the risk factors that are present in that youth, and then 
looking for the appropriate level of care, and then, at the 
same time, measuring outcomes.
    I think, again, as I stated earlier, you know, to basically 
ensure that you have a system that returning youth to the 
community in a way that promotes safety and the health and the 
safety and the welfare of young people. It is making sure that 
we have agreed-upon outcomes that we can all look at and be 
able to make judgments as to whether programs are truly 
effective.
    Chairman Miller. Thank you. I will come back on the second 
round. But the point of this is that there is a lot of 
discussion going on now, certainly in the business community, 
various--scientific community about mining data, and what do 
you learn about complex organizations if you really pull the 
data apart? And how do you see what the best use is for 
whatever purposes?
    And as I look at some of the reviews of various 
jurisdictions across the country, it appears that some of them 
have rather successfully--even in this sort of first 
iteration--been able to mine that data, to pull this population 
apart, and start to make distinctions and really develop a much 
more efficient system, both in terms of the future of young 
people that are caught up in this system, but also in terms of 
the cost and then making these kinds of determinations.
    But I will stop there. Mr. Kline or you--Mr. Petri, I don't 
know. It is you. It is you. Okay, Mr. Kline?
    Mr. Kline. Well, thank you, Mr. Chairman. If I could beg 
your indulgence and ask that Dr. Roe go first, he has got to 
leave. Thank you.
    Chairman Miller. Dr. Roe?
    Mr. Roe. Thank you, Mr. Chairman.
    And thank you all for being here. And listening to this 
panel has been fascinating to me, because you see and deal 
with--and those of you who get young people into the juvenile 
justice system, to Mr. Burns, who has to decide whether to 
prosecute them, changes a life. And I will give you an example.
    One of the criminals that lived in my house egged a 
principal's house when he was in eighth grade and ended up in 
front of the juvenile judge and had to write 1,000 times, ``I 
will never throw an egg again,'' I mean, and he didn't throw an 
egg again, all the way to this weekend that we had a 16-year-
old who allegedly or apparently killed his grandparents.
    So you all see every variation of that and have to make a 
determination. And what Ms. McClard saw was a failure at both 
ends. A bad decision was made, and then a bad system made it 
worse.
    You all hold the balance of our youths' lives in their 
hands. And I think it is--I mean, that is our future. And some 
of these kids are going to turn out like, Mr. Davis, Vicky. I 
would only argue that she shouldn't have gone to Eastern 
Kentucky University. It is one of our rivals.
    But other than that, she made--that is a great story here 
about how this young person--I don't know how many obstacles 
she overcame to get where she is, but she is going to be a 
productive citizen, and you all hold in your hands in this 
system, are we doing it right? Does this person go down this 
path or do they go down this path?
    And we know what this path is. This is a path of 
incarceration, failure, death, whatever. This other path is a 
meaningful life and a productive citizen. And I don't know the 
right way to do it.
    And, Mr. Belton, I wanted to ask you, on the racial 
disparity, that concerned me because everyone should be treated 
the same. If the--whatever the problem is, it shouldn't make 
any difference what color or your religious background or 
anything else. What do you attribute that to? What did you--was 
it racism? Or was it--as Mr. Burns said, maybe police presence 
in a community. Or what do you attribute it to?
    Mr. Belton [continuing]. I keep forgetting, Chairman 
Miller.
    I attribute it to just sort of the culture that has 
developed in juvenile justice. I think during the late 1980s 
and the early 1990s, juvenile justice really hardened up, and 
we had a lot of practices that I think were much more in 
keeping or mirrored our adult system.
    And in terms of disparities, I am not here to make blame. I 
am not here to--and that is not a part of my work at all. It is 
really looking at our systems, really looking at our results, 
looking at our data, and looking how kids are treated 
differentially.
    I am not entirely sure how this happened. But I just think 
we have a culture within juvenile justice that produces these 
results and we have to do something to get a different result.
    Mr. Roe. See, I think what you all do are some of the most 
important things we do in our society, because a lot of kids 
get off rail. They get off track in their life. And you don't 
want a bad decision made by a youngster--12, 13, 14, 15 years 
old--to affect the next 50 years, which it will, because you 
are going to make some bad decisions in your life. Anybody that 
says they hadn't is lying, I can tell you that.
    And I believe that, Judge, you have as a juvenile justice--
I was a mayor of our city before I came here, a city of 60,000. 
I think the juvenile judge has the hardest job. And you as a 
prosecutor, Mr. Burns, for juveniles have the hardest job of 
all, because you are making decisions that are going to affect 
the next 60, 70 years. You put a criminal in at 70 years old, 
it is not going to affect anything very long.
    So I don't know how you fix this system and make it better 
and more amenable. I agree there needs to be less 
institutionalization certainly of the non-violent kids. There 
is no reason in the world to have them in. At home, we have a 
place called Free Will Baptist Ministries that houses, much 
like Mr. Solberg's do in Wisconsin. And it has been very 
successful.
    When you give kids--and the reason they are there, no child 
shows up at your place if that is their first option, but 
everything else has failed or they are not there. Every other 
system has failed. School has failed. Family has failed. 
Everything else has failed. So you are really a last resort. 
And that is an awesome responsibility.
    And I think maybe we should do more of that. And certainly 
for the violent offenders, that is a different situation. But 
for the non-violent ones, there is a chance to salvage these 
kids. And I don't know the right answer. I will just let you 
chime in, if you would, Mr. Solberg.
    Mr. Solberg. Well, I think, you know, the response that, 
you know, a local government or a community takes to respond 
to, you know, the appropriate care for youth is going to be 
really a level of commitment that individual organization takes 
to making changes.
    And I would agree that things like status offense and 
smaller types of things are things that really don't resolve--
or needs the kind of care that you would find in either 
detention or even a residential facility.
    There are issues. In Wisconsin, for example, we have state 
statutes that really stand in the way of having status 
offenders be referred into some type of a detention center, so 
some of it comes down to states and also funding.
    Some of the things that local governments have are the 
pressures that come along with responding to types of cares 
that would involve more expenses at the local level. So there 
are some logistical things that exist within states that stand 
in the way of some of the things that you are talking about.
    Mr. Roe. Mr. Chairman and Ranking Member, thanks for 
holding this very important meeting.
    Chairman Miller. Thank you.
    Mr. Polis?
    Mr. Polis. Thank you, Mr. Chairman.
    I would like to thank our distinguished panel, in 
particular, Ms. McClard. I know it always takes particular 
courage to share such a personal story, in your case, such a 
powerful story, and I really appreciate you sharing that with 
our committee and with our country.
    School failure is clearly a major factor that contributes 
to juvenile crime and the cycle of juvenile crime. Of the 
approximately 150,000 youth offenders incarcerated in juvenile 
facilities, about 75 percent are high-school dropouts and lack 
basic literacy skills to become gainfully employed. The median 
reading level for a 15-year-old offender is at the fourth-grade 
level. Nearly one-third, actually, 15-year-olds in juvenile 
justice are at below the fourth-grade level.
    It is estimated that from between 12 percent and 17 percent 
of youth currently confined are eligible for special ed under 
IDEA. However, I know that many kids in jails have limited or 
no access to a high school education.
    One of the few rays of light come from charter schools. I 
am the sponsor of a bill, the ALL-STAR Act, H.R. 4330, that 
would allow for successful charter schools to expand and 
replicate.
    And I want to bring the committee's attention and your 
attention to two charter schools in my district that have 
innovative programs. One is called Boulder Preparatory Academy. 
Boulder Preparatory Academy was founded by five juvenile 
justice professionals as a way to help the large percentage of 
youth entering the juvenile justice system who didn't have 
viable education plans. Many of the students had been 
suspended, expelled, or had dropped out of school.
    In 1996, Boulder Prep started serving 12 students in the 
probation conference room at the justice center. The school as 
granted a charter by Boulder Valley School District in 1997, 
greeted 25 students that year, and enrichment has increased by 
20 percent each year. It now serves over 100 students and has 
moved into a permanent facility in Boulder.
    It was created to serve primarily expelled, suspended and 
adjudicated youth. And without objection, I would like to 
submit a more detailed description of Boulder Preparatory 
Academy to the record.
    I would also like to share with the committee and the panel 
another charter school in the Boulder area called Justice High 
School. Justice High School is an even smaller school that was 
created for at-risk youth who are disconnected from traditional 
schools because of juvenile delinquency, drugs, alcohol, or 
other factors, provides the students with a structured academic 
setting, and its philosophy is that these at-risk youth can 
become successful if given an opportunity in a structured 
environment.
    And I would like to submit some additional information 
about Justice High to the record.
    [The information follows:]
    [Additional submissions of Mr. Polis follow:]

                        Boulder Prep High School
              Where Youth-At-Risk Become Youth-Of-Promise

Background
    The mission of Boulder Preparatory High School is to help youth-at-
risk transform into college bound youth-of-promise. The school was 
founded by five juvenile justice professionals when they discovered 
that 75% of the 800 youth entering the Juvenile Justice System did not 
have viable educational plans. The school started in 1997 with 12 
students in a jury room at the Boulder County Courthouse and now serves 
over 180 students annually between the ages of 14-20; 57% are youth of 
color and 52% come from low-income homes.
About The Students
    Imagine * * * an 18 year old young man who was sexually abused by 
his step-father, a 17 year old girl addicted to cocaine, three sisters 
whose father is in prison for murder, a junior in high school with 4th 
grade skills, and a 15 year old transgendered male * * *
    These are only a few of the stories that students have at Boulder 
Preparatory High School. Most schools would turn these students away or 
give up on them. At Boulder Prep we see the potential in each student 
and foster a transformation that most think is impossible.
    How do we do it:
    We are a SMALL public school serving any student looking for a 
college preparatory education in a safe environment with people who 
care. Our classes average 15 students NOT 40. Staff know each and every 
student by name. Classes are fun yet challenging, and students must 
earn a C- or better to pass the class. Rigorous academics focus on 
skill building for college. A ``Life Skills'' program prepares students 
for their social responsibilities in the world community. As schools 
become more segregated, we continue to have a balance of ethnicities 
with no group in a majority. Most importantly, 98% of the students feel 
that at least one staff member cares about him or her.
    The Results:
    <bullet> All graduates are accepted to college before receiving 
their diplomas.
    <bullet> 60% of graduates are enrolled in post-secondary programs.
    <bullet> ACT (American College Test) Scores are at or above the 
national average.
    <bullet> Students earn college credit while in high school.
    <bullet> Service learning requirement gets students to give back to 
the community.
    <bullet> Other communities want to replicate the Boulder Prep 
model.
                                 ______
                                 

                       BPHS Accountability Report
                         2008/2009 School Year

School Goals:
    1. Increase Academic Proficiency
    2. Increase Participation in School
    3. Maintain 100% college acceptance for graduates
Measurement and Reporting:
    In order to validate the Boulder Prep mission, we collect 
independent, local and national data on standardized tests as well as 
self reported data to share with our extended community and students. 
When students are aware that they are improving and are 
``statistically'' as prepared as other college bound freshman, they 
engage their education more effectively. Below you will find the 
independent data, the organizations that collect them, how we document 
our improvements and how our students compare to others.
            1. Increase Academic Proficiency
    A. WRAT 4--As part of the enrollment process students with no 
previous ACT score and/or less than 100 credits will take the WRAT 4 to 
get baseline proficiency data. If students are below 9th grade 
proficiency they enroll in Direct Instruction classes and get re-tested 
when appropriate until they reach high school proficiency for reading 
and math.
    i. Summary:
    a. Process Data: Number of students that participated in Direct 
Instruction in 08/09 = 65
    b. Process Data: Number of contact hours in 08/09 = 2667
    c. Outcome Data: Students improved on average 1 grade levels per 14 
hours of instruction.
    d. Longitudinal Data:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    e. Sample Improvements:
    <bullet> Juan improved from 4th grade math to high school algebra 
and 7th grade reading to 10th grade reading in one year with 124 hours 
of direct instruction.
    <bullet> Ivan started at 5th grade math and improved four grade 
levels after 65 hours of instruction.
    <bullet> Samantha received 40 hours of instruction and improved 3 
grade levels in math.
    B. ACT--For students performing at or above high school level 
proficiency, the ACT is used to measure academic progress. The Junior 
ACT is used as a baseline measurement and subsequent national tests are 
used to show improvements.
    i. Summary:
    a. Process Data: 55% of 2009 graduates scored at or above the 
national average on the ACT. The average ACT score for the Boulder Prep 
class of 2009 was 20.1.
    b. Outcome Data: 2009 graduates improved on average 2 points 
between their lowest and highest ACT scores.
    c. Outcome Data: Students tested as juniors in 2008 improved their 
scores on average by 0.2 points when they tested as seniors in 2009. 
State average improvements were 0.6 points.
    d. Longitudinal Data:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    *The number of seniors is based on the ACT School Profile Report. 
Not all seniors complete their graduation requirements on time, so this 
is the reason for the lower number of graduates reported in the table 
above. Boulder Prep has high standards for graduation and seniors who 
do not finish on time can continue until they complete the 
requirements, transfer to another school, take the GED, or dropout.
            2. Increase Participation in School
    A. Transcript data is used to show increased participation. The 
number of credits completed in one semester at the student's previous 
school is used as baseline data. This will be compared to the number of 
credits earned at Boulder Prep for the most recent two blocks.
    i. Summary Format:
    a. Outcome Data: 90% of students had improved grades since being at 
Boulder Prep.
    b. Outcome Data: 84% of students reported having better attendance 
since being at Boulder Prep.
            3. All graduates accepted to a post-secondary institution
    A. Copies of acceptance letters must be turned in before student 
can receive diploma
    i. Summary:
    a. Process Data: In 2009, all graduates were accepted to college.
    b. Longitudinal Data: Due to financial obstacles students take 18-
24 months to enroll in a post-secondary program.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    4. School Climate and Snapshot Data
    A. Boulder Prep is proud of the positive learning environment that 
has been created at the school. Beyond academics, the school has 
created a healthy and safe school community where students feel 
accepted and supported. The data from the student climate survey shows 
that Boulder Prep scored above the school district in nearly all areas. 
The results from the parent and staff snapshot surveys were also 
favorable. There were areas where scores went down between 2008 and 
2009. The administration and the staff have had extensive conversations 
about the decline and are actively implementing strategies to 
strengthen the overall school climate.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Boulder Preparatory High School Program Descriptions
            <bullet> Stories Program
    Each morning a staff member, student, or guest speaker shares a 
story, song, poem, or current event that addresses an important life 
skill or lesson.
            <bullet> Breakfast Program
    Fruit and breakfast snacks are provided for free to all students 
every morning. This ensures that students have adequate nourishment for 
the day.
            <bullet> Direct Instruction
    SRA Direct Instruction (intensive tutoring) is provided for 
students below grade level to help them reach grade-level proficiency 
in reading, spelling, and/or math.
            <bullet> Service Learning Program
    Students participate in a Service Learning Class where they prepare 
lunch for the whole school and volunteer at Community Food Share and 
Cultiva Gardens.
            <bullet> Arts Program
    Students have the opportunity to express their creativity through 
art history, painting, drawing, dance, or video and music production.
            <bullet> Family Outreach
    Boulder Preparatory High School hosts four community events per 
year for families and community members to meet staff members and learn 
more about the school.
            <bullet> Personalized Interventions
    Interventionists are available to help students with academic or 
personal issues that may arise.
            <bullet> Life Skills Program
    Every Friday, students spend the day learning valuable life skills. 
Sample topics include: Study Skills, Time Management, Health and 
Nutrition, Diversity Training, Gender Issues, and Current Events.
            <bullet> ACT Incentive Program
    Students participate in an ACT Prep class. They can earn 
scholarship money for every point they improve on the ACT (American 
College Test).
            <bullet> College Prep Class
    Seniors participate in a college prep class where they research 
post-secondary options, complete college applications, financial aid 
forms, and scholarships applications.
            <bullet> Concurrent Enrollment Program
    Students can take college courses through CU Denver while enrolled 
at Boulder Preparatory High School.
            <bullet> American Indian Focus Program
    Native American students can enroll in culturally relevant classes 
including Lakota Language and Culture, 500 Nations, and Native American 
Arts. American Indian youth learn more about their cultures while also 
sharing their traditions with other students in a safe and respectful 
environment.
            <bullet> Trustee Scholarship Program
    The Boulder Prep Board of Trustees and Faculty have created a 
scholarship program. Funds are raised throughout the year and 
scholarships for various achievements are awarded at graduation.
                                 ______
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                 
                                ------                                


                          Justice High School

    The mission of Justice High School is to provide year round college 
prep education for all enrolled Boulder Valley and St. Vrain Valley 
students. Justice High School's curriculum and program design is ideal 
for at risk youth who are disconnected from the traditional school 
system because of juvenile delinquency, drugs and alcohol, alienation, 
or other factors. Justice High provides its students with a structured 
academic setting with high expectations. Justice High's philosophy is 
that these `at risk' youth can become successful if given an 
opportunity and structured environment.
    The school's program provides instruction using the AP model. 
Justice High's educational program will allow students attending full 
time to finish their high school requirements within two to three 
years. Justice High School does not discriminate in its hiring 
practices or its admission of students. Justice High gives each student 
the opportunity to grow into respectful adults who will have the 
knowledge, will, and self-esteem to succeed in college and life.
    Justice High School prepares its students for college and the 
professional environment by requiring students to read, comprehend, and 
write effectively. Students are taught how to do presentations, and do 
college level math and science. Justice High uses the college prep 
FIRAC method. Students analyze the key facts, issues, rules, and 
formulate conclusions of the material. All of these skills are 
necessary for success in College and the business world.
    All Justice High students must be accepted into three colleges 
prior to graduation, take and pass two college level courses and pass 
their ACT scores with an 18 or above. Justice High provides all 
students the opportunity to pursue professional opportunities through 
its Real Estate, Hospitality, and Dental Assistants programs. Students 
can also seek certificates in a variety of other fields like 
cosmetology, auto mechanics and construction. Justice High also 
requires its students to do community service work and participate in 
extracurricular activities to learn teamwork and collegiality.
    Justice High supports its students' postsecondary aspirations 
through seven in-house scholarships and post-graduate tutoring 
services. Justice High also has a college program where students can 
take college classes for significantly reduced tuition.
    Justice High promotes academic excellence by setting the academic 
bar high for its students. Students are taught everyday that academics 
are the key to their futures and that to graduate from Justice High 
they will have to master the five skills that are necessary to be 
successful in the business and college worlds. Students are taught to 
think creatively and to incorporate a sense of community into their 
education. At-risk students need to have negative labels taken off and 
positive ones put into place. Justice High does this by requiring its 
students to take rigorous classes and pass two college-level courses.
                                 ______
                                 
    [The Justice High video may be accessed at the following 
Internet address:]

               http://www.youtube.com/watch?v=gQLgZ981D3E

                                ------                                

    Mr. Polis. So clearly, if we have these kinds of 
opportunities, we can help kids get back on track. Minors need 
access to quality academic and educational programs, and 
frequently, those represent the last opportunity to prepare 
them for successful transition into society.
    So my question is for Mr. Davis--and then we will open it 
up to anybody else who cares to address it--as someone who has 
worked nationally with successful initiatives like GEAR UP and 
TRIO--and I had the chance to visit TRIO at the University of 
Colorado just 2 days ago--I would like you to discuss the 
availability and quality of effective educational services for 
kids, such as charter schools, district programs, community 
college outreach programs, TRIO, GEAR UP, and offer us any 
recommendations on improving federal law and support in this 
critical area.
    Mr. Davis. Mr. Chairman, Mr. Polis, first, I would like to 
say that education in the Kentucky Department of Juvenile 
Justice is one of our primary objectives. We have a unique 
situation where, in each residential county that we have a 
facility--residential, group home, or detention--the schools 
provide us educators in our facilities to directly work with 
young people.
    And so we have cases every day of young people who make up 
a year or 2 years of education from the time that they are with 
us, so that when they do return to the community, they are 
actually prepared to re-enter and be successful.
    As an educator, as a person who works with education 
programs, and as a person who was failed by education as a 
young person, I know how important it is for education to be a 
piece of the success puzzle for these young people. In fact, 
GEAR UP and TRIO programs are a strong model.
    My staff--education staff at our central offices--has 
actually started a process of working and negotiating with the 
GEAR UP program in our state to see if we can provide services, 
because I know that crucial link is there.
    Any educational opportunity we can provide for these young 
people, a chance to be successful without the possibility of 
failure, which I think really does happen, if we are paying 
attention. Unfortunately, I have heard horror stories of places 
and I have experienced places where, once a young person has 
made a mistake, they are eliminated from any possibility of 
success, and that is a real challenge, because all the data 
that you have mentioned, all of the statistics state that a 
young person--most young people that find themselves into the 
system have been failed by education.
    If we don't find a way to reclaim them to provide them some 
educational strength, they cannot possibility survive any way 
other than they have been surviving up to that point. And so 
any educational resources we can provide, any opportunity to 
create more direct and, I think, intentional--because a lot of 
what we have done with education has been ancillary, 
accidental, because agencies have decided this is necessary, 
but I think there needs to be clear focus and intention on 
providing strong education for the young people that we meet.
    Very often, we find teachers who have been censured or 
served questionably in their own schools, the ones that 
superintendents and communities like to offer up to us in 
juvenile justice or in alternative settings. And one of the 
things that we push back very hard on, particularly in 
Kentucky, is that we won't accept your cast-offs. We want the 
kind of teachers that make results just like you do, and we 
think that our results are necessary, because it keeps the 
entire community safe and it moves the whole community forward.
    And so we absolutely believe that education is key to 
successful transition back into the community for these young 
people.
    Mr. Polis. Thank you. Yield back.
    Chairman Miller. Thank you.
    Mr. Kline?
    Mr. Kline. Thank you. Thank you, Mr. Chairman.
    I would like to thank the witnesses.
    And, Mr. Chairman, I must say, this is an outstanding panel 
of witnesses that we have today, really, really experts.
    Chairman Miller. Thank you.
    Mr. Kline. We very much appreciate your time here today, 
your testimony, and your frank answers to our questions. As you 
probably notice, you have members coming and going. It is just 
a horrible way that we do business in Congress. There are a 
piece of legislation that are being voted on even as we speak 
in other committees, and it is just part of the turmoil that we 
live in. And, again, we are grateful for your patience with 
that.
    I am delighted to have somebody from Minnesota here. Any 
time we get a Minnesotan, I am excited, but I mean--because 
every once in a while, I need that to kind of dispel the idea 
out there that we all live in igloos and there is really only 
three or four of us or something like that, so nice to have you 
here, Mr. Belton.
    In fact, let me start with you, if I might. You expressed 
concern--I believe you said little progress can be made if 
Congress doesn't strengthen the DMC core requirements. And yet 
you made great progress without that strengthening. Why do you 
think that other places can't do what you have done? I know 
they are not all Minnesotans, but why do you think that we need 
this federal legislation in order to get other people to 
exercise the same sort of initiative that you and the system in 
Minnesota has taken?
    Mr. Belton. Chairman Miller, Ranking Member Kline, because 
they are not all above average like we are. [Laughter.]
    Mr. Kline. There is a Lake Wobegon.
    Mr. Belton. On the serious side, I am not contending that 
others can't. But what we have found locally is that the 
ability to do this work really hinges upon leadership, okay, 
very intentional, dedicated leadership, and putting in the 
right tools.
    We happen to be fortunate to have had the opportunity to 
become a JDAI jurisdiction about 5 years ago. And JDAI handed 
us the tools and the language and the framework to begin this 
work. And we became a JDAI county because we were concerned 
about Minnesota's--and in Ramsey County, because we were a 
major contributor--Minnesota's horrible, shameful 
disproportionality.
    We intentionally--our leadership intentionally--and this is 
leadership at all levels, you know, talking about leadership on 
the county level, leadership at the state level, the judicial 
leadership, corrections, our community people, step forward and 
said, ``We have to do something different.''
    Mr. Kline. I guess my--if I could interrupt for just a 
second----
    Mr. Belton. Sure. I am sorry.
    Mr. Kline [continuing]. I guess my point is that you were 
allowed the flexibility to take the actions that you took, and 
it was a question--as the point you are making is, it was 
leadership that did it. It wasn't a matter of statute.
    Mr. Belton. Right.
    Mr. Kline. And so I am not--I am just--what I want to be 
careful of is, when we pass laws here, we need to make sure 
that we are not restricting, you know, Ramsey County or any 
other county's ability to adapt and exercise that leadership to 
get the job done.
    Mr. Belton. Right, I understand. I am sorry. I got a little 
far afield here.
    I think by just strengthening the JJDPA, that that does not 
restrict anyone, but it allows some frameworks for 
jurisdictions that are not JDAI jurisdictions, that don't know 
where to start, that don't have an idea as to how to crack this 
seemingly uncrackable nut, how to begin and do this work.
    This is offering guidelines and tools for these 
jurisdictions that don't have these guidelines and tools.
    Mr. Kline. Okay, thank you. My time is going to expire 
here, and I had a whole bunch of questions for a whole bunch of 
people.
    Mr. Solberg, I am fascinated by the Rawhide ranch. And you 
indicated that this was built around a family environment, 
which we know is broken down in many, many places, and many, 
many of the folks who have entered the system simply don't have 
that family environment.
    Can you just kind of talk--you have sort of created one 
there. Can you talk about what those day-to-day experiences 
might be within this family unit?
    Mr. Solberg. Sure. Thank you, Ranking Member Kline.
    We have seven boys homes. And of those seven, five have 
family live-in model, in which a house parent couple lives in 
the home and provides--really, by providing a role model for 
the youth and role-playing exactly what it means to be a 
husband, what it means to be a father, what it means to be a 
man. We have learned that young men observe--they learn a lot 
by what they observe.
    And so as they see this model before them, it is an active 
example for them to understand the act of what it means to be a 
father. Many of our youth will say to some of our house 
fathers, ``Is this what it means to be a father?'' Because they 
have grown up most of their life without any father role model 
example.
    And so this is a declining trend. I mean, we are really 
among the few that remain in the nation that continue to stay 
with the family live-in model. It is a difficult model to 
continue to sustain because of demands on a marriage, on a 
couple, to--and they both have to be equally qualified to do 
this type of work.
    And so many have moved away from a family model to more 
staff or shift type of work, but that really breaks down, you 
know, I think the effectiveness of any program, as you are 
working with young men who are trying to build trust with the 
staff and understand that they are safe and that they are cared 
for. Those are really the motives behind this type of model, 
because it opens up the opportunity to really have them 
disclose some of the issues that have gone in their past.
    As we are able to develop more trust with the young men, 
they are able to open up and share about things in their past 
and really about the trauma that, in many cases, lies at the 
very foundation of their behaviors. And as we are able to 
understand what that hurt is and be able to expose that and be 
able to treat that in relative therapeutic environments, those 
young men, you know, really are set free in a lot of ways from 
future behaviors.
    Mr. Kline. Thank you.
    I yield back, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman.
    Judge Teske, you indicated the importance of looking at six 
underlying factors. Can you talk about that for a minute?
    Judge Teske. Yes, sir. Based upon about 40 years of 
research, beginning in the late 1970s, it has been determined 
that it is--the social scientific name is criminogenic needs, 
but the risk factors include cognition, attitudes, values and 
beliefs, your peers--you know, are they anti-social friends--
weak problem-solving skills, school connectedness, education, 
substance abuse, and family function.
    And the importance of those, Mr. Scott, is that when we 
develop--when we assess kids, we are trying to look to see how 
many of those delinquent-producing needs they possess. And 
there are assessment tools to help to determine that.
    And then the next step is to design a treatment plan around 
only those delinquent-producing needs they possess. And usually 
the high-risk offenders--the high-risk offenders will always 
have two or more, possess two or more.
    And then lastly, Mr. Scott, you have to make sure the 
program is based on what Mr. Solberg was saying, and that is 
that it is evidence-based, that we do know that they work, such 
as multi-systemic therapy, family functional therapy, cognitive 
restructuring programming. And then other things incidental to 
that could help out and build a family, such as wraparound 
services.
    Mr. Scott. Well, Mr. Solberg mentioned the importance of 
being evidence-based. Are there enough programs out there that 
are evidence-based as opposed to slogan-or poll-tested based to 
work with, so that we could focus our money on only those 
things that actually work, on enough things that work?
    Judge Teske. Well, yes, sir. I mean, fact--I am just going 
to be blunt about it. Just Google it. Just Google what works, 
community corrections, okay? Let me go ahead and steer you to 
Dr. Ed Latessa at the University of Cincinnati who is one of 
the leading researchers, among others, in the world on this 
topic.
    And you will--you will have all the evidence-based on what 
works--you know what? They will even tell you via Google what 
doesn't work, okay?
    And I hate to put it that way, but what bothers me, Mr. 
Scott--and I have to say, I spent 10 years as a parole officer 
in the streets of Atlanta, and I was deputy director of the 
state board of parole in charge of programming, it is out 
there, and it bothers me why so many juvenile justice 
practitioners aren't researching it.
    Mr. Scott. Well, part of it--I think you can--you are 
looking at us as the problem, and in similar legislation I have 
introduced, we have put evidence-based in the bill, which is I 
think somewhat insulting that you would have to put that, you 
know, as opposed to, what else would you spend your money on? 
But for the reasons you have outlined, I guess we need to put 
it in there, that your money ought to be placed in evidence-
based initiatives.
    Is there any way that you can have a successful program, 
Judge, without it being comprehensive?
    Judge Teske. The answer is, no, it has to be comprehensive. 
In fact, Mr. Scott, when you look at, what are the 
characteristics of effective programs, you will find that they 
have to be long in duration, at least--some say 6 months, but 
the real good studies show at least 8 months and longer. You 
have to take up 70 percent of the youth's time with pro-social, 
you know, activities, after-school programming.
    With that--and I can keep going with the list, but you can 
see, members, that that is comprehensive and that is where 
collaboration comes in, because it takes all the entities, 
including citizens and advocates in the community, coming 
together to tie all of these things to bring these 
comprehensive activities, to tie up kids' time in a pro-social 
way.
    And lastly, Mr. Scott, may I say, to deference to Mr. 
Solberg, that even as a judge, when I do have that smaller 
targeted population that do present a higher risk to the 
community and they have to be treated outside the community--
and may I say, that is a smaller population, okay--I do prefer 
programs that are residential as opposed to secure confinement 
for the reasons that have been stated here.
    Mr. Scott. Well, you have indicated what happens after the 
juvenile gets in trouble. What kind of approaches should be 
designed so they don't get in trouble in the first place?
    Judge Teske. Mr. Scott, there needs to be what I call a 
single point of entry in communities. In Clayton County, we 
have what is called a CCCCST, the Clayton County Child 
Collaborative Study Team. It is a multidisciplinary panel that 
meets every week.
    All systems--primarily the school system--refers kids to 
this multidisciplinary panel that has a psychologist, a mental 
health worker, the director of the Department of Family and 
Children Services, the kids counselor, social worker. It is 
moderated by a staff member from my court.
    And what they do is they assess the child who is at-risk, 
who are doing things--let's say what I call the chronically 
disruptive Johnny, okay? Well, rather than suspending the kid 
from school--I mean, gee, who would ever think that keeping 
kids in school would actually increase the rate of graduation?
    Well, maybe we need to come up with better alternatives by 
bringing the community together, the people who are already 
there. The real problem is--and not to blame these--people 
operate in individual silos. You can't blame DFCS--in Georgia, 
we call DFCS social services, the school system--they have got 
their own mandated budgets and rules and regulations. God help 
them, okay? Help them see outside the box. Somebody has to do 
it. And they need to be incentivized to do it.
    How can they--how can they be incentivized? Gee, 
reauthorization. Include something in there. Help us out.
    And to what Mr. Kline--great question, Mr. Kline. It is 
about leadership. But sometimes you have to look at each state. 
They are different, different government structures that 
operate differently, and sometimes you get rural versus urban, 
and people get stuck, and they just need a little help. That is 
all. They just need a little help.
    There are great professionals out there. I have a lot of 
fantastic colleagues on the judicial bench, but we have 
different philosophies sometimes, but they are great people. We 
all need a little help.
    Chairman Miller. Mr. Guthrie?
    Mr. Guthrie. Thank you.
    First, Ms. McClard, thank you so much for coming today. I 
know it is difficult. And I have seen or been around people 
that lost a child or a loved one that was able to relate that 
into some public policy changes, and that is a great memorial 
that you can do, and I appreciate you coming today.
    And, Mr. Davis, I used to see you in the State Capitol 
Annex walking around when I was in the state senate, and it is 
great to see you again here in our capital city. Glad to have 
you here.
    And I was--I got there at, well, 1998, but 2000 was my 
first session, and, really, a lot of the work had been done. I 
think Governor Patton was a great leader in what you did with 
regional centers and so forth. Could you just kind of elaborate 
as Kentucky as a state?
    And I would point out, I know that we have the same issues 
that we have to address with the minority population, but it is 
also common across the country, too. It is not a Kentucky 
phenomenon, as we point--I just wanted to point that out, what 
we have heard here today. It needs to be addressed. You have 
got to figure that out.
    But just kind of talk about the process--Pam Thomas--Pam 
Lester-Thomas, I think now is her name--went through the 
process of kind of the Kentucky story. I will give you a few 
more minutes to tell. I know you were trying to get through 
your presentation, so----
    Mr. Davis. Okay.
    Mr. Guthrie [continuing]. After the yellow light comes on--
about 4 minutes.
    Mr. Davis. Kentucky has gone through a number of 
transformations. In 1996, we did not have a Department of 
Juvenile Justice. And Child and Family Services took care of 
most of our youth problems.
    We came on a consent decree in 1996 and were forced to 
change everything about what we did. One of the things we were 
found to be lacking is clearly jail removal, removing young 
people from adult jails. And with an incentive for every local 
and county jail to receive dollars for housing young people, it 
really didn't make sense for them to send them home, no matter 
what the problem was, and mental health services and those 
types of things were clearly not happening.
    After the consent decree came down, the Department of 
Juvenile Justice was established by House Bill 117, I believe. 
And it created the Department of Juvenile Justice, in that it 
created an emphasis for us to build 9--well, at the time, 10 
detention facilities, ensuring that no child in Kentucky was 
more than 1 hour away from a facility in any county, making 
sure that we had local services that were close enough to 
family, that were close enough to communities that we could 
actually start to create solutions.
    Also, we began to look at the core requirements, DMC being 
a big piece of it. As the Juvenile Justice Advisory Board was 
re-established in the late 1990s, we began a process of really 
strengthening DMC, jail removal, in particular looking at 
status offense issues, DSO. And we have done a lot of work with 
the legislature, with the help of folks who believe, whether 
they have different ideology of how we go about it, knowing 
that there is a need for young people to be successful. The 
Department of Juvenile Justice has been supportive across the 
board in making some significant transformations.
    Currently, we are excited because, after getting back into 
compliance with the core requirements, we decided to move 
further. And our DACs is just one example of that.
    We are very excited about the fact that, you know, even 
today, when we talk about jail removal--and especially looking 
at violent offenders or high-level offenders, young people who 
are high-level offenders charged as adults in adult jail--in 
adult court, in Kentucky, those young people don't go to adult 
facilities. Every child who was charged as an adult comes into 
our facilities. And until they are 18, we make sure their needs 
are met. And, in fact, many of the judges use that 18-year-old 
date as a tipping point.
    If we can go to those judges after 2 or 3 years and show 
that that young person has begun treatment, started a process 
of transformation, they understand their challenges and how to 
overcome those challenges, we have had judges who have actually 
commuted those adult sentences and said, ``You are ready to 
go,'' and we are very proud of that fact, that we don't find 
young people who are too dangerous to be treated like children, 
and we don't believe that any of them are absolutely 
disposable.
    And that has just been our philosophy, and I think we 
should be very proud as a state to have held that as our 
philosophy and to be successful with it.
    And we also--well, I think those are the highlights. I am 
very excited about those and kind of get going sometimes. But I 
think it is very important for people to understand, the 
conversation always comes around about not having enough money 
to do the work.
    The Kentucky Department of Juvenile Justice has been cut 
almost 15 percent in the last 2 years to our operating budget, 
and we have not lost one step in our services, because the 
first thing that came was our commitment to do the job well and 
then finding a way to make that commitment stick.
    And any jurisdiction that decides that their work is to 
create better outcomes for young people on the other side of 
their commitment to the system can do this. And I think that if 
we do, as we do it, it creates more impetus for our state 
legislature, our federal legislators to say, yes, we have got 
to support this kind of thing, because there is our initiative 
to make the problem go away, and then there is the possibility 
of getting support for that initiative.
    I know the Chinese proverb says the best time to plant a 
tree is 20 years ago, and the second best time is right now. We 
can't do anything about the past. It is an immutable 
characteristic that can't be changed. But we can absolutely do 
something about what happens tomorrow, and we intend to do 
that.
    Mr. Guthrie. Well, appreciate it. It is great to have a 
Kentuckian here talking about our success stories in this 
environment. I know that there are still a lot of difficult 
things we have to do, but success stories--I appreciate it. My 
time is up, and I yield.
    Chairman Miller. Thank you.
    Ms. Fudge?
    Ms. Fudge. Thank you, Mr. Chairman.
    And I thank all of you for your testimony today.
    Mr. Davis, I certainly wish Ohio was like Kentucky in that 
we did not incarcerate young people in adult prisons. But, 
unfortunately, we are not.
    I served 10 years in the county prosecutor's office in my 
county in Cleveland, Ohio, as well as mayor of a city for 10 
years. I understand some of the problems that exist in the 
juvenile system, but just help me understand how we might take 
this one step further.
    What I found, particularly as mayor, when a young person 
was arrested, there really was no space for them in the 
juvenile justice system, because I live in a county where we 
bring back approximately 6,000 adult felons annually.
    So what happens is, they spend all the money on the adult 
prisons, and they short-change the juvenile. So there was no 
place to hold them. So what do they do? They try to find some 
juvenile facility, but normally they can't, so they would bring 
them to my jail, which I could only hold them for 24 hours, and 
then what happens to them? They take them to an adult facility.
    So I think part of the problem is that we don't put enough 
resources into having juvenile facilities that are appropriate. 
That is why I think that that is a big problem. And I don't 
know how this legislation would help that, but if you would 
just think about that for me, I would appreciate it.
    I think the other thing that happens is that we do spend 
too little time trying to connect the dots as it relates to 
family, to social services, to education. I mean, something as 
simple as a midnight basketball program, which my police 
department started years ago, during that time, juvenile crime 
went down 95 percent, 95 percent. Every day that we had it, 95 
percent.
    So I think that at some point we do have to connect all the 
dots. I think that that is the big issue. But if you could just 
talk with me just for a minute, any of you who would like to 
talk about this, how does this kind of legislation change the 
fact that we really do--as far as funding--short-change 
juvenile facilities? And there really is no place to put these 
young people other than in adult holding facilities.
    Anyone? That is the--see, that deals in the real world, 
because that is the world I live in.
    Mr. Burns. Well, Congresswoman Davis, as a fellow 
prosecutor, I think--I couldn't agree with you more. And I 
don't think America's prosecutors could agree with you more.
    The best thing we can do is to have the ability to send a 
young person to one of these great programs that we have heard 
about today. That is dessert. I mean, that is just wonderful, 
if there is an opening and we can refer and watch this young 
person develop.
    But the reality of it, the rubber hits the road, the front 
lines, the everyday prosecutors, women and men making these 
decisions about what do we do in a moment's notice, is we have 
limited options. And you have, I believe, hit the nail on the 
head. There are not enough detention facilities to hold young 
people until we can assess, do we have to get her off meth? Do 
we have to get him medication?
    Are mom and dad going to be able to sleep tonight because 
he has been on the road for 5 or 6 days and then turn around 
and have the prosecutor accused of locking up and putting in 
detention a young person, when clearly the motive is and always 
is the best interests of the child?
    Ms. Fudge. Yes, Judge?
    Judge Teske. Ms. Fudge, if I may play devil's advocate, the 
question assumes, though, that the kids that are brought in 
need to go initially into detention, okay? And if I may for 
just----
    Ms. Fudge. I don't assume that, but that is what happens.
    Judge Teske. I understand that. And I want to challenge 
that thinking that I believe is nationwide.
    For example, when I took the bench in 1999, there were over 
100 kids in my facility, okay? They were sleeping on 
mattresses.
    Ms. Fudge. Yes.
    Judge Teske. Today, the daily average population is 12.4 in 
a 60-bed facility. Our juvenile crime rate has gone down. Now, 
it hasn't gone down just because we have reduced the tension 
alone. That is a ridiculous statement to make. It is because, 
going to the question that Mr. Scott presented, it had to do 
with--well, I mentioned cognitive restructuring as an effective 
program for kids and even for adult offenders.
    It is also good for just adults like us. We need to be 
cognitively restructured, okay? And we need to ask the tough 
question, okay? Why is it that we--I mean, let's really take a 
look at how many kids are really high-risk versus low-risk----
    Ms. Fudge. Judge, my time is running out.
    Judge Teske. Okay.
    Ms. Fudge. Can I just do this one last thing? That goes 
back to, as a prosecutor, how many times I saw young people 
overcharged for minor crimes. It is a huge problem in our 
system that young people are overcharged so that they have got 
so many charges against them, you look at it, a judge looks at 
it, says, ``Oh, they need to go into some kind of facility.''
    And I see my time is up. Thank you, Mr. Chairman.
    Chairman Miller. Mrs. McCarthy?
    Mrs. McCarthy. Thank you, Mr. Chairman.
    And I thank the panel. It has been a fascinating 
conversation, listening to everyone.
    In New York state, we are allowed to charge children at 16. 
And the one complaint I hear constantly from my correction 
guards is that half of them should not be where they are. Most 
of them should be getting mental health. Most of them should be 
getting--most of them have learning disabilities or some other 
issue that could be worked on outside of being in the prison.
    But as Ms. Fudge just said, you know, we are facing the 
real world here. And the truth of the matter is, we went 
through a time in this country that those of us that thought 
giving services to young teenagers before they would end up 
getting in the jail--you mentioned after midnight basketball, I 
remember that debate, watching it. I wasn't here. But I 
remember that debate on the Senate side saying what a waste of 
taxpayers' monies that we are giving money to underserved areas 
so the kids could play basketball.
    That area that they were talking about--because I used to 
go down to watch the basketball games--they didn't have the 
problems that they have today. Our problem is that we need to 
do more in our schools.
    Now, I know that is going to be a separate subject, but as 
we go through reauthorization of leave no child behind, we 
should be looking at those kids that need the services that--so 
they don't end up on your doorstep.
    I wish we could do more, but financially we can't. The 
states are hurting right now. But going back to why I believe 
it should be on a federal level, because each state is 
different, and we need to look at, yes, the flexibility of the 
state, but I think we also need to look at putting a 16-year-
old or a 14-year-old with all the information we have, that 
young adults at 25 are still not considered mature, and we are 
dealing with 14-, 15-, and 16-year-old kids?
    So it is frustrating for us, too, because we know we have 
the answers. We don't have the willpower to put those answers 
into motion or we don't have the money. And I think that is the 
real problem. So I hope that we can come to some solutions.
    But, basically, looking at that--and I also know that we 
have alternative schools. Most of the kids that are put into 
the alternative schools, if they are acting up in school, they 
don't want to go back to their regular school. Why? Because 
they are getting the special services. They are getting 
everything that they need, and so it is the whole community.
    So if we are going to spend our money, I would rather spend 
it pre-than having it even come in front of any of you, but we 
have got to deal with both, because obviously that is the 
world, real world we live in.
    So the question I will ask you is, especially in Kentucky, 
there are systems in place for people outside the DJJ to 
monitor the conditions of the facilities. And I was just 
wondering, how are they doing? And do you think they help the 
agency protect the kids and serve them--or can they serve them 
better?
    Mr. Davis. Well, I think we are doing well, ma'am. We have 
two structures in place to ensure that our work stays above 
board.
    First, there is an internal structure. Young people in a 
facility, family members of a young person, attorneys can file 
a grievance, can file a concern, and we have an internal 
ombudsman who addresses that concern if the facility cannot 
address it to make sure that the needs are being met.
    If it is an egregious challenge or major corrective action 
needs to be taken, they have a red--not a bat phone, but they 
have an emergency line that goes directly to the Office of 
Investigations for our cabinet, the secretary's office, and 
those investigators immediately start action, go to the 
facility, and they determine what is going on. We stay out of 
it.
    Our second part is for the Department of Public Advocacy in 
their post-adjudication branch. They are the watchdogs that 
make sure we are doing our work. And for a long time, that was 
a very contentious relationship, because we were out of 
compliance, and there were lots of challenges. Our relationship 
in the last few years has become very great, because we have 
actually allowed them to sit in on our policy review of the way 
we do our work so that at the front end they can actually tell 
us where the flags are and what we need to be doing better so 
they can monitor us better and we can ensure there is not a 
need for them to monitor us as much.
    And so the checks and balances are there for us to make 
sure that we don't have egregious mistakes, that we don't--that 
there is anything that falls through the cracks that we are not 
aware of and that we can't address immediately and 
successfully.
    Mrs. McCarthy. I guess, Judge and Mr. Burns, I think one of 
the things I also hear from judges from the district attorneys, 
they don't have enough flexibility, because we have put in 
place mandatory sentencing for some cases or even, you know, 
kids that could be helped that can't, you know, get those 
services.
    What do you think that we need to do in this particular 
legislation on reauthorization?
    Mr. Burns. Well, as a representative of state and local 
prosecutors and the women and men that do 95 percent of all 
criminal cases in this country, and acknowledging the fact, as 
has been stated, Georgia isn't the same as Colorado, isn't the 
same as New Hampshire, and you have different judges, you have 
different prosecutors.
    And you are exactly right. you have different statutory 
schemes, where legislators on a state level have decided over 
the years, you didn't get it right, this is the way you are 
going to do it, and then they tweak it some more. This is the 
way you are going to do it.
    And in some jurisdictions, you simply end up digging the 
ditch, because everybody has told you, ``Check these boxes,'' 
and that is how we resolve these cases. So I would ask that the 
more flexibility to the individual states is the best.
    Judge Teske. Mrs. McCarthy, I want to echo what Mr. Burns 
stated, but I want to be specific in two areas. The pre-
disposition or pre-adjudication versus post-disposition, in the 
way of, you know--I think that judges should have more 
discretion regarding who should go into a detention initially, 
but I have to say, though, that judges need help.
    You know, I may wear a robe, but I like to think I don't 
suffer from robe-itis and that I am God-like and that I know 
everything. But people expect me to wear the educator's hat, 
the social services hat, the mental health hat, and I am not 
any of those. And, in fact, if I think I am, I am going to do 
more damage.
    I need--I think we need to promote----
    Chairman Miller. You can finish the sentence.
    Judge Teske. Thank you.
    Mrs. McCarthy. Thank you.
    Judge Teske. We need to promote objective assessments to 
help judges in assessing risk.
    Chairman Miller. Thank you.
    Ms. Shea-Porter?
    Ms. Shea-Porter. Thank you very much.
    And thank you all for being here. This is actually very 
painful to listen to, but there is some hope sprinkled in the 
middle of all this.
    The first, Ms. McClard, I wanted to say that your son's 
spirit is here, and you certainly honor him by showing the 
courage to be here. And I hope you don't mind if I ask you a 
few questions.
    I am a social worker, and I was concerned about, obviously, 
what happened to him, but it seemed like the lack of voices 
that would be advocates through that process, that it didn't 
seem to be anybody, a social worker in the prison or somebody, 
who would say, ``Wait a minute. This is a kid, and we need to 
figure out what to do.''
    So could you start by telling me, first of all--I assume he 
probably was having a rough adolescence, okay? And was anybody 
helping at that point? And did he have any advocates leading up 
to this?
    And then, what happened through that terrible process? I 
mean, most people hearing that story would say, ``Let's take 
him out and have a look at this.'' And so can you tell me where 
you think the whole system broke down?
    Ms. McClard. Honestly, I think just about every adult in 
Jonathan's life failed, if you want the honest truth. This 
happened in the summer of 2007. He had started dating this girl 
back the previous October. She came from a very rough family. I 
was not comfortable with him dating this girl.
    And like any parent, I kind of--he was 16. She lived a 
block away from the high school, so, you know, instead of 
saying, ``No, you cannot see her,'' you know, I said, ``Well, 
you can, but she needs to come to our house.'' And, you know, 
the more she came to our house, the more we got attached to 
her, because she was 14 years old, and she came from a very 
rough family.
    And so we took her to church with us. And Jonathan was a 
very good student in school, and this girl struggled, because 
of her family life, so Jonathan would help her through school. 
And honestly, that whole year went very well with him doing 
that with her.
    I was formerly in the Army, and I resigned because of this. 
But the summer that this happened, I had been gone training in 
South Carolina. And right within 2 weeks after I left for 
training, this girl broke up with him and started dating this 
other boy that I mentioned.
    And pretty much the two of them messed with Jonathan's head 
the whole summer, not--and I am not blaming anybody. They were 
all three adolescents. They all three got involved in drugs 
that summer. They were all doing stupid stuff, all three of 
them. So I am not placing any blame except on Jonathan, because 
Jonathan is the one that did this. But my absence certainly 
contributed to it, which was not good.
    Ms. Shea-Porter. But rather than have you try to, you know, 
claim the blame or anything like that--because that is a very 
typical tale--what I am wondering is, were there social 
workers, were there people in the school system who could see 
changes in your son? Was there anybody who looked and said, you 
know, this child is headed down the wrong road right now?
    Because the idea, obviously, is to keep these kids from 
winding up in the system. And my concern is--and I appreciate 
what the judge said--that they need help. You can't be 
everything by the time--you know, if you are a judge, you are 
not expected, and yet you have to have all those other skills 
to work with these kids and their families.
    So where do you think the point could have been best 
touched to help him before this? This is a horrific story. I 
just can't imagine that many adults looking at this, seeing him 
beaten, seeing the signs, and nobody saying, ``We have got to 
pull this one out and have a look.''
    Ms. McClard. When he was 14 years old, he was found with 
pot at school. He did go through the necessary drug court, but 
it was sadly lacking in services.
    He would go once a week and have a drug test that he always 
passed, but, you know, after he passed a few drug tests, they 
would say, ``Okay, you are fine. You can go home.'' And at the 
time, he was struggling with depression, and he had a different 
girlfriend at the time, and he was just one that, when he had a 
girlfriend, he just went head over heels and he would do 
anything he thought to protect her. He always thought he was 
the big protector.
    But besides that short time in the drug court, and then 
they released him because he was--you know, tested negative, 
they let him go. They didn't see anything during the school 
year.
    Ms. Shea-Porter. So my question is, in the middle of all 
this, could and should there have been more services to stay 
working alongside of your son? Were there enough flags there, 
enough warning flags----
    Ms. McClard. There were plenty of flags----
    Ms. Shea-Porter [continuing]. Okay, that if there had been 
resources----
    Ms. McClard. There should have been--there should have 
been. He should have been seeing a counselor. Instead of just 
going to the drug court to check in every week, you know, for 
the 5-minute pee test, he should have been seeing counselors.
    Ms. Shea-Porter. Right, okay, so he was kind of left at the 
curb and said, ``Just make sure that you don't do drugs 
again.''
    Ms. McClard. Right.
    Ms. Shea-Porter. Okay, I think that is one of the biggest 
problems that we have, that we don't catch up to these kids 
until after, until everything has fallen apart, and then all of 
a sudden we are there like a ton of bricks on them. And if we 
invested earlier and we helped them and helped their families--
I mean, you cannot--you cannot be responsible for everything. 
Once they have walked out of the door, you know, we all know 
that, that things are out there in the world.
    So it seems to me that the great tragedy is there was no 
place for him to turn or for you to turn earlier. That would be 
not just a moment or a test, but an actual safety net to help 
walk them through a few years of difficult adolescence.
    Okay, thank you. I yield back.
    Ms. McClard. Thank you.
    Chairman Miller. Mr. Kildee?
    Mr. Kildee. Thank you, Mr. Chairman.
    About 20, 25 years ago, I was chairman of the committee 
that had jurisdiction over Juvenile Justice and Delinquency 
Prevention Act and saw all the problems. And 20, 25 years have 
passed. I used to work with a Judge Lincoln in Michigan who was 
one of the pioneers in this.
    I will ask you, Judge Teske and Mr. Solberg and any of you, 
kind of going back over that span of years, how would you judge 
the progress or lack thereof that we have made in those 20 to 
25 years? You were all pretty young then, but if you could 
share that with us.
    Judge Teske. Well, if I may, Mr. Kildee--I will just be 
real brief--there has been progress, okay? You know, I would 
say that, at this point, we can make more progress. And while 
we--I am here to ask for reauthorization, because there has 
been progress.
    The question is, now that we are here asking about 
reauthorization, what more needs to be done to improve the 
existing systems where we have already made some progress? We 
need to keep going, especially since, 20 years ago, we have 
even more research that shows what works. Let's hone in on 
that.
    Mr. Solberg. Congressman, I would say that there has been a 
lot of progress. And even though my testimony doesn't really 
come out and say we have made a lot of progress, I think the 
point of the testimony is to say, 30 years ago, there really 
wasn't the infrastructure in communities to provide related 
programs and community-based services to youth who are 
offenders or at risk.
    And today, that is a different landscape. I mean, in our 
urban settings in Wisconsin, there are significant programs 
that have been established to respond. And as a result, as I 
shared in my testimony, we are seeing shorter lengths of stay, 
which is a good thing. Having kids in a program for three years 
historically, going back 15, 20 years ago, was not necessarily 
the best type of treatment for a young person. Today, as a 
result, our programs have changed to really bring about 
significant change in shorter lengths of stay and then provide 
community supports as they transition back to group home, 
foster care, or back home.
    So there has been--there has been good progress. I think to 
some degree part of my testimony states that we have to be a 
little cautious about how much progress and the funding 
incentives that are in place through the juvenile justice 
prevention act, because what is happening is we are seeing a 
lot of our capital-intensive residential programs close today. 
And to some degree, there may be overcapacity. And so to some 
degree, that may not be a bad thing.
    On the other hand, if we start going so far that we lose 
what is really a capital-intensive place for youth to go who 
need significant treatment, and maybe in some cases should have 
received it much earlier, we stand at risk of really losing 
what has been something that has taken years to develop.
    Community-based programs you can develop within a 
relatively short period of time. Within a matter of months, you 
can find people with the skills and the program elements to 
develop a community-based program.
    A residential program or more intensive programs take years 
to develop. And that capacity at some time--I think the 
committee needs to be aware of--there is a point when you can--
you have to find that balance, in terms of the capacity the 
country needs to support intensive services and to the extent 
that we need to support community-based services.
    But there has been a lot of progress, and I think to some 
degree you can congratulate yourselves on what has been 
established through this act.
    Mr. Kildee. Have we made improvement? Back in those days, 
you would find some robe-itis, judges or sheriffs, other law 
enforcement officers who really felt that we here, Washington, 
should have nothing to say on this. And yet we made reception 
of the money contingent upon following these things.
    Has there been any improvement in attitude of those who are 
in the system in those years? Anyone?
    Mr. Burns. Well, I would say yes, Congressman. I think, 
first and foremost, you brought and assisted in bringing the 
issue--bringing national attention to the issue that all of us 
involved in the criminal justice system learned, that it is 
different. We have to think differently. We have to act 
differently. And I applaud and commend you and others for doing 
that.
    I will give you a quick example. Twenty, twenty-five years 
ago--and you have to appreciate--and I still don't believe this 
myself--but 80 percent of all the district attorneys' offices 
in this country, 80 percent have five lawyers or less. They are 
not Joe Hines in King County, in Brooklyn. They are not Jan 
Scully with 450 in Sacramento. They are Scott Garrett with four 
in Beaver, Utah.
    And it used to be that the new guy in, the new woman in, 
would get juvenile court and misdemeanor court. You would get 
to go do traffic and juvenile court.
    That is not so in many, many offices today. We realize it 
takes different skills. We realize that it takes intense 
training. And we ask in many cases that those people assigned 
to juvenile court stay on for a longer period of time because 
of how special that is. So that is great progress.
    Mr. Kildee. Thank you, Mr. Burns.
    Thank you. I thank all of you. Thank you very much.
    Chairman Miller. Mrs. Davis?
    Mrs. Davis of California. Thank you so much to all of you 
for being here, and particularly to Ms. McClard. I really 
didn't have a chance to be here to hear you. I read your 
testimony. And I just want to thank you for the courageous work 
that you are involved in. It is a tribute to your son.
    Ms. McClard. Thank you.
    Mrs. Davis of California. One of the issues that we are 
always very, very aware of is the extent of mental health care 
in our institutions. And I wonder, as you think about the 
authorization that we are looking at here, there is always a 
conflict between being too prescriptive and causing 
difficulties in terms of who, what and where and how.
    And yet some of the major benchmarks, I think, that we 
should be looking at in terms of the kind of care that is being 
delivered, in your experience, what is it that we absolutely 
need to be concerned about here? Is it more of the capacity 
within the system itself? Is it the training of the people who 
are there? Is it pure numbers and resources?
    What do you think is really key in trying to address these 
mental health needs? Clearly, in your son's case, the fact that 
they didn't have any follow-up in the facility is outrageous to 
me. But I know that all states and local authorities grapple 
with this all the time, and they feel that we put so much 
pressure for the kind of medical care that is available that 
then other things are not realized.
    What can you tell us? What absolutely needs to be in any 
kind of reauthorization regarding mental health care?
    Mr. Davis. Mrs. Davis, I would like to start by saying I 
think that mental health is absolutely a key piece of our 
success in this work. The statistics show clearly that more 
than 70 percent--even on the most, you know, conservative 
estimates--of young people to come into the system have some 
kind of mental behavior health challenge. And we have ignored 
that for a long time.
    In Kentucky, one of the things we do is, we actually 
recognize that--and as part of our transformation, created the 
mental health division. Every facility has clinicians, have 
professionally trained staff, and then we have regional staff 
and statewide staff that work not just in the facility, but 
also with young people when they go back home to their 
communities.
    And it is very important, that continuum of care. We only 
serve them for a short time, and we put them on the right 
track. But when they return home to their families and 
communities, pretty often the ball is dropped. And so that is 
where we start to focus.
    In fact, we are re-training and emphasizing more training 
for our mental health staff to actually work with the family, 
because we know that we can't make the child successful if we 
don't change anything about the home they go back into, and so 
bringing that whole family into therapy together, into 
conference together, and talk about how they as a family 
succeed and help this young person be more successful and how 
they actually own, identify, and address their mental health 
challenges, together and individually.
    And it has been a real struggle for us, because that is a 
huge transformation of the paradigm that we have worked with, 
but our responsibility, again, is to make the child more whole, 
not less. And if the only way we can do that is to serve the 
family, then we must serve the family.
    And I think that has to be our mantra across the board. We 
can't say that, you know, it is okay for some people to ignore 
a child who is screaming for help and assistance because it is 
not in our job description or it is not written down for us.
    Those people--maybe they need something written down. Maybe 
it is time for us to codify and clarify that this expectation 
is there and it won't change.
    Mrs. Davis of California. But I am guessing there is a lot 
of pressure, though, for some of those resources and so 
maintaining that is difficult.
    Yes, Judge Teske?
    Judge Teske. Mrs. Davis, just quickly, I think we need to 
incentivize and improve the initial screening of kids who are 
brought to the juvenile justice system at the front door. And 
we really need to come up with a better way to divert those 
kids from the juvenile justice system, because from my 
experience, which has also drawn from the research, as well, 
that we aggravate kids who are mentally ill, have serious 
mental disorders, when we put them into a system that itself is 
not able to provide--I mean, think about it.
    Most states have a division of mental health; then they 
have a department of juvenile justice. Why are you putting kids 
who are mentally ill, with serious mental health disorders, 
okay, in which their delinquency is a manifestation of that, 
into a department of juvenile justice and not over here?
    Mrs. Davis of California. Are there some detention 
alternatives, though, that you have seen that have worked and 
have made it through the community processes? Because I think 
one of the difficulties I see is we get a lot of NIMBY-ism when 
we want to create alternatives for young people.
    Judge Teske. Yes, ma'am. And that goes back to system 
reform. That goes back to key leadership somewhere in the 
community--for me, I think it should be the judge, but if 
anyone will step up to the plate who can say, ``We need to all 
get together, pool our resources. This is the objective. Let's 
have a better--let's develop a system of care, okay, that we 
can put the--where there is a multi-systemic assessment and 
care for these kids in the community where the community is 
kept safe.''
    Just because a kid commits a delinquent act doesn't make 
the kid delinquent. Sometimes we fail to think that way.
    Mrs. Davis of California. I know my time is up, Mr. 
Chairman. I don't know if it is possible to get any other 
responses.
    Chairman Miller. No, we are going to go to Mr. Platts, and 
we are going to have a second round, so, Mr. Platts?
    Mr. Platts. Thank you, Mr. Chairman. I will be brief. And I 
apologize to all of our witnesses. I am running between 
meetings, and I am running back out to another one, but I 
wanted to thank each of you for your written testimony that you 
have provided and the great insights that it gives us as we 
work through this issue, and that shared goal of how do right 
by society and all of our citizens and protecting them from 
wrongdoing, but do right by the youth who clearly make 
mistakes, but we want to help them learn from those mistakes 
and reform and go forward and have a successful life.
    And I especially wanted, Ms. McClard, to thank you. And 
reading your written testimony, you know, my boys are 11 and 
13. And while I would like to think they are always going to 
make the right decision, you know, I hope that the tragic 
circumstances that you and your family have suffered through 
are not repeated in the years ahead for other families and that 
we learn from that.
    And especially the specific recommendations in your 
testimony that give us, as we look at reauthorization and how 
to strengthen the system, including protecting those in 
detention, that we learn from the treatment or mistreatment 
that your son suffered through and don't allow those errors to 
be repeated.
    And your presence here today and working to turn a family 
tragedy to public good is extremely commendable, and we are 
grateful for your presence here, and you are certainly honoring 
your son by your work. So--and thank you.
    I yield back, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Tierney?
    Mr. Tierney. Thank you, Mr. Chairman. Thank you for having 
this hearing, Mr. Chairman, for these excellent witnesses, as 
well.
    Ms. McClard, I won't repeat what Todd just said, but I will 
echo it on that, and we do appreciate you coming. I don't think 
there is a parent in this country that doesn't fear that what 
happened to you might happen to their child, so all of us have 
issues with alcohol and drug addiction in our families or our 
friendships or our neighborhood somewhere on that, so you do us 
all a great service, as well as your son's memory.
    And I also want to just tell all the witnesses how much we 
appreciate what it is you do every day. I assume--I hope that 
you hear it in your own communities on that. This comes so 
far--I mean, I have been practicing law--I started practicing 
law maybe 33, 34, 35 years ago. And it was a whole different 
attitude then.
    Judges looked at it differently. And I want to really 
respect the judges and how far you have come and what you have 
done on this. District attorneys looked at it differently. Mr. 
Burns and, you know, John Blodgett up in my area, Essex County, 
Massachusetts, is a leader in the sense of when everybody else 
wanted to get tough--you know, how long can we lock them up 
for, how hard can we punish them--was strong enough in his own 
self that he knew that was wrong, used this other way to go 
about it.
    And you have people like Sally Patton on the juvenile court 
up there, tough people, former prosecutors, prosecutors who 
would stand up to the public and say, ``That isn't right,'' 
with respect to this. We have got to do prevention. We have got 
to do other alternative programs instead of just going in the 
wrong direction.
    It takes that kind of leadership and that kind of strength 
to go against the tide and do that. And all of you are 
representative of that, and I appreciate it, I mean, because we 
can easily get led the wrong way and have in this country over 
and over again.
    We have covered a lot of ground, so I don't want to recover 
it, but I do have one question. We have in our area some 
specialized high schools for students with alcohol and drug 
issues. Good idea or bad idea?
    Ms. McClard. I can answer that as a teacher.
    Mr. Tierney. Thank you.
    Ms. McClard. In Cape Girardeau County, there is a school 
for that, that other school districts are allowed to go to. It 
is kind of a general base for everybody in Cape Girardeau to 
Scott County. Most of the students that go there overcome their 
drug and alcohol abuse, because there is some backup counseling 
for them there.
    But they do have to want to go. And they do have to earn a 
certain grade point average to be able to stay there. The 
graduation rate for that is about 89 percent, so it is huge.
    Mr. Tierney. Well, it is successful in our area, as well. 
When I talked to the students there, they also would rather 
prefer being there. It is voluntary, as you say. But they seem 
to get a lot of comfort and support on that, but that is 
participants.
    I was wondering from the experts out here whether they 
agree that that is a good setting for those kids and it doesn't 
stop them from progressing once they get out of that school. So 
it is generally--I am seeing a lot of nodding heads, so I will 
take that as the fact that we should move in that direction.
    Do you do anything, Mr. Burns--and I know the district 
attorneys are very active on that--on identifying young people 
in high school or even in college, freshmen or whatever, as 
leaders on these issues of alcohol and drug abuse? And do we 
have any programs or situation where we identify those people 
and let them become leaders in their institution?
    So many kids there would follow them if we found the right 
kid--I am thinking of one student in particular who went to a 
college in my area and started an organization for people with 
issues like that and found an unbelievable number of kids that 
turned out and became part of that.
    Do we encourage that in any way?
    Mr. Burns. You know, there are individual programs, as you 
know, Congressman, depending on the city and the state, but I 
would concur with you. The tough on crime, we can also be smart 
on crime, and we can be innovative, and there are hundreds of 
district attorneys across the country that are engaged in a 
program like you just mentioned, as well as community centers 
and other efforts.
    Mr. Tierney. Well, I will let it go. Thank you all very, 
very much for what you do, as well for being here today. Thank 
you.
    I yield back, Mr. Chairman.
    Chairman Miller. Ms. Clarke?
    Ms. Clarke. Thank you very much, Mr. Chairman. And I want 
to thank all of you for your commitment to improving our 
juvenile justice system.
    My first question is for Judge Teske, Mr. Belton, and Mr. 
Davis. Research has shown that unnecessary detention leads to 
worse outcomes for youth. Research has also shown that 
community-based interventions, such as those that are being 
implemented in certain parts of New York, like New York City 
where I am from, result in better outcomes, are cost-effective 
and more effectively reduces crime.
    In fact, one study concluded that a significant way to 
avoid having to build adult prisons down the road is to 
implement evidence-based cost-beneficial prevention programs 
for youth in the juvenile justice system.
    In your opinions, why haven't more states followed the lead 
of New York and Georgia and begun instituting evidence-based 
approaches to juvenile justice? And more importantly, what can 
we do to encourage states to employ evidence-based public 
policy options in their juvenile justice system?
    Mr. Belton. Chairman Miller and Congressman Clarke, I think 
the reason why more states don't do this is because I think, 
for a long time, many states, many jurisdictions had very much 
an institutional culture and basis and orientation for 
providing programs for young people who are offenders.
    And it is taking--it is sort of like turned into the Queen 
Mary around in a teacup. It is taking a long time to get people 
to begin to shift and jurisdictions to begin to shift from 
institution-to community-based, where it is more cost-
effective, where it is more effective programming, and it just 
makes sense.
    You want to solve the problem close to where the problem 
first originated. It makes sense. But it has taken a long time 
to do that.
    And fortunately, with leadership, and also incentives, 
hopefully, with the reauthorization of JJDPA and strengthening, 
that there will be incentives to provide more community-based 
alternatives to institutional responses to young people.
    Judge Teske. And if I am piggybacking his answer, sometimes 
it goes to what I call the politics of fear. And I am going to 
address policymakers at the state level.
    The question is, who are--what constituents are they really 
listening to? Because some people--I had a preacher once that 
gave a sermon that said there are four different types of 
personalities. One of those is the complainer, but usually the 
complainer complains about how everyone is complaining about 
the preacher, when it is probably only one or two, but they 
just complained the loudest, and so policies are made based 
upon the loudest, who only represents the few.
    And so the ``lock them up'' has become prevalent, you know, 
over the years. And so policies through state statutes, like 
automatic transfers to adult court, started happening. And we 
lose sight of the research. We don't look beyond that.
    But, in fact, if you really want to know what the community 
is thinking, come to court with me and listen to the victims in 
my court. I make the victims--I don't make--but I ask them--
strongly ask them to come and speak. You know what they say 9 
times out of 10? ``Please help this young man who hurt me. 
Don't lock him up.''
    Mr. Davis. Ma'am, I think the Senate bill version of the 
act does address some of these issues and actually put funding 
in place to specifically look at evidence-based programs. And I 
think it is important that, as you all go through the process, 
that be a real option. You know, evidence-based programs will 
only be effective if we have the money to seek those and to 
create those, too.
    As far as the community goes, I think that, in the work 
that we do, there has been a real shift, and I think fear has 
been a big piece of it. When we get elected by promising people 
certain kinds of elements won't be in their community, then we 
have to hold to those promises. And no matter what is least 
restrictive, no matter what is most necessary for the recovery 
of a child, we can't go there, and I think that is the thing we 
face in most places, that we promise people that we will keep 
those sex offenders out of the community, and now, you know, we 
are in the situation where we can't put them back to the place 
where we could possibly make them whole because of a fear of 
the next election.
    Chairman Miller. Ms. Chu?
    Ms. Chu. Thank you so much for your testimony.
    And thank you, Ms. McClard, for coming out and sharing your 
story.
    Over the past 5 years, juvenile justice appropriations have 
fallen nearly 30 percent. And I know in my area of Los Angeles 
County, this decrease in funding has significantly affected the 
juvenile justice system's ability to invest in evidence-based 
solutions to juvenile crime.
    I have heard from advocates who are very upset about this, 
because they know that there is so much more that we can do for 
juveniles while they are in the system.
    Mr. Davis, I know you touched upon this, but I wonder if 
the panelists could share with us how this decrease in funding 
has affected your organization's ability to be successful.
    Mr. Davis. Ms. Chu, I spoke before--and I think it is 
really clear--that all of us have been deeply impacted by the 
reduction in funds. It makes it challenging for us to do our 
best work. And I think, at the end of the day, as a 
professional in this field, that is what we like to think we 
do. And it more importantly has made it more creative.
    I think that if we had funding restored or increased, it 
would give us the opportunity to do what we know needs to be 
done with less restriction, with less concern about robbing 
Peter to pay Paul. In our system in particular, we continue to 
struggle with, we know this has to happen, so what is it that 
we can do without that is good, but not great, in order to make 
sure we take care of great? And it shouldn't be that way.
    And so for us, it has been a challenge. And it continues to 
be. But, again, as I said earlier, it won't be the thing that 
limits our willingness to continue to do the hard work, but it 
would make our work much easier if we had the dollars in place 
to ensure that we could move forward without question, without 
hesitation.
    Ms. Chu. And could you say specifically where you think 
those funds should be concentrated?
    Mr. Davis. For us, I think moving back to looking at 
evidence-based programs, and especially in community re-entry. 
Family-and community-based programming, I think--I know is 
where we are going. We have identified it. We have started to 
look at how we transform our staff to address it appropriately.
    But we cannot serve children in our facilities. We have to 
get them home, and we have to get them home with all of the 
things that they need to be successful. In fact, my boss always 
says, we have to teach them how to access the system at home, 
in place where they are going to have to survive, not in a 
facility where it is a false positive if they succeed.
    And so for us, having to transition back to community and 
the resources to really provide them with services, with 
counseling, with job training, with access to social services 
and educational opportunities will create the possibility for 
transformation that I think we haven't even seen yet. It is 
very exciting for us.
    Mr. Solberg. Yes, Ms. Chu, I would build on that a little 
bit and just share that--and I related to it in my testimony 
briefly, is that there is this increased tension, I believe, 
between community-based providers and residential providers, in 
terms of what is the most appropriate care.
    And so you will see in some cases in community-based 
settings, where there is a dogma almost that says this child 
will not leave the community, and there may not be the 
appropriate resources to really provide the most appropriate 
care based on assessments, and so these young men tend to fail 
at various levels before the decision is finally made to put 
them in a setting that really was probably more appropriate at 
an earlier stage in their care.
    And so, as you look at decreased funding, it really creates 
those tensions, you know, in terms of providing the most 
appropriate care, even though that more appropriate care may be 
more expensive, and take them out of the community, and really 
means that they have to do as much as they can to provide the 
services in the community as much as possible.
    And so it comes down to the most appropriate care for that 
youth, and that is what we have always fought for, in terms 
of--if it is most appropriate to keep them in the community, do 
so. If it is not, then we need to look at funding sources and 
streams to provide the most appropriate care for them.
    Mr. Belton. Congresswoman Chu, I would like to sort of--at 
least in Ramsey County, Minnesota, where I am the juvenile 
director, I want to move beyond the tension--and it is a 
natural tension between community-based and institution-or 
residential-based services. Both are needed.
    And I would like to maybe think about in terms of more of a 
public health approach, where--in our communities, we provide 
certain things for children because they are children and they 
need certain things, and that is regardless of race, income, 
neighborhood, and all those kinds of things. And some of those 
are services. Some of those are services such as mental health 
services, so that corrections--or the juvenile justice doesn't 
become the venue or the delivery service system for mental 
health services for certain kinds of kids.
    Some of it is drug abuse abuses. Some of it is educational, 
remedial educational services, so that the kids who are served 
through the juvenile justice can get these things in the 
community beforehand.
    But when they present enough of a risk to public safety, 
when they have to be in the juvenile justice system and they 
have to be in residential treatment, we need enough money so 
that we have programs and services in those institutions where 
they can function properly, they are evidence-based, and kids 
can make these improvements so that they can become productive 
citizens.
    So I think, in short, we need an array of services. We need 
money and funding in a number of key areas and not just one 
specific area.
    Ms. Chu. Thank you. I yield back.
    Chairman Miller. Thank you. Thank you very much.
    Ms. McClard, I want to echo what Congressman Platts said 
and associate myself with his remarks about your appearance 
here and your advocacy. As I read your testimony yesterday, and 
then I started going through the testimony of others and some 
of the reports that have been prepared for the reauthorization, 
I kept trying to think where there would have been a circuit 
breaker so somebody could have said, ``Wait a minute. What is 
going on here?''
    Because it seemed to me, as I read your narrative, that you 
couldn't stop the train. I mean, it was just--there was no 
ability to reach up and pull a cord and get some independent 
review of what is taking place. And we all understand the 
pressures that are on the justice system.
    But when I come back to, you know, what was being referred 
to here as evidence-based programs, comprehensive programs, you 
get a sense that instead of working faster and harder, the 
organizations and systems that are working smarter seem to open 
up more opportunities for those interventions, for somebody to 
walk in and say, ``Wait, wait. Should this be a placement like 
Mr. Solberg's or should this be a locked facility? Or should 
this be at home?'' And if you are not working smart, you are 
just shoveling in Louisiana.
    And that is my real concern, is that we are at this point--
Mr. Kildee, we were all here when this program started--that we 
now continue to fund jurisdictions that are just doing it the 
way that--you know, tomorrow the way they did it yesterday. And 
I think whether it is to try to develop the best plans for 
detention, if necessary, or for interventions or for 
prevention, that clearly, given the limited resources, we 
really have to now start looking at rather compelling and a 
critical mass of evidence that suggests there is another way to 
address this caseload, and to be smarter with better outcomes, 
in terms of crime rates, in terms of education attainment, in 
terms of treatment of these young people.
    And that is really the challenge that we ask this challenge 
to--this panel to present to us, and I think you have 
successfully done that this morning, and I appreciate it.
    You know, I was quite taken--the district attorneys 
association, supported Fight Crime, Invest in Kids, and the 
home visiting program that ended up being--in the large health 
bill, there is a billion something dollars recognizing that the 
district attorneys kept saying, ``I am just getting more and 
more crime. I have got to work with these families and newborns 
and teach people parenting skills and all the rest of that.''
    And people are saying, well, that is not what district 
attorneys do, except they started thinking smarter, in terms 
of--well, you go up the river, see who is throwing the baby in 
the river.
    And so, you know, we have responded there what we think is 
evidence-based and what people in the system think helps them 
deter the behavior that is acted out.
    So I just wanted to thank you for this rather comprehensive 
view of the system and the recommendations that you have made 
that have been really tested over the last 24 hours and 
matching this against Jonathan's progress in this system and 
how he was moved through the system without some kind of check.
    But I think we see some rays of hope in various 
jurisdictions around the country that have looked at these 
alternatives in the most comprehensive fashion, I guess, is 
what is necessary. A lot of people have had divergent programs 
and the rest of that, and we all know what happens to them in 
our communities. But that comprehensive approach is really what 
is encouraging to me about the presentations made here today, 
so thank you very, very much.
    Mr. Kline?
    Mr. Kline. Thank you. Thank you, Mr. Chairman.
    Again, thanks to our witnesses.
    And, Ms. McClard, I too wanted to identify myself with 
remarks of Mr. Platts. Your sacrifices and now your work are 
remarkable.
    I have been struck by the testimony of all of you, and you 
were stressing the importance of comprehensive--or I would say, 
collaborative--I think the judge mentioned a number of times. 
And it seemed to me, wouldn't it be nice if we could just take 
this panel and sort of replicate you many times and move you 
from state to state and district to district and get that sort 
of collaboration and teamwork, which it occurs to me is--
listening to all of your comments--is at the heart of doing 
this right.
    You can't just have the good judge and nothing else working 
out there or the good director or the good teacher or the good 
residential home or the good district attorney. You have got to 
have it all.
    And our challenge is going to be, what can we do here to 
facilitate that? And certainly not to restrict it. So I think 
we have got our work cut out for us here. Again, I want thank 
you for being here today, for your testimony, for your 
comments, and for your terrific work and the jobs that each of 
you is doing.
    You provided a lot of great information and ideas and a 
path for how this can work so that we don't have repeated what 
Ms. McClard has gone through. So I just want to again say 
thanks to all of you, and I will yield back.
    Mr. Scott [presiding]. Thank you.
    Mr. Belton, the judge pointed out some of the things we can 
be doing to deal with young people when they have been 
identified at risk. Can you talk about the importance of 
comprehensive plans to get young people on the right track and 
keep them on the right track so they don't even develop the 
risk factors?
    Mr. Belton. Congressman, I think it is vitally important to 
have comprehensive plans, but I think that, again, referring 
back to some of my earlier comments, we need resources in our 
communities so that kids don't even come into--aren't even 
touched by the juvenile justice system, so that we are not even 
assessing these kids, because they are getting what they need 
in our communities before they even touch our juvenile justice 
system.
    Mr. Scott. And does that system--so they don't get in 
trouble in the first place, if they get on the right track 
early and stay on the right track, does that have to be 
comprehensive?
    Mr. Belton. Yes, it does, absolutely. Kids need stuff. They 
need all kinds of things, including services, including 
recreational outlets, and various other things.
    Mr. Scott. And if you provide that, many of them will not 
develop the risk factors that get them into trouble, and then 
when they get in trouble, they need to be dealt with as quickly 
as possible. Is that right?
    Mr. Belton. As quickly as possible, but also as 
comprehensively and intelligently, using science-and evidence-
based practices, yes.
    Mr. Scott. Now, Mr. Davis, you indicated that there should 
be no exception to locking up status offenders. What happens 
when you inappropriately lock up a status offender? What 
happens to the trajectory of that child?
    Mr. Davis. Well, all the data shows us that a young person 
who is locked up as a status offender receives very low results 
on the other end. There is increased possibility of criminality 
being in close proximity and sometimes trying to survive, 
again, with those more sophisticated young people who have 
committed, you know, sometimes egregious crimes.
    And then they also are limited in their access to mental 
health, which we know, as most of them are runaways, truants, 
or some other thing that is not criminal, alcohol or drug use 
underage. When they get into the system, they don't have access 
to any of the support systems that deal with that, AA, 
Narcotics Anonymous, counseling, educational access, especially 
in detention facilities, most likely.
    And so everything about their projection is decreased, with 
the possibility of attaining educational aspirations, of 
finding and securing work in community, of eliminating the 
badge or the baggage of being a delinquent youth and having 
gone through the system. All those things create lower outcomes 
for them.
    Mr. Scott. Thank you.
    Now, Mr. Burns, you indicated a need for flexibility. Would 
your flexibility be adversely affected if we limited your 
flexibility to evidence-based plans?
    Mr. Burns. No, Congressman, but I guess the flexibility we 
ask is to not try and apply something nationally when there are 
so many differences between the individual states.
    Mr. Scott. And if a comprehensive plan were developed 
locally tailored to that locality, it would be better than a 
nationally imposed plan?
    Mr. Burns. Yes, but I think the honest answer to that is, 
is if you bring everybody in to the process from the beginning, 
instead of tell them from Washington, D.C., ``This is what we 
are going to do.''
    Mr. Scott. Bring them together, you mean in the locality?
    Mr. Burns. Yes, bring in the prosecutors----
    Mr. Scott. So that you could assess what the local 
situation is, what the local resources and needs are, and 
fashion a plan tailor-made for that locality?
    Mr. Burns. That is right, so we know if we can afford it.
    Mr. Scott. Thank you.
    Mr. Solberg, you indicated evidence-based and we should be 
having priorities. Do you have a list of priorities where we 
ought to be focusing?
    Mr. Solberg. Well, I think the--we talked about evidence-
based a lot, because there has been a certain amount of 
research that has been done to demonstrate this type of program 
is going to be successful in a kind of controlled environment.
    You take those now--for example, in the Wisconsin Works 
study that was done, with regard to juvenile justice, there are 
not--for example, if you were to say at a national level we 
want to have evidence-based programs, you know, basically 
rolled out across the country, there are not a lot of really 
canned programs where you can basically take evidence-based and 
duplicate it in a juvenile justice system. In the study, it was 
found that those were lacking.
    There are evidence-based programs, but to take and 
replicate them in communities is a significant investment, and 
also making sure you are doing it based on the evidence and the 
control that was put in place for that program.
    Beyond that, I think one of the things that--on my 
testimony is, for me, the lack of agreed-upon outcomes. We 
typically would develop programs and develop outcomes, but can 
we develop a set of--you know, in a research environment within 
individual states and local communities, to agree, ``We are 
expecting these types of outcomes in our young people''?
    It startles me at some times when I am meeting with peers 
on a state or national level that there is just very little 
discussion around outcomes. It has a lot to do with evidence-
based programs, but can we all agree on, what are we agreeing 
on in terms of outcomes so, at the end of the day, we know that 
we have been effective?
    Mr. Scott. Thank you very much.
    I want to thank all of our witnesses, particularly Ms. 
McClard, for your very courageous testimony. It is very helpful 
to put a face on exactly what are we doing in your testimony--I 
am sure at great pain--is very helpful.
    I thank all of our witnesses. Without objection, members 
will have 14 days to submit additional materials or questions 
for the hearing record. And I would ask unanimous consent that 
a statement from the National Disability Rights Network be 
entered into the record. So ordered.
    Any other comments?
    Without objection, the hearing is adjourned.
    [Additional submissions of Mr. Miller follow:]

          Prepared Statement of the W. Haywood Burns Institute

    During the April 21, 2010 House Committee on Education and Labor 
Hearing on ``Reforming the Juvenile Justice System to Improve 
Children's Lives and Public Safety,'' Ranking Member Kline asked a 
question regarding the importance including in the Juvenile Justice and 
Delinquency Prevention Act (JJDPA) concrete guidance around reducing 
racial and ethnic disparities. Specifically, Ranking Member Kline asked 
Ramsey County Corrections Deputy Director of Juvenile Corrections, 
Michael Belton the following question:
    ``I believe you said little progress can be made if Congress 
doesn't strengthen the DMC core requirements. And yet you made great 
progress without that strengthening. Why do you think that other places 
can't do what you've done?''
    The question was an important one. Currently, the JJDPA requires 
States to ``address'' disproportionate minority contact (DMC) within 
the juvenile justice system. Specifically, the law requires States to 
``address juvenile delinquency prevention efforts and system 
improvement efforts designed to reduce, without establishing or 
requiring numerical standards or quotas, the disproportionate number of 
juvenile members of minority groups, who come into contact with the 
juvenile justice system.''\i\
    This vague requirement that States ``address'' efforts to reduce 
DMC has left state and local officials without clear guidance for how 
to actually reduce racial and ethnic disparities. This lack of clarity 
on how to reduce racial and ethnic disparities has resulted in many 
jurisdictions getting stuck studying the problem or endlessly working 
on projects that may sound good on paper or in theory, but do not lead 
to measurable reductions. As a result, many jurisdictions have spent 
have spent significant time and money ``spinning their wheels'' trying 
to reduce racial and ethnic disparities in juvenile justice with 
limited results.
    Over the past two decades, several organizations--the Annie E. 
Casey's' Juvenile Detention Alternative Imitative (JDAI), the MacArthur 
Foundation's Models for Change, and the W. Haywood Burns Institute--
have worked with jurisdictions across the country to reduce DMC in 
juvenile justice systems. Through this work, a growing number of 
jurisdictions throughout the nation have employed a guided, 
intentional, and strategic approach to reducing racial and ethnic 
disparities, and they have achieved measurable results--showing that 
reducing racial and ethnic disparities is possible. The work of these 
organizations has consistently shown that the approach to working to 
reduce disparities must be done with focused, informed, and data-driven 
strategies.
    Strengthening the JJDPA will make it possible for more 
jurisdictions to build on best practices that we know work to 
effectively reduce racial and ethnic disparities in the juvenile 
justice system rather than just studying the problem. Each of the 
organizations mentioned above uses a similar approach to reducing 
disparities that is based on successes and best practices used in 
jurisdictions across the country. The approach incorporates traditional 
and non-traditional stakeholder collaboration, collection of key data 
on a variety of juvenile justice decision making points, strategically 
using data to identify disparities and develop a work plan to reduce 
disparities, and monitoring the effect of any implemented strategies.
    Thus, the recommended provisions to modify the DMC core requirement 
are based on the following components that--across the country--have 
demonstrated effectiveness in targeted work to reduce racial and ethnic 
disparities:
    1. The work involved in reducing racial and ethnic disparities 
requires a committee exclusively dedicated to overseeing and monitoring 
state efforts to reduce disparities and offering guidance and support 
to local jurisdictions in their efforts to reduce disparities.
    State Advisory Groups (SAGs), the governor-appointed entities 
responsible for administering and managing federal funds allocated in 
the JJDPA, have numerous responsibilities and are often stretched thin 
in order to accomplish them. Some SAGs have DMC subcommittees, but for 
those that do not, it is uncommon that SAGs can devote the time needed 
to oversee and guide implementation of statewide DMC-reduction 
strategies. All States need a body of individuals committed to DMC 
reduction guiding this focused work.
    In California, for example, Formula Grants are administered by the 
Corrections Standards Authority (CSA), which leads the State's DMC 
efforts and monitors all ongoing local efforts to address DMC. The 
CSA's DMC subcommittee includes juvenile justice practitioners and 
experts with experience in successfully reducing racial and ethnic 
disparities. Reducing racial and ethnic disparities is interwoven into 
requirements for all juvenile justice-related federal funding streams 
administered by the state, and more than one third of California's 
Title II award is allocated specifically to reduce disparities.
    California uses a multi-faceted approach to reducing disparities 
which includes direct service, education, and support and advocacy. The 
direct services component currently includes a three-phase competitive 
grant awarded to five counties. The grant is designed to assist 
probation departments in understanding how to identify DMC, and to 
equip them with the tools and resources necessary to provide leadership 
in a collaborative effort to reduce DMC involving traditional and 
nontraditional stakeholders throughout the county. The education 
component includes DMC training to all grantees receiving federal 
juvenile justice-related funding, and DMC trainings for all School 
Attendance Review Boards throughout the State. The state provides the 
support and advocacy component through strategic technical assistance 
that allows stakeholders to develop innovative, low-cost DMC 
interventions throughout the State.
    In California, we recognize that reducing racial and ethnic 
disparities is a uniquely local issue. However, in California we also 
realize that without guidance, local jurisdictions are unclear how to 
tackle the issue of racial and ethnic overrepresentation. A committee 
that is designated exclusively to reducing disparities is necessary to 
provide critical guidance and support for local jurisdictions in their 
work to reduce disparities.
<bullet> Shalinee Hunter, CA State DMC Coordinator
    2. Analysis at each decision point is needed so that targeted 
policy and programmatic changes can be implemented.
    To ensure that strategies for reducing racial and ethnic 
disparities are based on evidence rather than perceptions, it is 
critical that States collect and analyze data at each juvenile justice 
decision point. In a meta-analysis of studies on race and the juvenile 
justice system, researchers found that almost three-quarters of the 
studies of DMC showed unwarranted racial disparity in at least one 
decision point in the juvenile justice process.\ii\ Analysis of all 
juvenile justice decision making points sheds light on the entire 
system flow equally, and thus minimizes opportunities for blame.
    The Tucson, Arizona Police Department has engaged in intensive work 
to reduce racial and ethnic disparities. In DMC work, the police are 
often the first to blame. In our experience, however, the opposite was 
true. The collection and analysis of data encourage open dialogue that 
is based on fact, not politics. In doing so, we avoided the 'blame 
game' and 'finger pointing.' The analysis helped our department learn 
what we are doing well, and where we need to dig deeper to investigate 
whether local policy and practice have a disparate impact on youth of 
color.
<bullet> Rick Wilson, Lieutenant, Tucson Police Department
    The argument has been made that minority youth are overrepresented 
in the juvenile justice system simply because youth of color commit 
more crime. Careful data collection and analysis reveals that this is 
generally not the case. A more likely scenario is that DMC is driven by 
a group of factors that may even be at work simultaneously. Some 
factors could include: selective police surveillance and enforcement 
practices, differential opportunities for early prevention and 
treatment, differential handling of minority youth, indirect effects of 
juvenile justice policies, and legislative changes, administrative 
policies, and legal factors.\iii\ All of these drivers of racial and 
ethnic disparity and, once identified, can be remedied through 
evidence-based interventions.
    3. To have an impact on racial and ethnic disparities, 
jurisdictions need to engage in routine data collection that can guide 
implementation of meaningful solutions.
    In many jurisdictions, race and ethnicity data currently are not 
collected adequately or used effectively to guide policy and practice 
changes aimed at reducing racial and ethnic disparities. Existing data 
and available information can be used to reveal unconscious biases that 
might guide individual decisions, as well as trends in the 
disproportionate representation of youth of color at various stages of 
the system.
    Nearly all States collect some form of data, including the Relative 
Rate Index required by the Office of Juvenile Justice and Delinquency 
Prevention (OJJDP) to identify whether and to what extent racial and 
ethnic disparities exist within their juvenile justice systems. In a 
2008 survey of DMC coordinators, 97% of respondents (N=33) reported 
that data collection and analysis efforts were underway in their 
States.\iv\ However, many State officials and juvenile justice 
stakeholders are concerned that the collection of data is where DMC 
reduction efforts often begin and end. Moreover, many jurisdictions are 
unclear how to use the data to effect change. The survey also revealed 
that only 27% of states examine seemingly race-neutral policies and 
practices that might drive DMC.
    We have successfully collected Relative Rate Index data, but the 
data have little utility for real change at the local level. In order 
to effect real change locally, we would need to look behind the numbers 
to learn where disparities exist. For many jurisdictions, it seems like 
the data collection is an exercise, not a mechanism to review where we 
can take action to reduce disparities. In addition, some jurisdictions 
within the State have expressed reservations regarding the accuracy of 
the data collected. If we had a better system that required more than 
simply the collection of data, we might engage in a conversation that 
would surface any inaccuracies and allow us to move forward in digging 
deeper into the data.
<bullet> Maurice Nins, Minnesota Juvenile Justice Specialist
    Data regarding Latino involvement in the juvenile justice system 
are particularly inadequate. In many parts of the country there are no 
accurate data on the number of Latino youth in the juvenile justice 
system. Instead, Latino youth are counted as ``White'' or ``Black,'' 
resulting in significant undercounting of Latino youth.\v\ Although 
some data on Latino youth are available, they may not represent the 
full extent of disparate treatment for Latino youth in the juvenile 
justice system because some jurisdictions mix their counting of race 
and ethnicity. In these jurisdictions, Latino youth must choose between 
reporting their race and their ethnicity because the systems do not 
have capacity to report both (for example, that a youth is both African 
American and Latino).\vi\ With accurate data, disaggregated by race and 
ethnicity, communities can plan and coordinate culturally- and 
linguistically-appropriate services that are effective for youth and 
their families.\vii\
    4. To accomplish measurable reductions in racial and ethnic 
disparities, jurisdictions must implement programs designed to address 
their identified disparities.
    Data collection and analysis are critical to understanding the 
presence and severity of DMC, but the work cannot end there. A few 
jurisdictions have achieved measurable reductions in racial and ethnic 
disparities by implementing data-driven strategies that are guided by 
collaborative groups of traditional and nontraditional juvenile justice 
stakeholders. The following are examples of these successes:
    <bullet> Peoria County, Illinois examined data from school 
referrals to the police and determined that the county's DMC was 
aggravated by school discipline policies that had a disparate impact on 
youth of color. The County successfully reduced disproportionate 
referrals of youth of color to the juvenile justice system by working 
with the school system to strengthen school-based conflict resolution 
protocols.\viii\
    <bullet> In Travis County, Texas, analysis of probation data showed 
racial and ethnic disparities in the detention of youth who violated 
probation. The county reduced its disproportionate incarceration of 
youth of color who violated probation by establishing a Sanction 
Supervision Program, which provides more intensive case management and 
probation services to youth and their families.\ix\
    <bullet> Pennsylvania has recently implemented a system of 
statewide juvenile justice data collection that captures ethnicity 
separately from race.\x\ Berks County, Pennsylvania found 
disproportionate representation of youth of color in both detention and 
secure placement. Through development of a detention assessment 
instrument and an evening reporting center as an alternative to 
detention, the county has reduced its detention population by 45%. The 
county's introduction of multi-systemic therapy, an evidence-based 
treatment program for youth and their families in their own homes, 
along with promotion of other alternatives to incarceration, has 
significantly dropped the population of youth in residential placement 
as well.
    <bullet> Santa Cruz County, California found ethnic disparities in 
detention and subsequently reduced disproportionate admissions to 
detention of Latino youth by focusing on reducing admissions for youth 
who were initially detained by probation but released by the Judge at 
first appearance. Development of alternatives to detention in a 
neighborhood from which many Latino youth entered the juvenile justice 
system helped reduce the detained population.\xi\
    <bullet> Baltimore County, Maryland observed a racially disparate 
impact at the decision to detain youth who did not appear in court 
after receiving a bench warrant. The County instituted a reminder call 
program and subsequently reduced secure detention of African American 
youth by 50%.\xii\
    5. States are eager to learn about how other States have 
successfully reduced racial and ethnic disparities. Annual public 
reporting of DMC reduction efforts and progress would assist states in 
learning about successes and challenges that can inform their future 
efforts.
    States and local jurisdictions throughout the nation are at 
different stages in their current efforts to reduce racial and ethnic 
disparities. Some jurisdictions have sustained reductions of 
disparities in targeted populations for several years, and some 
jurisdictions have yet to identify whether racial and ethnic 
disparities exist. States at all stages of this work can benefit from 
learning about successful efforts in other States.
    Moreover, ensuring that monies allocated for work to reduce racial 
and ethnic disparities are being used effectively requires 
transparency. Requiring that States publicly report their efforts to 
reduce disparities will ensure that juvenile justice resources are 
spent wisely.

                                ENDNOTES

    \i\ P.L.93-415
    \ii\ Pope, C.E., Lovell, R., & Hsia, H.M. (2002). Disproportionate 
Minority Confinement: A Review of the Research Literature from 1989 
through 2001. OJJDP: Washington, DC.
    \iii\ Nellis, A. (2005). Seven Steps to Develop and Evaluate 
Strategies to Reduce Disproportionate Minority Contact (DMC). 
Washington, DC: Justice Research and Statistics Association.
    \iv\ CJJ Survey for ECD, 2008.
    \v\ Id. at p. 1.
    \vi\ Villarruel, Francisco A.; Walker, Nancy; et al., (July 2002) 
Donde Esta la Justicia? A call to action on behalf of Latino and Latina 
youth in the U.S. justice system, p. 42-44. Available: http://
www.buildingblocksforyouth.org/Full%20Report%20English.pdf.
    \vii\ Id.
    \viii\ Conversation with Laurie Brown, Peoria County Site 
Coordinator, August 6, 2007.
    \ix\ Conversation with Britt Canary, Travis County Juvenile 
Probation Department, April 4, 2008.
    \x\ National Center for Juvenile Justice (2006). Guidelines for 
Collecting and Recording the Race and Ethnicity of Juveniles in 
Conjunction with Juvenile Delinquency Disposition Reporting to the 
Juvenile Court Judges' Commission. Available: http://
www.jcjc.state.pa.us/jcjc/lib/jcjc/publications/cclp001-race--
booklet.pdf
    \xi\ Conversation with Scott MacDonald, Santa Cruz County Probation 
Department, February 13, 2008.
    \xii\ Conversation with Tiana Davis, Baltimore County DMC 
Coordinator, March 15, 2008.
                                 ______
                                 

 Prepared Statement of the American Psychological Association; Bazelon 
 Center for Mental Health Law; Mental Health America; and the National 
                       Disability Rights Network

    On behalf of the American Psychological Association (APA), Bazelon 
Center for Mental Health Law, Mental Health America (MHA), and the 
National Disability Rights Network (NDRN), we thank you for holding 
this important hearing on juvenile justice.
    Together, our organizations represent disability and mental health 
advocates, consumers, and professionals, and strongly support the 
Juvenile Justice and Delinquency Prevention Act (JJDPA). This critical 
law serves to protect communities, prevent delinquent behavior, guide 
the treatment of justice-involved and at-risk youth, and address 
dangerous conditions of confinement. We see its pending reauthorization 
as an opportunity to address the mental and behavioral health needs of 
this population which exist at rates 3 to 4 times that found in the 
overall population under the age of 18.
    We are encouraged by Senate efforts thus far and the convening of 
today's hearing. S. 678, the Juvenile Justice and Delinquency 
Prevention Reauthorization Act of 2009, contains a number of provisions 
related to mental and behavioral health that:
    <bullet> Add the Administrator of the Substance Abuse and Mental 
Health Services Administration to the Federal Coordinating Council for 
Juvenile Justice and Delinquency Prevention;
    <bullet> Add experts in mental health to the State Advisory Groups;
    <bullet> Direct states to outline in their State Plans their 
efforts to use evidence-based mental health and substance abuse 
screening and assessment programs for youth in secure facilities;
    <bullet> Provide states with training and technical assistance 
related to effective mental health and substance abuse screening, 
assessment, and treatment;
    <bullet> Authorize a much-needed study to fill in significant gaps 
in the research regarding the prevalence of disabilities among the 
juvenile justice population; and
    <bullet> Create a new incentive grant program to help State and 
local governments address mental health and substance abuse needs among 
juvenile justice-involved youth by: fostering linkages between juvenile 
justice and public mental health agencies; promoting the use of 
evidence-based prevention, identification and intervention strategies; 
providing staff training; and supporting at-risk youth.
    These important provisions represent a sure step forward in 
addressing the disparate mental health needs of justice-involved and 
at-risk youth, and we look forward to working with the House of 
Representatives to identify additional ways that JJDPA can provide 
effective interventions for this group of young people.
Background Issues
    Research shows that between 60 and 80 percent of youth involved 
with the juvenile justice system meet the criteria for at least one 
psychiatric diagnosis and that, of this group, approximately 80 percent 
meet the criteria for two or more mental health or substance abuse 
disorders. Youth experiencing serious emotional disturbance make-up 
approximately 15-20 percent of the population in juvenile justice 
facilities, a rate up to 10 times higher than their representation in 
the community.
    In addition, recent federal reports demonstrate that juvenile 
justice systems regularly act as weigh-stations where youth await 
treatment, functions not intended for juvenile justice. In 2003, the 
Government Accountability Office reported on the tragedy of parents 
being forced to relinquish legal and physical custody of their children 
to child welfare and juvenile justice agencies in the often unfounded 
belief that doing so would secure otherwise unavailable mental health 
services for their children. Data for 2001 from 19 States and 30 
counties showed that nearly 9,000 children and adolescents were sent to 
the juvenile justice system for this reason.
    Furthermore, in 2004, the House Committee on Government Reform 
reported that two-thirds of juvenile detention facilities located in 47 
states held youth with mental disorders solely due to a lack of 
community mental health treatment, and spent an estimated $100 million 
each year to house youth who are waiting for community mental health 
services. The survey also revealed that of more than 340 juvenile 
detention facilities across the country that held youth waiting for 
community mental health services, almost half reported suicide attempts 
and more than one-quarter reported having poor or no mental health 
treatment for youths in detention.
    The price of inaction is significant. Facilities in the juvenile 
justice system were not designed to serve as mental health treatment 
centers, and most are not equipped to care for young people with 
special needs. Facilities are often overcrowded and understaffed, 
leading to poor supervision, and use of inappropriate or ineffective 
behavioral management strategies. Youth in these facilities often are 
exposed to stress, trauma and serious harms due to dangerous conditions 
of confinement, including physical and sexual violence. Youth who have 
behavioral health needs are particularly vulnerable to these harms, 
which has resulted in serious injuries, self-mutilation, suicides and 
death.
    Finally, there are no national standards regulating conditions of 
confinement in facilities in the juvenile justice system. There is 
little or no monitoring and oversight to holding these facilities 
accountable for how they care for and supervise youth with mental 
health needs. Unlike any other residential facilities where youth with 
mental health, psychiatric or other disabilities are protected by 
national standards relating to abuse and neglect, there are no 
analogous standards for youth in secure juvenile justice facilities.

Recommendations

            Juvenile Justice and Delinquency Prevention Act (JJDPA) 
                    Reauthorization

    With regard to mental and behavioral health issues, this critical 
reauthorization must address two seemingly conflicting goals: helping 
to remove incentives to drive youth deeper into juvenile justice 
systems, while still fostering and ensuring an appropriate range of 
critical services. Our organizations strongly encourage the Committee 
to consider the following principles during JJDPA reauthorization.
    1. Create incentives for comprehensive and meaningful 
collaborations among state and local agencies, programs, and 
organizations that serve children, including schools, mental health and 
substance abuse agencies, law enforcement and probation personnel, 
juvenile courts, departments of corrections, child welfare, other 
public health agencies, and institutes of higher education.
    2. Identify vulnerable youth with mental health and substance abuse 
disorders post adjudication through comprehensive screening and 
assessments in order to provide needed treatment, supports and 
services. In addition, policies should be developed and implemented to 
screen youth at intake or the point of detention, and to ensure that 
vulnerable youth with mental health and substance abuse disorders are 
protected from abuse, neglect, self-incrimination, or misuse of health 
information.
    3. Provide grants to divert youth from detention and incarceration 
into home- and community-based care, whenever appropriate, which are 
less expensive and more effective settings for meeting their needs than 
juvenile justice facilities.
    4. Make training available through OJJDP for law enforcement 
officers, juvenile and family court judges, probation officers, and 
other decision makers about the signs and symptoms of mental and 
behavioral health needs, the existence and purpose of screening and 
assessment, and the effectiveness of home- and community-based 
treatment and other mental health supports and services.
    5. Develop an individualized discharge plan for each youth upon 
admission to any juvenile justice facility, including detention 
centers, in order to link them to appropriate aftercare services, 
including behavioral health services and supports, when they are 
released back into the community.
    6. Provide incentives for juvenile justice systems to implement 
programs and services that involve families and have been proven 
through research to reduce recidivism and improve outcomes for juvenile 
offenders, such as Functional Family Therapy, Multi-Dimensional 
Treatment Foster Care, and Multi-Systemic Therapy.
    7. Create a national technical assistance center and a series of 
regional technical assistance centers to assist juvenile justice 
agencies in all matters related to juveniles with mental health and 
substance abuse disorders, and create grants to assist state and local 
juvenile justice agencies as they work to reform their systems.
    8. Provide grants for increased training opportunities, including 
best practices related to mental health, and technical assistance for 
law enforcement and probation officers, corrections and community 
corrections personnel, court services personnel and others as an 
appropriate means of reducing juvenile crime.
    9. Create reporting requirements to the Department of Justice that 
will improve understanding of the prevalence of mental health and 
substance abuse disorders in the juvenile justice system.
    10. Establish safeguards to ensure that psychotropic medications 
given to youth in the juvenile justice system are provided only as part 
of a treatment plan, based on a mental health assessment performed by a 
qualified, licensed mental health professional.
    11. Establish and fund a system of independent monitoring and 
oversight to identify and remediate dangerous conditions in juvenile 
justice facilities.

            Other key legislative priorities

    <bullet> Re-introduce and enact the Keeping Families Together Act, 
which would expand systems of care to address the mental health needs 
of children and youth and reduce the unnecessary entry of young people 
into the juvenile justice system;
    <bullet> Principles contained in the Mental Health Juvenile Justice 
Act, introduced in 2001 and 2002, respectively, by Congressman Miller 
and Senator Wellstone; and
    <bullet> Enact H.R. 1931, the Juvenile Crime Reduction Act, which 
reflects many of the principles outlined above.
Conclusion
    We thank you for the opportunity to share our perspective on the 
intersection of juvenile justice and mental health and substance abuse, 
and the need for changes to the federal investment in juvenile justice 
and delinquency prevention. The science behind mental health issues is 
far beyond where the evidence-based literature was the last time JJDPA 
was reauthorized. We now know how to better address and ameliorate the 
mental health crisis among our nation's youth. Given the progress in 
science and better collaboration among the stakeholders, the next 
reauthorization of JJDPA needs to seize this opportunity and 
dramatically shift the way in which it addresses mental health issues. 
We appreciate the Committee's ongoing commitment and leadership to 
addressing vital juvenile justice issues and look forward to continuing 
to work with you on these critically important efforts.
                                 ______
                                 
    [Additional submission of Messrs. Scott and Grijalva 
follows:]

      Prepared Statement of the National Disability Rights Network

    On behalf of the National Disability Rights Network, and the 57 
Protection and Advocacy Systems we represent nationwide, we thank you 
for having a hearing on the important topic of the juvenile justice 
system.
    The National Disability Rights Network is the membership 
organization for the Protection and Advocacy (P&A) Systems, a 
nationwide network of 57 congressionally mandated, legally based 
disability rights agencies operating in every state and territory in 
the United States. P&A agencies have the authority to provide legal 
representation and advocacy services to all people with disabilities.
    The Juvenile Justice and Delinquency Prevention Act (JJDPA) stands 
as one of the most important federal laws on the treatment of children 
in the juvenile justice system. While this law serves many important 
purposes, and provides many important protections for juveniles in 
contact with the juvenile justice system, the testimony that you will 
hear today and the juvenile justice advocacy by our network clearly 
show the time is right to reauthorize and update this Act.
    The stories have been replete in newspapers and on television 
demonstrating the problems with the current juvenile justice system: 
Judges with a financial stake choosing to incarcerate juveniles in a 
for-profit prison; high incidents of sexual and physical abuse; 
juvenile justice facilities that are overcrowded, unsanitary, unsafe, 
and understaffed, children not receiving needed education or mental 
health services while incarcerated, leading to increased amounts of 
recidivism upon release; juveniles awaiting trial in adult facilities, 
and others who have committed no more than truancy being confined in 
secure juvenile correctional facilities to languish and suffer due to 
the outdated Valid Court Order provision.
    These problems fall disproportionally upon children with a 
disability. Each day some 100,000 children and youth are locked up in 
juvenile detention centers and correctional facilities, and more are 
incarcerated in jails and prisons. About 70--80% of these youth have a 
mental health, cognitive, developmental, physical, learning, or other 
disability, including youth with IQs in the low 40s. Unfortunately, 
experience has shown that youth with disabilities are more vulnerable 
to being exploited and harmed in juvenile justice facilities, and 
incarceration has a profoundly negative impact on their mental and 
physical well-being.
    The Senate has taken many important steps in its version of the 
reauthorization of the JJDPA, but there remains more work that could be 
done to address systemic problems in the juvenile justice system. As 
the House Education and Labor Committee begins to craft its version of 
the JJDPA reauthorization, NDRN and the P&As suggest that the Committee 
look at strengthening the Senate provisions addressing mental and 
behavioral health. In addition, more protections need to be enacted to 
ensure juveniles that do not belong in the adult criminal system do not 
end up there, more needs to be done to divert children from the 
juvenile justice system and dismantle the school to prison pipeline, 
and the outmoded concept of incarcerating status offenders for 
violations of a Valid Court Order needs to be abolished.
    However, while all those changes would make a positive change in 
the juvenile justice system, there is still an important component that 
is lacking, and that is independent monitoring and oversight. Juvenile 
justice facilities are currently largely unregulated and free from 
independent, third-party monitoring and oversight. Current reporting 
requirements regarding deaths, serious injuries, and critical incidents 
in juvenile justice facilities are inadequate, and monitoring and 
oversight systems are ineffectual or non-existent, or subject to the 
whims of state and local budget cuts.
    Into this gap in independent oversight and monitoring has stepped 
P&A systems all around the country. P&As are monitoring facilities and 
ensuring: problems in unsafe and understaffed facilities are identified 
and remedied; juveniles are receiving needed and mandated services 
while incarcerated; youth who can be diverted from the juvenile justice 
system are being appropriately referred; and youth who are being 
released are linked to needed services and supports that reduce the 
rate of recidivism. All P&As have an interest in performing this 
important work, however, a lack of dedicated funding has meant that not 
every P&A can perform this important independent oversight of the 
juvenile justice system.
    In addition to the recommendations made earlier concerning the 
reauthorization of the JJDPA, NDRN and the 57 P&As it represents 
believe that a new provision should be added to the Act to dedicate a 
stream of funding to allow every P&A to provide a level of independent 
monitoring and oversight to the juvenile justice system in their state 
or territory. Such a Juvenile Justice Protection and Advocacy program 
will promote the use of practices in the juvenile justice system that 
are cost effective and increase public safety by holding youth 
accountable while helping them become productive adults.
    Creating a Juvenile Justice Protection and Advocacy program is an 
extremely cost effective way to provide independent oversight of the 
juvenile justice system. First, it is always cost effective to identify 
dangerous conditions and practices as early as possible to correct them 
before they result in costly liabilities. This is something that the 
P&A System has clearly shown throughout its more than 30 year existence 
in juvenile justice facilities as well as other facilities where 
individuals with a disability reside.\i\
---------------------------------------------------------------------------
    \i\ For additional information about the need to Include a Juvenile 
Justice Protection & Advocacy Program in the JJDPA Reauthorization Act, 
see: http://www.ndrn.org/issues/jj/faq.htm#why1
---------------------------------------------------------------------------
    Providing dedicated funding to the P&A System to perform juvenile 
justice work eliminates the need to create a new system of independent 
oversight as the infrastructure already exists within this federally 
mandated nationwide network with a proven track record for more than 30 
years. P&As already have unique federally-mandated authority to access 
juvenile justice facilities, jails and prisons in order to monitor and 
investigate conditions and practices, including violations of the 
Juvenile Justice and Delinquency Prevention Act (JJDPA). The P&A System 
would bring independence, disability expertise, experience, and 
knowledge of evidence-based practices, and is ready to begin 
immediately as soon as funding becomes available.
    Another benefit of the P&As is that they tailor their advocacy 
activities to the unique needs and issues in their jurisdictions. The 
range of potential P&A activities that are already being performed in 
the juvenile justice system and would be expanded with a dedicated 
stream of funding includes:
    <bullet> Community-based advocacy. Promoting inter-agency 
collaborative approaches to reducing the disproportionate contact of 
youth with disabilities with the juvenile justice system.
    <bullet> Diversion advocacy. Training for and consulting with 
judges, probation officers, and others about disability issues and 
resources in order to divert youth from confinement, as appropriate.
    <bullet> Facility-based advocacy. Identifying dangerous conditions 
and practices that place confined youth at risk of harm. Advocating for 
special education and mental health services that promote positive 
youth development.
    <bullet> Discharge planning advocacy. Promoting reintegration of 
youth into their communities via aftercare services that reduce 
recidivism (e.g., education, employment, mental health care).
    NDRN and the P&As feel there is an opportunity with the 
reauthorization of the JJDPA to make many positive changes to the Act, 
most importantly the addition of independent oversight to our nation's 
juvenile justice system. Given the P&As' record of achievement and the 
efficiency and cost effectiveness of using an already existing system 
with representation in every state and the territories, NDRN and the 57 
P&As feel strongly that a dedicated stream of funding to the P&As 
focused on the juvenile justice system will achieve the goal of 
independent oversight and monitoring of the juvenile justice system.
    We thank you for the opportunity to submit this testimony today, 
and stand ready to work with all Members of the House Education and 
Labor Committee to pass a strong reauthorization of the JJDPA.
                                 ______
                                 
    [Whereupon, at 12:30 p.m., the committee was adjourned.]

                                 <all>

</pre></body></html>
